<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Bond, Burns, Inouye, 
Leahy, Mikulski, and Dorgan.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, 
            NATIONAL GUARD BUREAU

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning and welcome to all of you. 
Sorry to be a little late. We want to welcome you to today's 
hearing on National Guard and Reserve programs. There are two 
panels scheduled today. First we want to hear from the National 
Guard leadership and then from the leaders of the four Reserve 
forces.
    This first panel consists of: Lieutenant General Steven 
Blum, Chief of the National Guard Bureau; Lieutenant General 
Clyde Vaughn, Director of the Army National Guard; and Major 
General Charles Ickes, Acting Director of the Air National 
Guard. We thank you very much for coming, for your service, and 
we do welcome General Vaughn and General Ickes to their first 
hearing before this subcommittee. We are pleased to have you 
here.
    We know that in the past year Guard and Reserves have 
continued to provide support for their active duty forces 
overseas. The total force is a reality now, there is no 
question about it. In addition to augmenting the military 
effort in Iraq and Afghanistan, the Reserves have also stepped 
up to meet challenges such as securing our homeland, responding 
to national disasters such as Hurricane Katrina. You had 
several sizable missions to fulfill and have accomplished all 
of them with a great deal of success, and we thank all of your 
citizen-soldiers for their dedication and sacrifices at home 
and abroad.
    We want to hear about several challenges we are told that 
face our Guard and Reserves, including the continued 
deployments, modernization of equipment, and recruiting and 
retention of personnel. We would like to have you discuss the 
future plans to remain relevant and ready to support our total 
domestic security. We look forward to hearing from each of you 
how the fiscal year 2007 budget request will help you address 
these issues.
    Let me yield to my good friend, the co-chairman from 
Hawaii, Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman. I 
would like to join you in welcoming our witnesses.
    The utilization and dependency on our Reserve and Guard 
forces have changed dramatically. Now you are all over the 
world. There is an unprecedented demand for the Reserves. Today 
your forces are spread around the globe and serving here at 
home by the thousands. As this subcommittee has noted in past 
hearings, your troops have responded magnificently. The 
integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq have been seamless. The bravery is 
impressive.
    Again, we congratulate you for having your forces prepared 
for the challenges they are now facing. But as I say this, I 
know that the challenges facing us are many and growing. For 
example, many States are concerned about the plans the Army has 
to reorganize several Guard units. We are aware of the concerns 
that our returning reservists may have difficulty being 
retained. We know about your shortfalls of equipment for those 
returning from service overseas. We understand that some 
Reserve units have been called to deploy overseas more than 
once since 9/11, straining relationships with employers and 
their families.
    So today we are here to hear your recommendations, to 
ensure that our Guard and Reserve forces remain strong and 
ready to meet the future.
    So I thank you, Mr. Chairman, for calling this hearing.
    Senator Stevens. Senator Burns.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you very much, Mr. Chairman.
    I want to thank the distinguished folks who are at the 
table this morning. I want to say on these past couple of weeks 
I had an opportunity to meet a group of young men from Nellis 
Air Force Base in Montana. They are rescue and recovery people, 
training in a rough topography and weather conditions, and they 
had them both up there, I think. And now, after a couple of 
weeks in Montana, why, they said, well, as tough as it was, we 
are reluctant to go back to Nellis. They just want to stay in 
Montana.
    But I thank you for coming this morning on something that 
is very dear to all of our hearts, because not only of the 
obligations that some of you have in our respective States, but 
also had it not been for your troops in recent operations I 
think we would have been hard-pressed to really complete a 
mission. So I appreciate that. You have proven yourselves to be 
flexible. We have tried as Congress to put the infrastructure 
in place that would facilitate not only your recruiting but 
also your training and the morale of the troops, because, as 
you know, most are citizen-soldiers and have obligations to 
their communities and to their families and do this out of 
their real deep commitment to the security of this country. I 
commend you on that and your leadership.
    We are here now--I think a couple of primary concerns is 
ensuring that you have the funding to reset the force now, 
because we have been deployed around the world, as Senator 
Inouye indicated, now to revitalize not only from a human 
resource but also our equipment and our ability to train and to 
bring new people into our force. We are making sure that the 
funding is not shortchanged with the area of your concerns, 
that we maintain that ability to be ready when called, and also 
taking care of these great Americans, their families and their 
support system that really makes us a different kind of a 
society, so to speak.
    So I commend you on your leadership. Also, how do we deal 
with employers who all at once look down the line one day and 
they have some holes in their own operation at home, and when 
the troops come home do they have jobs and do they have the 
support system that puts them back into society before it was 
disrupted? Not that their level of patriotism has lowered any, 
but they have other obligations also, and we want to make sure 
that those support services are there.
    So thank you, Mr. Chairman. I look forward to their 
testimony.
    Senator Stevens. Thank you, Senator.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you, Mr. Chairman.
    To the people at the head table, a very enthusiastic 
welcome. General Blum, it is great to see you again. They 
really enjoyed your speech at the University of Baltimore 
graduation, where you were inspirational, motivational, and 
really admired, and my family certainly enjoyed meeting you 
that day.
    I think that is characteristic here. You know, your job is 
to inspire and to motivate the Guards and our job is to make 
sure you have the right resources to do that.
    I just wanted to say very briefly, number one, thank you 
and please thank every single soldier, Air Force member of the 
National Guard that you represent. They really are appreciated, 
and we are going to show that appreciation today, not with 
words but with deeds.
    We want to hear what are the resources that are needed to 
support the Guard in their current mission and operations. 
Number two, what can we do to retain the best of the best in 
terms of whether it is family support, employer support, et 
cetera? Number three, how do we recruit new members of the 
National Guard, because they see that what it takes to be a 
citizen-soldier is a significant commitment of time, duty, and 
even personal expense.
    So thank you and God bless you for what you do and many 
thanks to all those who serve.
    General Blum. Thank you, Senator.
    Senator Stevens. Are you finished, Senator?
    Senator Mikulski. Yes.
    Senator Stevens. Thank you very much.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    Lieutenant General Blum, Lieutenant General Vaughn, Major 
General Ickes, welcome back to the subcommittee. Thank you very 
much for the service. The Guard as participants in the first 
gulf war, responders to 9/11, Hurricane Katrina, service in 
Operations Iraqi and Enduring Freedom, just to name a few, 
provided tremendous service to this country.
    I have been around a while working with Guard issues. In 
1991 I led a charge to preserve Guard units, including 3,100 
guardsmen in Missouri and more than 100,000 across the Nation, 
who were proposed for cuts by the Pentagon. In 2001 the Air 
Force eliminated the B-1 mission from the Air National Guard. 
During the 2005 base realignment and closure (BRAC) process we 
learned from testimony of adjutants general that the Air 
National Guard was not substantively involved and as a result 
they made one of the worst decisions I have seen, to shut down 
the 131st Fighter Wing with the F-15s at St. Louis, providing 
homeland security protection in the most efficient force, F-15 
force, in the air assets.
    Earlier this year, we heard proposals coming out of the 
Pentagon to reduce end strength of the Army Guard by 17,000 and 
14,000 from the Air Guard. We sent a little letter with 75 or 
80 signatures that got some rethinking of it.
    But on issue after issue, the Guard has had to rely on 
Congress, not its total force partners in the active duty, to 
equip and provide fully the resources and benefits it needs, 
not only to support our active duty warfighters in the away 
game as they serve right alongside with those men and women on 
active duty, but also to fulfil the Guard's paramount home game 
mission of defending the homeland and providing support to 
civil authorities.
    Why? It is obvious that the Guard is not provided with the 
bureaucratic muscle commensurate with its contributions to the 
total force. That is why Senator Leahy and I, who are co-chairs 
of the Senate National Guard Caucus, are introducing 
legislation today aimed at redressing the uphill battles the 
Guard must fight every year to ensure full training, equipping, 
and readiness to meet the missions.
    Mr. Chairman, I have a very long-winded statement that I 
will submit for the record, but I will spare you that and just 
wait for the questions. I thank the chair.
    Senator Stevens. We thank you for your generosity, Senator.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    Thank you Mr. Chairman.
    Lieutenant General Blum, Lt. General Vaughn and Major 
General Ickes (pronounced like ick-iss) welcome back to this 
committee and thank you first and foremost for your service to 
our nation.
    As participants in the first Gulf War, responders to 9/11 
and Hurricane Katrina, service in Operation Iraqi and Enduring 
Freedom, just to name a few operations, all of us are familiar 
with the tremendous service the National Guard has rendered to 
our Nation and the 50 states and four protectorates.
    In 1991, I lead a charge to preserve National Guard Units, 
including 3,100 guardsmen in Missouri and more than 100,000 
across the nation, from proposed cuts by the Pentagon. In 2001, 
the Air Force eliminated the B-1 mission from the Air National 
Guard, consolidating units into the active duty. During the 
2005 BRAC process, we learned and heard testimony from Adjutant 
Generals from numerous states that the Air National Guard was 
not substantively involved in that process or in the 
formulation of the Future Total Force initiative.
    Earlier this year, DOD, the Army and the Air Force proposed 
to reduce end-strength by 17,000 and 14,000 respectively and 
again, Congress had to step in and prevent such cuts. This 
decision, in addition to the aforementioned ones and the litany 
of others that I have not mentioned, was made without the 
substantive input from National Guard leaders.
    Year after year, issue after issue, the National Guard has 
had to rely on the Congress--not its total force partners in 
the Active duty--to equip and provide fully the resources and 
benefits it needs--not only to support our active duty 
warfighters in the away game as they serve right alongside with 
our brave men and women in the active duty, but to also fulfill 
the Guard's paramount home-game mission of defending the 
homeland and providing support to civil authorities.
    Why? Well, it is obvious to me that the National Guard is 
not provided with the bureaucratic muscle commensurate with its 
contributions to the total force. Senator Pat Leahy and I as 
co-Chairs of the Senate National Guard Caucus are introducing 
legislation today aimed at redressing these uphill battles that 
the Guard must fight every year to ensure they are trained, 
equipped and ready to meet their missions.
    Hurricane Katrina was one of the worst natural disasters in 
our nation's history.
    Our nation was reminded during the response to Hurricane 
Katrina of the Guard's other paramount mission: homeland 
defense and civil support. The National Guard's contributions 
to Hurricane Katrina were stellar.
    The magnitude, quality, and timeliness of the Guard's 
response remains one of the less publicized successes of the 
Katrina disaster.
    The Guard's successful response was attributable to the 
fact that the Guard is best organized and trained to initiate 
and coordinate a civil responses on the scale of Katrina.
    With equipment availability levels currently at a perilous 
35 percent, just think of the capability a fully equipped 
National Guard could provide a Governor and localities in the 
event of another terrorist attack or natural disaster.
    This is why I lead the charge along with my co-chair of the 
Senate National Guard Caucus Sen. Patrick Leahy, to provide 
over $900 million in last year's Defense Appropriations Bill 
for the shortages in equipment the Guard is experiencing.
    Time and time again the National Guard has been a 
tremendous value for the capabilities it provides our nation, 
providing 40 percent of the Total Force for around 7-8 percent 
of the budget.
    Now more than ever, as budgets are constrained and 
entitlements continue to grow at alarming rates, we should not 
be looking to reduce the Guard, but rather fully man and fully 
equip it.
    The growing significance of the operational role of the 
National Guard in matters of national security and homeland 
defense and homeland security, beyond that strictly deriving 
from its role as a reserve component of the Army and the Air 
Force, demands that the position of the Chief of the National 
Guard Bureau be raised to an authorized grade of General.
    It is a fundamental practice within the Pentagon that the 
most strategic decisions are made at the Secretarial level with 
the advice of the four-star Service Chiefs, the four-star 
Combatant Commanders and the other four-stars within the active 
duty force. The legislation introduced by Sen. Leahy and I will 
ensure that the vital interests of the National Guard which 
impacts military readiness, support to civilian authorities 
within the fifty states and four protectorates, and the 450,000 
civilian-soldiers and airmen, will be adequately represented.

    Senator Stevens. General Blum, we would be happy to have 
your statement. All your statements will appear in the record 
in full as though read, but we want to hear what you want us to 
hear.

                   OPENING STATEMENT OF GENERAL BLUM

    General Blum. Well, thank you, Chairman Stevens, Senator 
Inouye, and distinguished members of the subcommittee. Thank 
you for the opportunity to appear today and discuss the 
National Guard's budget submission for fiscal year 2007. I am 
proud to be here today with General Vaughn, the Director of the 
Army National Guard, and Major General Chuck Ickes, who is the 
Acting Director of the Air National Guard. Each of you--we will 
all discuss the funding issues that you asked us about, so you 
can better understand what we need to deliver the capabilities 
that you have so well articulated, so well that I am going to 
dispense with most of my opening statement because, frankly, 
you have delivered it for me, which is even better because it 
means you completely understand the issues and you understand 
the challenges that the National Guard is facing as we move 
from a strategic reserve to an operational force.
    I would be remiss, however, if I did not speak for the 
460,000 citizen-soldiers and citizen-airmen and express their 
appreciation to this subcommittee for the magnificent support 
that you have displayed for us, particularly in this last year. 
You helped us take care of personnel, training, and equipment 
needs in a very, very measured and effective manner. In fact, 
the robust appropriations of this particular subcommittee to 
the National Guard and Reserve account helped us purchase 
needed capabilities that we will probably use, unfortunately, 
very soon here in our country in the upcoming hurricane season, 
so that we are even more prepared than we were last year, when 
we responded with 80,000 soldiers deployed overseas and at the 
same time generated 50,000 citizen-soldiers from every State 
and every territory in this great Nation to Louisiana and 
Mississippi to help out in the aftermath of Hurricanes Katrina, 
Rita, and Wilma.
    The National Guard, as you have mentioned, is entering a 
new era in our Nation's history and it must adapt to these new 
challenges. To keep this type of force as effective as you have 
described and as important and as essential to the Department 
of Defense as the National Guard has become, we must ensure 
that the National Guard receives adequate funds and equipment 
to do the job.
    The National Guard is absolutely proud to serve and deliver 
the strong military capabilities both here at home and abroad 
in a most cost-effective manner. The funds that you appropriate 
I assure you will be well spent and highly leveraged both here 
at home in domestic operations as well as overseas in the 
global war on terrorism.
    When a guardsman is not mobilized, the Government does not 
incur any of the expenses that we routinely pay for our active 
duty force. We have an on-call capability for a fraction of the 
cost. For those of you that do not know it, the National Guard 
is and remains unique in the Department of Defense. It is the 
only uniformed force that can be called upon by the Governors 
of our Nation on a day-to-day basis. It is clearly the American 
taxpayers' best defense bargain.
    The Army National Guard is only on a normal day 12 percent 
of the Army's budget and it provides 32 percent of the Army's 
overall capabilities. It presently is providing about 40 
percent of the Army deployed on the ground fighting today in 
Iraq and Afghanistan. The Air National Guard only on a normal 
day gets 8 percent of the Air Force's budget and provides 34 
percent of the total Air Force's capability.
    There is an added benefit of the National Guard where the 
Federal and the State dual use dividend pays huge, huge 
dividends every day in every zip code of our Nation. There has 
never been a day in my tenure as the Chief of the National 
Guard Bureau for the last 3 years where national guardsmen were 
not called out by their Governors to either help save lives, or 
help prevent suffering, or help restore order, or help bring 
aid and assistance that the local and state governments were 
unable to do, and had to leverage the military capabilities of 
the Department of Defense.
    Before I thank you and finish my comment, I would like to 
introduce three American heroes. One is Command Sergeant Major 
John Leonard. Sergeant Leonard, please stand. This soldier will 
be completing 41 years in uniform next month and he will 
finally retire because he reaches the mandatory retirement age. 
That is the only reason that he is leaving. Otherwise he would 
stay probably for another 20.
    He served in three wars. He has been a national guardsmen, 
he has been a marine. He has been mobilized three times. He 
represents every citizen-soldier and citizen-airman in this 
great Nation, he has been my enlisted advisor for the last 3 
years, and he will be a huge loss. This Nation owes a great 
debt of gratitude to citizen-soldiers like John Leonard.
    Senator Stevens. Thank you very much.
    Sergeant, if you would like to have a waiver on that, look 
us up.
    General Blum. You can think about that, John.
    Command Sergeant Major Leonard leaves feeling pretty good, 
because there are two other soldiers, a soldier and airman, a 
citizen-soldier and an airman, here that I would like to 
introduce at this time. I have Specialist Mike Acquaviva from 
the United States Army National Guard. He comes out of the 
State of Alabama. He has been--he was prior service Air Force 
and he joined the National Guard 3 years ago. He is a heavy 
equipment operator in Alabama for Cullman County.
    He was mobilized for Iraq. He spent 18 months on active 
duty through the mobilization process, 1 year boots on the 
ground. He's a signal soldier, so he went over there to provide 
communications to the coalition forces, the State Department, 
Special Operations Forces, and some of our multinational 
partners in Iraq up in the area of Kirkuk.
    He was wearing a lot of battle armor and equipment and 
ammunition for several months that he thought he did not need 
because he thought he was there to be a radio operator, until 
he woke up one morning in Kirkuk and found 1,800 insurgents 
from one of the militias attacking and trying to overrun his 
position.
    Specialist Fourth Class Mike Acquaviva, although he is 
married, although he has a 14-year-old daughter, and although 
he is a signal soldier, climbed to the roof of a building, 
employed a squad automatic weapon, and was instrumental in the 
defeat of this attack. A captain fighting right beside him was 
hit with a sniper round through the arm, through his chest, and 
out his back. Specialist Acquaviva stopped what he was doing, 
rendered first aid, and saved the life of that captain, and 
then went back to firing his weapon for the next 9 hours 
continuous combat, until he ran out of ammunition, and then 
picked up the weapon of the wounded captain until all of his 
ammunition was expended.
    For his heroic deeds, he was awarded the Bronze Star with a 
V Device. We are extremely proud of this individual and he will 
be awarded the Combat Action Badge before he leaves Washington, 
because his actions have earned that. You will get that award 
before you leave town. Mike Acquaviva, American hero from 
Alabama Guard.
    Also, Staff Sergeant Carl Gurmsheid is from the Arizona 
National Guard. The reason that I have selected to bring him is 
that he has done every mission in the National Guard and has 
participated in the last 4 years. He was working in the Arizona 
National Guard as an engineer, a firefighter. He has shown his 
flexibility to retrain three times in the last 4 years to do 
what this Nation needed him to do. He worked in the 
counternarcotics, counterterrorism piece. He responded in 
Operation Noble Eagle right after 9/11, and ultimately he has 
just come back from his tour of combat in Iraq.
    So at home, overseas, civilian support to law enforcement, 
whatever the Guard does day to day, this is the kind of 
involvement that Carl Gurmsheid has been willing to stand up 
and do whatever his State or Nation needed him to do when they 
needed him to do it.
    He is also married. His wife Melissa and he have two 
children, Grace, 5, and Jacob, 3. The necessity to address not 
only the soldiers but their families is a priority at keeping 
the readiness of the force at combat level the next time we 
need them.
    So I am pleased to be the chief of 460,000 young men and 
women like I introduced to you here today.

                           PREPARED STATEMENT

    Thank you. I would be interested to answer any questions 
you may have. Thank you.
    Senator Stevens. Does that complete your statement, 
General?
    General Blum. Yes, sir. Yes, Mr. Chairman.
    [The statement follows:]
         Prepared Statement of Lieutenant General H Steven Blum
                              in memoriam
    A special dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.
     america's 21st century minutemen--always ready, always there!
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of January 1, 2006
PVT Algernon Adams, SC
SGT Leonard Wade Adams, NC
SPC Segun F. Akintade, NY
SPC Azhar Ali, NY
SGT Howard Paul Allen, AZ
1LT Louis E. Allen, NY
SSG William Alvin Allers III, KY
SFC Victor Antonio Anderson, GA
SPC Michael Andrade, RI
SGT Travis Mark Arndt, MT
SSG Daniel Laverne Arnold, PA
SSG Larry Richard Arnold, MS
SGT Christopher James Babin, LA
SSG Nathan J. Bailey, TN
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
1LT Gerald Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SPC Bryan Edward Barron, MS
SGT Michael Barry, MO
SPC Todd M. Bates, OH
SGT Tane Travis Baum, OR
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, VA
CPL Joseph Otto Behnke, NY
SGT Aubrey D. Bell, AL
SPC Bradley John Bergeron, LA
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr, CA
COL Canfield ``Bud'' Boone, IN
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box, Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Jacques Earl Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy Dale Buie, AR
SPC Alan J. Burgess, NH
SPC Casey Byers, IA
SGT Charles T. Caldwell, RI
SSG Joseph Camara, RI
SGT Deyson Ken Cariaga, HI
SPC Jocelyn L. Carrasquillo, NC
SGT James Dustin Carroll, TN
SGT Frank T. Carvill, NJ
SFC Virgil Ray Case, ID
CAPT Christopher S. Cash, NC
SPC Jessica L. Cawvey, Il
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris Shayne Chapin, VT
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SPC Brian Clemens, IN
SGT Russell L. Collier, AR
SFC Kurt Joseph Comeaux, LA
SPC Anthony Steven Cometa, NV
SFC Sean M. Cooley, MS
SSG Travis Sentell Cooper, MS
SGT Alex J. Cox, TX
SPC Carl F Curran, PA
SPC Daryl Anthony Davis, FL
SSG Kevin Dewayne Davis, OR
SPC Raphael S. Davis, MS
SSG David Fredrick Day, MN
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
PFC Nathaniel Edward Detample, PA
SPC Joshua Paul Dingler, GA
SPC Ryan E. Doltz, NJ
1LT Mark Harold Dooley, VT
SPC Thomas John Dostie, ME
SSG George Ray Draughn Jr., GA
SPC Christopher M. Duffy, NJ
SGT Arnold Duplantier,II, CA
SSG Mark Oscar Edwards, TN
SGT Michael Egan, PA
SGT Christian Philip Engeldrum, NY
CPT Phillip T. Esposito, NY
SPC William Lee Evans , PA
SPC Michael Scott Evans II, LA
SSG Christopher Lee Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
CPT Arthur L. Felder, AR
SGT Robin Vincent Fell, LA
SPC William Valentin Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien Thai Ficek, WA
SGT Jeremy J. Fischer, NE
CPT Michael Todd Fiscus, IN
SPC David Michael Fisher, NY
SGT Paul F. Fisher, IA
CW2 John Michael Flynn, NV
SSG Tommy I. Folks, Jr., TX
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, NC
SSG Jacob Frazier, IL
SPC Carrie Lee French, ID
SPC Armand L. Frickey, LA
SSG Carl Ray Fuller, GA
SGT Jerry Lewis Ganey Jr., GA
SGT Seth Kristian Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew Vincent Gibbs, GA
2LT Richard Brian Gienau, IA
SSG Charles Crum Gillican III, GA
SPC Lee Myles Godbolt, LA
SPC Richard A. Goward, MI
SSG Shawn Alexander Graham, TX
SGT Jamie A. Gray, VT
SPC James T Grijalva, IL
SGT Jonathon C Haggin, GA
SFC Peter James Hahn, LA
SSG Asbury Fred Hawn II, TN
SPC Michael Ray Hayes, KY
SPC Paul Martin Heltzel, LA
SPC Kyle Matthew Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SPC Brett Michael Hershey, IN
MSG Michael Thomas Hiester, IN
SGT Stephen Correll High, SC
SGT Jeremy M. Hodge, OH
SFC Robert Lee Hollar Jr., GA
SPC James J. Holmes, ND
SPC Jeremiah J. Holmes, NH
SGT Manny Hornedo, NY
SGT Jessica Marie Housby, IL
SPC Robert William Hoyt, CT
SPC Jonathan Adam Hughes, KY
SGT Joseph Daniel Hunt, TN
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia Lynn Jameson, NE
SGT Brahim Jamal Jeffcoat, PA
SPC William Jeffries, IN
SPC David W. Johnson, OR
SSG David Randall Jones, GA
SFC Michael Dean Jones, ME
SGT Anthony Nelson Kalladeen, NY
SPC Alain Louis Kamolvathin, NY
SPC Mark J. Kasecky, PA
SPC Charles Anthony Kaufman, WI
SPC James C. Kearney, IA
SGT Michael Jason Kelley, MA
SSG Stephen Curtis Kennedy, TN
SSG Ricky Allan Kieffer, MI
SGT James Ondra Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SSG Lance J. Koenig, ND
CW3 Patrick W. Kordsmeier, AR
SPC Kurt Eric Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SPC Charles R. Lamb, II
CW4 Patrick Daniel Leach, SC
SGT Terrance Delan Lee, Sr., MS
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Tiothy J. Lewis, DC
SGT Jesse Marvin Lhotka, MN
SSG Victoir Patric Lieurance, TN
SPC Justin W. Linden, OR
SSG Tommy Seary Little, MS
SPC Jeremy Loveless, AL
SSG David L Loyd, TN
CPT Robert Lucero, WY
SPC Audrey Daron Lunsford, MS
SPC Derrick Joseph Lutters, KS
SPC Wai Phyo Lwin, NY
SSG William Francis Manuel, LA
SPC Joshua Samuel Marcum, AR
PFC Ryan A. Martin, OH
SGT Nicholas Conan Mason, VA
SPC Patrick R. McCaffrey, Sr., CA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, WA
SGT John Edward McGee, AL
SPC Jeremy Wayne McHalffey, AR
SPC Eric S. McKinley, OR
SPC Scott Paul McLaughlin, VT
SSG Heath A. McMillan, NY
SPC Robert Allen McNail, MS
MSG Robbie Dean McNary, MT
SPC Kenneth A. Melton, AR
SGT Chad Michael Mercer, GA
SSG Dennis P Merck, GA
SPC Michael G. Mihalakis, CA
SGT John Wayne Miller, IA
CPT Lowell Thomas Miller II, MS
SFC Troy L. Miranda, AR
SGT Ryan Jay Montgomery, KY
SGT Carl James Morgain, PA
SPC Dennis B. Morgan, SD
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, II
SPC Clifford L. Moxley, PA
SPC Warren Anthony Murphy, LA
SGT David Joseph Murray, LA
SPC Nathan W. Nakis, OR
SPC Creig Lewis Nelson, LA
SSG Paul Christian Neubauer, CA
SPC Joshua M. Neusche, MO
SPC Paul Anthony Nicholas, CA
SGT William J. Normandy, VT
PFC Francis Chinomso Obaji, NY
SGT John Banks Ogburn, OR
SGT Nicholas Joseph Olivier, LA
SSG Todd Donald Olson, WI
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy Ryndale Osbey, MS
SSG Ryan Scott Ostrom, PA
SSG Michael C. Ottolini, CA
PFC Kristian E. Parker, LA
SSG Saburant Parker, MS
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob Loren Pfingsten, MN
SGT Ivory L. Phipps, IL
CW2 Paul J. Pillen, SD
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn Robert Poulin, SR, ME
SPC Robert Shane Pugh, MS
SSG George Anthony Pugliese, PA
SPC Joseph Andrew Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose Carlos Rangel, CA
SSG Johnathan Ray Reed, LA
SSG Aaron T. Reese, OH
SGT Gary Lee Reese Jr., TN
SPC Jeremy L. Ridlen, IL
CPL John T. Rivero, FL
SSG William Terry Robbins, AR
CPL Jeremiah W. Robinson, AZ
SSG Alan Lee Rogers, UT
PFC Hernando Rois, NY
SFC Daniel Romero, CO
SGT Brian Matthew Romines, IL
SFC Robert E. Rooney, MA
SPC David L. Roustrum, NY
SGT Roger D. Rowe, TN
SGT David Alan Ruhren, VA
CW4 William Ruth, MD
SPC Lyle Wyman Rymer II, AR
SGT Paul Anthony Saylor, GA
SFC Daniel Ronald Scheile, CA
SPC Jeremiah W. Schmunk, WA
SPC Bernard Leon Sembly, LA
SPC Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie Lee Shelley, GA
SGT James Alexander Sherrill, KY
1LT Andrew Carl Shields, SC
SGT Alfredo Barajas Silva, CA
SGT Alfred Barton Silver, TN
SGT Isiah Joseph Sinclair, LA
SPC Roshan ``Sean'' R. Singh, NY
SPC Aaron J. Sissel, IA
1LT Brian D. Slavenas, IL
SGT Eric Wentworth Slebodnik, PA
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Michael Antonio Smith, AR
SPC Norman Kyle Snyder, IN
SGT Mike Takeshi Sonoda Jr., CA
SGT Patrick Dana Stewart, NV
SGT Michael James Stokely, GA
Maj Gregory Stone, ID
SPC Chrystal Gale Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis Joseph Straub Jr., PA
SGT Thomas James Strickland, GA
WO1 Adrian Bovee Stump, OR
SSG Michael Sutter, MI
SGT Robert Wesley Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SGT Shannon D. Taylor, TN
MSG Thomas R. Thigpen, Sr., SC
SGT John Frank Thomas, GA
SGT Paul William Thomason, TN
1LT Jason Gray Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric Lee Toth, KY
SPC Seth Randell Trahan, LA
SPC Quoc Binh Tran, CA
SGT Robert W. Tucker, TN
2LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo Fernando Urbina, NY
SGT Michael A. Uvanni, NY
SGT Gene Vance Jr., WV
SGT Daniel Ryan Varnado, MS
1LT Michael W. Vega, CA
PFC Kenneth Gri Vonronn, NY
SSG Michael Scott Voss, NC
PFC Brandon J. Wadman, FL
SGT Andrew Peter Wallace, WI
SFC Charles Houghton Warren, GA
SFC Mark C. Warren, OR
SPC Glenn James Watkins, WA
SPC Michael J. Wedling, WI
SSG David J. Weisenburg, OR
SPC Cody Lee Wentz, ND
SPC Jeffrey M. Wershow, FL
SGT Marshall Westbrook, NM
SPC Lee Alan Wiegand, PA
1LT Charles L. Wilkins III, OH
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, GA
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SGT Elijah Tai Wah Wong, AZ
SFC Ronald Tanner Wood, UT
SGT Roy A. Wood, FL

     LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU
             CHIEF, NATIONAL GUARD BUREAU EXECUTIVE SUMMARY

    This past year the National Guard demonstrated how superbly it 
simultaneously performs our dual missions, state and federal.
    In August 2005, with more than 80,000 troops already mobilized for 
the global war on terror and faced with Katrina, a catastrophic 
hurricane, the Gulf Coast governors called upon the Guard. The Guard, 
the nation's preeminent military domestic response force, fulfilled our 
commitment to the governors and our neighbors. In spite of a massive 
wartime mobilization, the Guard mobilized and deployed the largest 
domestic response force in history. Soldiers and Airmen from all 50 
states, the territories of Guam and the U.S. Virgin Islands, the 
Commonwealth of Puerto Rico and the District of Columbia deployed in 
record time in support of their Gulf Coast neighbors. Never before had 
every corner of America answered the desperate cry of our neighbors in 
such unison. Truly, when you call out the Guard, you call out America!
    Guard forces were in hurricane affected neighborhoods rescuing 
people within four hours of Katrina's landfall. More than 11,000 
Soldiers and Airmen were involved in rescue operations on August 31. 
The Guard mobilized and deployed, in support of rescue and recovery, an 
additional 19,000 troops in the following 96 hours. Guard participation 
peaked at over 50,000 personnel on September 7. More than 6,500 Guard 
men and women were in New Orleans alone by September 2, 2005. The 
National Guard responded in spite of massive overseas deployment of 
personnel and equipment in support of our federal mission.
    No state, regardless of its size, can handle a natural or man-made 
catastrophe of the magnitude of a Katrina. Emergency Management 
Assistance Compacts allowed governors of affected states to immediately 
call upon another state's National Guard as reinforcements for recovery 
efforts. In 23 states, the Adjutant General also serves as the State 
Director of Emergency Management, State Director of Homeland Security, 
or both. This is an important aid in the coordination of the civil and 
military response.
    The National Guard has undergone a total transformation in the past 
few years. The once ponderous Cold War strategic reserve transformed 
itself into an agile, lethal operational force capable of joint and 
expeditionary warfare--a uniquely flexible force simultaneously capable 
of responding to a broad range of civil and humanitarian crises.
    The Guard serves our nation and communities across the full 
spectrum of domestic and warfighting missions. We fight narco-terrorism 
through our counterdrug programs. We work with our nation's youth 
through programs like StarBase and ChalleNGe to ensure they have a 
brighter future. We stand guard over America's critical physical and 
cyber infrastructure. Our Airmen fly the vast majority of air 
sovereignty missions over America's cities, while our Soldiers man air 
defense batteries in the nation's capital and the nation's sole 
ballistic missile interceptor site in Alaska. We conduct peacekeeping 
operations in Kosovo and the Sinai, stand watch aboard military cargo 
ships as they transit the Persian Gulf, guard prisoners in Guantanamo 
Bay, and train the Iraqi and Afghan national armies. Joint and 
multinational training, exercises, humanitarian support and a variety 
of other missions have taken the Guard overseas to more than 40 nations 
on five continents last year alone.
    The Guard stands more ready, reliable, essential and accessible 
today than at anytime in its near-four hundred years of existence. 
Since 9/11, we have been employed around the world and here at home as 
an operational force in a variety of contingencies. It is a role that 
the Guard was not structured to perform before 9/11. The Guard--with 
the exception of those units mobilized for war--is still under-
resourced for many of the missions it now performs. Army Guard units in 
particular remain manned at Cold War levels, lack a robust cadre of 
full-time support personnel, and are equipped well below wartime 
requirements. Other vestiges of this Cold War construct, such as a 
needlessly-long mobilization process, continue to hamper the most 
efficient use of the Guard.
    Our nation's reliance on the Guard is unprecedented at this stage 
in a major war. At one point in 2005, the Army National Guard 
contributed half of the combat brigades on the ground in Iraq. The 
Army's leadership has acknowledged that the Army could not sustain its 
presence in Iraq without the Guard. As of January 1, 2006, over 350 
Guard men and women have given their lives while engaged in this global 
struggle.
    Guard units bring more to the warfight than just Soldiers and 
Airmen. There is ample anecdotal evidence that the civilian skills 
Guard members possess make them exceptionally well suited for 
peacekeeping and nation building. An Iraqi policeman may have limited 
respect for an American Soldier who attempts to train him in the 
methods of civilian law enforcement. But, when that Soldier is a 
National Guardsman with 20 years of civilian experience as a police 
officer, that Soldier's credibility and impact as a trainer is vastly 
enhanced.
    Guard support to the warfight is not limited to our role on the 
battlefield. The Guard's unique State Partnership Program continues to 
support Combatant Commander's Security Cooperation Plans and strengthen 
alliances with 50 allied nations around the world. This immensely 
successful program has grown from direct military-to-military exchanges 
to encompass military-to-civilian and ultimately civilian-to-civilian 
exchanges. Once again, the citizen Soldiers and Airmen of the National 
Guard are the bridge that allows this to happen, with their combination 
of military and civilian backgrounds providing a sterling example of 
how America has peacefully balanced military and civilian interests for 
well over 300 years.
    National Guard units deployed to combat since September 11th have 
been the best-trained and equipped force in American history. The U.S. 
Army invested $4.3 billion to provide those units with the very best, 
state-of-the-art equipment.
    This is an unprecedented demonstration of the Army's commitment to 
ensure that no Soldier, regardless of component (Active, Guard, or 
Reserve), goes to war ill equipped or untrained. With the help of the 
U.S. Congress, this was accomplished over a two-year period. It is now 
a reality for National Guard overseas combat deployments.
    The Guard, since September 11th, has been well equipped for its 
overseas missions, and has demonstrated its Citizen-Soldier expertise 
across the full-spectrum of warfighting, peacekeeping, and security 
engagement with our allies. The response to Katrina, however, revealed 
serious shortcomings in the equipping of Guard units for Homeland 
Security and Defense. Guard units returned from the overseas warfight 
with a fraction of the equipment with which they deployed, leaving them 
far less capable of meeting training requirements, or more importantly, 
fulfilling their missions here at home.
    The senior leadership of the U.S. Army has committed to re-
equipping the Guard, the nation's first domestic military responders. 
The Army has a comprehensive reset plan that recognizes the Army 
National Guard's critical role in Homeland Defense (HLD) and support to 
Homeland Security (HLS) operations. This will take time and resources. 
I am confident that a real sense of urgency exists to make this a 
reality for America. The Guard currently has less than 35 percent of 
the equipment it requires to perform its wartime mission. We gratefully 
acknowledge the $900 million down-payment Congress made on resourcing 
our needs as an operational force for HLD/HLS and the overseas 
warfight, and recognize the full cost of restoring readiness will 
require continuing long-term Congressional attention.
    Satellite and tactical communications equipment, medical equipment, 
utility helicopters, military trucks and engineer equipment are the 
Army Guard's highest equipment priorities. We must ensure that this 
equipment is identical to that required for wartime use, so that Guard 
units remain interoperable with their active component counterparts for 
both HLD/HLS and warfight operations. We also need to invest in an 
extensive non-lethal weapons capability for use in both domestic and 
overseas contingencies.
    Two years ago, I committed to the governors, our state Commanders-
in-Chief that the National Guard Bureau would provide each of them with 
sufficient capabilities under state control, and an appropriate mix of 
forces, to allow them to respond to domestic emergencies. I also 
promised to provide a more predictable rotation model for the 
deployment of their Army Guard Soldiers, along the lines already in 
place for Air Guard units participating in the Air and Space 
Expeditionary Force deployments.
    The National Guard Bureau is committed to the fundamental principle 
that each and every state and territory must possess ten core 
capabilities for homeland readiness. Amidst the most extensive 
transformation of our Army and Air Forces in decades, we want to ensure 
that every governor has each of these ``essential 10'' capabilities: a 
Joint Force Headquarters for command and control; a Civil Support Team 
for chemical, biological, and radiological detection; engineering 
assets; communications; ground transportation; aviation; medical 
capability; security forces; logistics and maintenance capability.
    The final 11 Civil Support Teams were organized this past year, 
giving every state and territory the capability of rapidly assisting 
civil authorities in detecting and responding to a Weapons of Mass 
Destruction attack. These are joint units, consisting of both Army and 
Air National Guard personnel.
    Air Guard personnel in the Civil Support Teams are part of a larger 
trend. The National Guard has leveraged homeland defense capabilities 
from the Air Guard far beyond the now-routine mission of combat air 
patrols over our cities. Every state fields rapid reaction forces 
capable of quickly responding to a governor's summons, and in many 
cases these forces consist of Air Guard security police. The Air Guard 
also provides extensive HLS capabilities with its communications, 
ground transportation, and chemical-biological-radiological detection 
units.
    The civil engineering capabilities of Air Guard RED HORSE (Rapid 
Engineer Deployable Heavy Operational Repair Squadron Engineer) teams 
and the medical capabilities of Air Guard Expeditionary Medical Support 
(EMEDS) systems proved extremely valuable in responding to Katrina. We 
are examining fielding these capabilities on a regional basis for more 
rapid response to future disasters.
    Our 12 regional Chemical, Biological, Radiological, Nuclear and 
high-yield Explosive (CBRNE) Enhanced Response Force Packages (CERFP) 
provide mass casualty decontamination, medical treatment, security and 
urban search and extraction in contaminated environment capabilities in 
addition to the special skills of the Civil Support Teams. These units 
are not dedicated solely to Homeland Defense, but are existing 
warfighting units that have been given a powerful new HLD capability by 
virtue of modest amounts of additional equipment and training. This 
program, a concept only two years ago, has already placed 12 certified 
force packages on the ground, with Congress authorizing an additional 
five in the fiscal year 2006 Defense Appropriation. It is now an 
important part of the Guard's increasingly sophisticated Homeland 
Defense capability.
    The Guard has fielded six regional Critical Infrastructure 
Program--Mission Assurance Assessment (MAA) teams to conduct 
vulnerability assessments of Department of Defense critical 
infrastructure. These teams conduct force protection training and plan 
for emergency response to a terrorist attack or natural disaster 
striking our critical infrastructure. Four more teams will be fielded 
in fiscal year 2006. These specialized capabilities are available to 
any state or region, along with traditional Guard forces should they be 
needed.
    The most critical transformation the National Guard has undergone 
since 2001 has been in the Joint Forces Headquarters in each state, 
territory, and the District of Columbia (JFHQ-State). What used to be 
the State Area Command (STARC) and Air Guard State Headquarters, 
administrative organizations for peacetime control of units, has 
developed into a sophisticated headquarters and communications node 
capable of assuming command and control of units from all services and 
components when responding to a domestic emergency. Tested and proven 
during multiple National Special Security Events in 2004, these 
headquarters were further validated this past year by hurricanes 
Katrina and Rita.
    These headquarters, now operated on a continual 24/7/365 basis, 
must be linked together to provide robust capabilities to share secure 
and non-secure information within the State or Territory, to deployed 
incident site(s), and to other DOD and inter-governmental partners 
engaged in support of Homeland Defense and Defense Support to Civil 
Authorities missions. To support these needs in the near-term, NGB has 
fielded 13 rapid response communications packages--the Interim 
Satellite Incident Site Communications Set (ISISCS)--that are 
regionally-based, and which proved absolutely vital when the entire 
domestic communications infrastructure in the Gulf Coast region of the 
United States went down during Hurricane Katrina. To satisfy the full 
range of required Command and Control, Communications, and Computer 
(C4) capabilities, NGB and U.S. Northern Command have collaborated on 
the Joint Continental U.S. Communications Support Environment (JCCSE) 
construct. When fully implemented, the JCCSE will provide U.S. Northern 
Command, U.S. Pacific Command, the National Guard Bureau, each Joint 
Force Headquarters-State, and our inter-governmental partners with the 
vital C4 capabilities and services to support continuous and accurate 
situational awareness of operational capabilities at the State or 
Territory and incident levels; enhanced information sharing and 
collaboration capabilities to facilitate mission planning, resourcing, 
and execution; and a fully integrated trusted information sharing and 
collaboration environment to facilitate coordination and unity of 
effort.
    Today we are taking on the challenge of responding to a potential 
flu pandemic that could challenge domestic tranquility like no other 
event since the Civil War. The forward deployed JFHQ-State are the only 
existing organization with the intrinsic capabilities, knowledge of 
local conditions and realities, geographic dispersion, resources and 
experience to coordinate the massive state-federal response that would 
be required in a pandemic of the predicted magnitude. Aided by the 
JCCSE communications backbone, the headquarters can assist civil 
authorities as they share a common operating picture, request and 
coordinate specialized regionally-based response forces, and receive 
follow-on forces from other states, federal reserve forces, or active 
duty forces.
    The Guard must continue to transform in order to maintain our 
status as a fully operational reserve of the Army and the Air Force, 
while at the same time increasing our ability to respond to terrorist 
attack or natural disaster at home. We must also continue to commit 
ourselves to recruiting and retaining a quality force capable of 
meeting these challenges for decades to come.
    Seventy-four percent of the Army National Guard's units are 
impacted by the U.S. Army's conversion to a modular force structure. 
The Army National Guard contribution to the modular total force 
includes 34 Brigade Combat Teams, six Fires Brigades, 10 Combat Support 
Brigades (Maneuver Enhancement), 11 Sustainment Brigades, 12 Aviation 
Brigades, an Aviation Command and three Sustainment Commands. These 
units are identical in structure to those in the active component, and, 
when resourced like their active counterparts, will allow a seamless 
transition between active and reserve forces in combat with minimal 
time required for train up.
    However, to make the Guard's units truly interchangeable, we must 
man them like the active Army, with an overhead allotment for trainees, 
transients, holdees, and students. Otherwise, we are forced to continue 
the debilitating practice of stripping other units of personnel 
whenever we mobilize a unit for war. In the same way, our full-time 
manning levels are also based on a Cold War construct, and assume that 
our units will have ample time to make up for a lack of readiness after 
mobilization. Cold War era manning levels limit the Guard's ability to 
perform as a modern, operational force.
    The National Guard continues to engage with Joint Forces Command 
and the Army to transform the lengthy and redundant mobilization 
process for Army Guard units, one of the last vestiges of our Cold War 
military construct. The no-notice deployment of 50,000 Guard members to 
the Gulf Coast for Hurricane Katrina, as well as the fact that over 
half of all current Army Guard members had been previously mobilized, 
makes the argument for streamlining mobilization more powerful than 
ever before in our 369 year history.
    The Air National Guard will continue to leverage its existing 
capabilities as it evolves to remain a full partner in the Future Total 
Air Force plan. The response to Hurricane Katrina reaffirmed the 
critical need for intra-theater airlift. The unprecedented, timely 
response would have been impossible without the Air Guard's airlift.
    The Base Realignment and Closure process removed the last flying 
unit from some states. Though the Air National Guard is expanding in 
such non-flying missions as intelligence, security police, and unmanned 
aerial vehicles, it is impossible to maintain a healthy, balanced Air 
National Guard structure in any state without some manned aircraft. The 
National Guard Bureau is entrusted to allocate Guard units among the 
states, and working together with the Air Force and Air Force Reserve, 
I will attempt to maintain manned aircraft in every state, territory, 
and the District of Columbia.
    The Air National Guard is at full strength, with retention and 
recruiting programs to fill the ranks. The Army National Guard has 
turned the corner and has begun to increase in strength due to the 
increases in bonuses and the funding of new recruiters authorized by 
Congress in 2004. However, we can do more to strengthen recruiting. 
Historically, Guard units enjoy close camaraderie because they are 
built around a network of Soldiers and Airmen who actively recruit 
their friends and family into their units. We acknowledge and encourage 
this powerful source of strength by promoting both the Guard Recruiting 
Assistance Program (G-RAP) and the ``Every Soldier a Recruiter'' (ESAR) 
initiatives, rewarding Guard members who make the extra effort to bring 
new enlistees into their units and sponsor them through the initial 
entry process.
    Retention of current Guard members, particularly those in units 
returning from overseas, is well above pre-September 11th levels. 
Nevertheless, we must remain aware of the negative impact that our most 
critical need--lack of equipment--has on our ability to recruit and 
retain Soldiers. Morale suffers when Soldiers cannot train for their 
wartime or domestic missions for lack of equipment.
    Our priorities this year to maintain a vibrant, capable and agile 
National Guard are recruiting and retention bonuses and initiatives, 
equipment reset and modernization and obtaining critical domestic 
mission resources. Our nation's future security mandates that the Guard 
continues to transform to meet challenges both at home and abroad.
    Critics maintain that more than four years of continuous service at 
home and abroad have stressed the National Guard to the breaking point. 
I emphatically disagree. Morale in the National Guard is superb. We 
fight a fanatical enemy overseas that has already demonstrated his 
desire to destroy our families and our nation. At home, the gratitude 
our nation displayed to its Army and Air National Guard in the wake of 
hurricanes Katrina and Rita has been invigorating. We understand the 
mission and purpose for which we have been called.
    We have been, and we remain, America's minutemen--Always Ready, 
Always There!

 LIEUTENANT GENERAL CLYDE A. VAUGHN, VICE CHIEF, NATIONAL GUARD BUREAU 
                   AND DIRECTOR, ARMY NATIONAL GUARD
            ``SERVING A NATION AT WAR: AT HOME AND ABROAD''
                       MESSAGE FROM THE DIRECTOR

    During fiscal year 2005, the nation saw Army National Guard 
Soldiers at their best and busiest: fulfilling dual roles as citizens 
and Soldiers and responding frequently to the ``call to duty.'' Our 
Soldiers have been noticeably involved in operations both at home and 
around the world. In Iraq and Afghanistan, they continue to aid in the 
transition and struggle for a healthy democracy. Along the Gulf Coast 
after Hurricanes Katrina and Rita, Soldiers performed thousands of 
rescue and recovery operations. Across the nation, they continue to 
support communities and citizens in need. In fiscal year 2005, the 
National Interagency Fire Center responded to over 54,000 wild land 
fires that threatened over 8 million acres; the National Guard 
participated in a large proportion of these alerts. Citizen-Soldiers 
continued to guard key assets and responded to Governors' requests in 
support of state emergencies.
    Use of Army National Guard units in domestic and foreign 
contingencies continued in record-setting numbers throughout fiscal 
year 2005 with increased participation in areas of military support to 
civilian authorities, state active duty, counterdrug operations, and 
force protection. During Operation Winter Freeze (November 2004 through 
January 2005), the National Guard and active component Title 10 forces, 
in support of the U.S. Border Patrol, prevented illegal alien access 
along a 295-mile stretch of the U.S.-Canadian border. During the 
mission, the National Guard exposed three terrorist smuggling 
organizations.
    Following the best traditions of the Army National Guard, all 54 
states and territories engaged in one or more of the following 
operations: Operation Iraqi Freedom, Operation Enduring Freedom, 
Operation Noble Eagle, Operation Winter Freeze, Operation Unified 
Assistance (Tsunami Relief), Hurricane Recovery Operations for Katrina, 
Rita and Wilma, Stabilization Force Bosnia, Kosovo Force, Horn of 
Africa, Multi-National Force Observers, Guantanamo Bay Operations, 
Force Protection Europe, and numerous other missions. As we enter the 
fifth year of the Global War on Terrorism, we anticipate a slight 
downward trend in Overseas Continental United States (OCONUS) 
operations. We face some critical shortages that must be addressed over 
the coming year to ensure we continue to accomplish our missions.
    This Posture Statement presents an opportunity to detail Army 
National Guard plans to ensure our nation's defense, meet our strategic 
and legislative goals and transform to meet tomorrow's challenges. The 
Chief of the National Guard Bureau established our fiscal year 2006 
priorities to Defend the Homeland, Support the Warfight and 
Transformation for the Future.
    The Army National Guard balances its status as an integral element 
of the United States Army with its duty to serve the Governors and the 
people of our communities. Citizen-Soldiers represent thousands of 
communities across America. These Soldiers bring with them real world 
experience and provide capabilities to address both Homeland Security/
Defense and overseas conflicts.
    The Army National Guard remains committed to completing the 
transformation from strategic reserve to operational force capable of 
both supporting the warfight and serving the Governors. We are able to 
maintain this commitment because of the continued dedication of our 
Soldiers, support from our families and the resources provided by 
Congress.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 369 YEARS

Prepared and Ready
    The Army National Guard continued to provide forces for domestic 
missions throughout fiscal year 2005, particularly in the areas of 
disaster relief, state active duty, counterdrug operations, and force 
protection. In a major contribution to the Global War on Terrorism, the 
Army National Guard provided key asset protection for much of the 
nation. Readiness concerns such as full-time manning, recruiting, 
retention, and modernizing our ground and air fleets are the top 
priorities for the Army Guard in today's geostrategic environment.
    As the Global War on Terrorism continues, the Army National Guard 
will continue to meet the Army's requirements to protect our national 
interests, prevent future acts of terrorism, and meet Governors' 
requests to respond to state emergencies. However, some critical 
shortages still exist in the Guard structure and impose challenges to 
meet these requirements such as the accurate reporting of readiness.
    The Department of Defense has mandated the use of the Defense 
Readiness Reporting System. This action will impose readiness reporting 
challenges on the Army National Guard as it transitions to meet this 
requirement. This reporting system is a web-based readiness program 
that can provide a real time assessment of a unit's capability to 
execute its wartime or assigned missions. This allows the Office of the 
Secretary of Defense, Combatant Commands, and the Services direct 
access to unit readiness assessments.
Full-Time Support
    Fighting the Global War on Terrorism underscores the vital role 
Full-Time Support personnel hold in preparing Army National Guard units 
for a multitude of missions both at home and abroad. Full-Time Support 
is a critical component for achieving soldier and unit-level readiness. 
Full-time Army National Guard Soldiers maintain responsibility for 
organizing, administering, instructing, training, and recruiting new 
personnel, and maintenance of supplies, equipment, and aircraft. Full-
Time Support personnel are key to a successful transition from 
peacetime to wartime, as well as a critical link to the integration of 
the Army's components: Active, Guard, and Reserve. To meet the 
heightened readiness requirements of an operational force, the Chief, 
National Guard Bureau, in concert with the State Adjutants General, 
placed increasing Full-Time Support authorizations as the number one 
priority for the Army National Guard.
    The current Full-Time Support ramp received approval before 9/11. 
Although this ramp up was a step in the right direction it proved only 
marginally acceptable while the Army National Guard served as a 
strategic reserve. Following 9/11, the Army National Guard converted to 
an operational force mobilizing more than 240,000 Soldiers in support 
of the Global War on Terrorism. At the height of our mobilizations, the 
Army Guard deployed over 9,000 full-time support personnel. With fiscal 
resources only capable of backfilling the Active Guard Reserve at a 1:3 
ratio and the Military Technicians at a 1:5 ratio, the burden on our 
Full-Time Soldiers reached an all time high. As a result, the Army 
National Guard witnessed an increase in the attrition of our full-time 
force by over 40 percent.
    While we made progress in recent years to increase Full-Time 
Support, obstacles remain in obtaining acceptable full-time levels. 
Emerging and expanding Army National Guard missions must receive 
resources above those identified in the Full-Time Support ramp. 
Increased full-time resources are necessary to achieve acceptable unit 
readiness. It is critical we increase Full-Time Support in the near 
term to a minimum of 90 percent of the total validated requirement. 
This increase will ensure the highest levels of Combat Readiness (C1) 
and Personnel Readiness (P1) for Army National Guard units in the 
future.
Protecting the Homeland
    National Guard Soldiers assisted civil authorities, established law 
and order, conducted disaster relief operations, and provided 
humanitarian assistance and force protection after two major hurricanes 
struck the Gulf Coast and flooded the city of New Orleans. The National 
Guard responded by surging more than 50,000 Soldiers and Airmen into 
the areas devastated by the successive impacts of Hurricanes Katrina 
and Rita. These Citizen-Soldiers provided much needed relief to the 
citizens and support to the local authorities. The operation was the 
largest domestic support mission in the nation's history.
Training for the Future
    The Army Guard continued to provide battle focused and mission 
essential training to units preparing to defend the nation. Units 
preparing to deploy to Operations Iraqi Freedom and Enduring Freedom 
and other theaters rotated through the National Training Center, the 
Joint Readiness Training Center, and the Battle Command Training 
Center. Army Guard units also participated in major United States and 
overseas Joint Chiefs of Staff sponsored exercises, domestic support 
operations, conducted overseas deployments for training and operational 
support, as well as performing numerous small unit training exercises.
    The Army National Guard worked with U.S. Army Forces Command and 
Headquarters, Department of the Army in the development of an Army 
Force Generation Model. This model provides predictability of forces 
available and ready for operational deployments. It is also a paradigm 
shift, as it changes unit resourcing from a tiered approach to a time 
sequenced approach based on when a unit is expected to deploy. The Army 
National Guard developed improved training models that increase 
resources and training events to produce readiness leading up to a 
unit's expected deployment availability. This new paradigm also makes 
deployments more predictable for Guard Soldiers, their families and 
employers.
    The training priority for the Army National Guard is preparation of 
combat-ready Soldiers so that lengthy post-mobilization training can be 
avoided. As a result of the increased emphasis on ensuring our Soldiers 
are combat ready, the Army National Guard Duty Military Occupational 
Specialty Qualification rate for fiscal year 2005 was 92.29 percent 
(excluding those Soldiers on their Initial Entry Training). This high 
qualification rate was achieved through the implementation of the 
phased mobilization process. This allowed Army National Guard Soldiers 
who lacked the requisite training to complete their individual training 
while in the early stages of mobilization before they were deployed.
Keeping the Force Strong: Recruiting and Retention
    Recruiting and retention goals have proven to be challenging during 
wartime. The Army Guard increased the numbers of recruiting and 
retention NCOs from 2,700 in fiscal year 2004 to 4,600 by the end of 
fiscal year 2005, an increase of 1,900. The Army Guard plans to add an 
additional 500 in the first quarter of fiscal year 2006 for a total of 
5,100 recruiters. Many steps were taken in 2005 to assist in meeting 
our end strength missions. The Army Guard increased enlistment bonuses 
to $10,000, increased the reenlistment bonus to $15,000, and increased 
the prior service enlistment bonus to $15,000. We also increased 
retention bonuses from $5,000 to $15,000. These steps, as well as an 
increased recruiting and retention force, had positive effects and will 
posture the Army Guard for continued success in the future.
    The Guard Recruiting Assistance Program has produced remarkable 
gains in recruiting for the Army National Guard since its inception as 
a pilot program in late 2005. In its first 60 days, operating in 22 
states, the program has trained more than 19,000 Active Recruiting 
Assistants and is processing more than 6,000 potential soldiers. Over 
1,000 new accessions have already been produced, and the program will 
be expanded to every state by March, 2006. The program is an adaptation 
of our civilian contract recruiting programs that allows the contractor 
to train local recruiting assistants--currently primarily traditional 
Guardsmen--who often serve in the same units and act as sponsors for 
the new recruits.
    The Every Soldier a Recruiter program is a separate brand-new 
congressionally authorized referral program that will reward soldiers, 
including soldiers on active duty and military Technicians, who provide 
quality leads of non-prior service recruits who join the active Army, 
Guard or Army Reserve.
    Congressionally directed end strength for fiscal year 2005 was 
350,000 Soldiers for the Army National Guard. The actual end of year 
strength was 333,177 Soldiers (296,623 enlisted and 36,554 officers). 
Although below the target, we experienced three consecutive months of 
net gains in end strength to finish the year, the first time in 24 
months, and we have thus-far exceeded our goals for fiscal year 2006 in 
each month since the year started. The accession program's goal was 
67,000 Soldiers (63,000 enlisted and 4,000 officers) for fiscal year 
2005. The programmed attrition rate was 18.0 percent, and the non-prior 
service/prior service accession ratio was 60:40. At the end of fiscal 
year 2005, we exceeded our goal for prior service accessions by 104 
percent, but fell short in the non-prior service category by 67 
percent, thus making the actual fiscal year 2005 accession ratio 55:45 
non-prior service/prior service. Command emphasis in the areas of 
attrition and retention kept the loss rate for fiscal year 2005 at 19.1 
percent, slightly above the program goal of 18 percent. Considering the 
unprecedented Army Guard mobilizations and deployments, this was an 
admirable achievement.
    Retention of those already in the Army National Guard was superb. 
The first term Soldier reenlistment goal was 8,945 Soldiers, but 
reenlistments were 9,107 for 101.8 percent of the goal. The Careerist 
Reenlistment goal was 23,626 Soldiers and the actual reenlistments were 
24,697 Soldiers for 104.5 percent of the goal. The overall retention 
achievement for the Army National Guard in fiscal year 2005 was 103.8 
percent.
    The No Validated (No-Val) Pay rate for 2005 was only 1.8 percent. A 
Soldier's name will appear on the non-validated pay report when that 
Soldier fails to attend training and has not been paid within the last 
90 days. The fact that the No-Val rate is at an all-time low 
demonstrates that Soldiers who stay in the Army National Guard value 
their membership and want to remain active participants.
Environmental Programs
    The Army National Guard Environmental Program manages resources to 
foster environmental quality and maintain compliance with all 
applicable federal, state, and local environmental requirements. The 
fiscal year 2005 Environmental, Operations, and Maintenance 
Appropriation was adequate to fully fund all critical environmental 
compliance, conservation, and pollution prevention projects. Fiscal 
year 2005 environmental restoration funding provided to the Army Guard 
was adequate to accomplish minimum essential cleanup requirements.
    Army National Guard training lands are the cornerstone of trained 
and ready Soldiers. Evolving transformation actions require that we 
maximize our maneuver and firing range capabilities over the existing 2 
million acres of Army National Guard training lands and mitigate the 
effects of encroachment from suburban sprawl. Through coordination with 
surrounding communities and the use of legislative authority, the Army 
National Guard was able to partner with private, local and state 
organizations for acquisition of easements to limit incompatible 
development in the vicinity of its installations.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

The Citizen-Soldier: Defending the Nation
    From July 2002 through September 2005, overall unit readiness 
decreased by 41 percent in order to provide personnel and equipment to 
deploying units. Personnel, training, and on hand equipment decreased 
between 18 and 36 percent while equipment readiness declined by 10.1 
percent during the same period. Despite declines in the areas of 
personnel and equipment due to increased mobilizations, deployments, 
and funding, the Army National Guard met all mission requirements and 
continued to support the Global War on Terrorism. From September 11, 
2001 through September 2005, the Army National Guard deployed over 69 
percent (325,000) of its personnel in support of the Global War on 
Terrorism, homeland defense, and state missions.
Equipping the Force
    The Army National Guard established funding priorities based on the 
Army Chief of Staff's vision for modernizing the total force core 
competencies. The Army National Guard's focus is to organize and equip 
current and new modularized units with the most modern equipment 
available. This modernization ensures our ability to continue support 
of deployments, homeland security and defense efforts while maintaining 
our highest war fighting readiness. Although all shortages are 
important, the Army National Guard is placing special emphasis on 
``dual use'' equipment such as the Family of Medium Tactical Vehicles, 
channel hopping Single Channel Ground and Airborne Radio System 
(SINCGARS), Joint Network Node, and Movement Tracking System. Filling 
these shortages ensures interoperability with the active force and 
increases the Army National Guard's ability to respond to natural 
disasters or in a homeland defense role.
    This requires the Rapid Fielding Initiative to equip our Soldiers 
with the latest gear, such as body armor, night vision devices and 
small arms. Additionally, it requires a steady flow of resources to the 
Army National Guard to mitigate shortages caused by lack of past 
resourcing, force structure changes, and the heightened importance of 
homeland security.
Intelligence Operations
    Army National Guard Military Intelligence units and personnel 
continue to play a vital role in the Global War on Terrorism, and are 
deployed worldwide to support critical tactical, operational, and 
strategic intelligence operations. Army Guard personnel are supporting 
mission critical areas in Human Intelligence, Signal Intelligence, 
Measurement and Signatures Intelligence, Imagery Intelligence and Open 
Source Intelligence. Army National Guard linguists are engaged in 
document exploitation, translation and interpretation within the 
Department of Defense, such as the National Security Agency, as well as 
other federal agencies. More importantly, Army National Guard Military 
Intelligence units are deployed at the tactical level with each Army 
National Guard combat division and brigade providing critical and 
timely intelligence on the battlefield.
Information Operations
    The Army National Guard continues to provide a number of Full 
Spectrum Information Operation Teams in support of a broad range of 
Army missions and contingency operations. Army National Guard 
Information Operations Field Support Teams provide tactical, 
operational and strategic planning capabilities at all echelons of the 
Army. Army Guard Brigade Combat Teams deploy to all theaters with 
organic information operations cells that provide support and 
coordination at all levels of military planning and execution. Army 
Guard Computer Emergency Response Teams and Vulnerability Assessment 
Teams provide technical expertise, information assurance assessments 
and certification compliance inspections of critical Wide Area and 
Local Area networks for Army installations worldwide.
Innovative Readiness Training
    The Innovative Readiness Training program highlights the Citizen-
Soldier's role in support of eligible civilian organizations. This 
program provides real-world, joint training opportunities for Army 
National Guard Soldiers within the United States. The projects provide 
ancillary benefits to the local communities in the form of construction 
projects or medical services to underserved populations.
    More than 7,000 Soldiers and Airmen from across the United States 
and its territories participate annually in Innovative Readiness 
Training sponsored projects. Army National Guard projects include:
  --Operation Alaskan Road, a joint, multi-year fifteen mile road 
        construction project on Annette Island, Alaska
  --Expansion and improvement of the Benedum Airport infrastructure in 
        Clarksburg, West Virginia
  --Task Force Grizzly, Task Force Diamondback and Task Force Lobo 
        continue to improve existing road networks and build barrier 
        fencing in support of the U.S. Border Patrol in California, 
        Arizona and New Mexico
  --The South Carolina Guard's REEFEX project. REEFEX uses 
        decommissioned Army vehicles to create artificial reefs in the 
        Atlantic Ocean off the coast of New England and South Carolina.
Training the Nation's Warfighter
    The Army National Guard's unique condition of limited training 
time, dollars and, in some cases, difficult access to training ranges, 
demands an increased reliance on low cost, small footprint training 
technologies. Quick response by the Army National Guard to our nation's 
missions requires a training strategy that reduces post mobilization 
training time. New virtual technologies and simulators therefore become 
critical tools to help the Army National Guard maintain a ready 
operational force. Some of these training systems are:
  --The Virtual Convoy Operations Trainer. This is a simulation aid 
        specifically adapted for current operations in Iraq and 
        Afghanistan. It is funded with a combination of Congressional 
        add-ons and National Guard Reserve Equipment Appropriation 
        funds. The Army Guard placed 14 trainers under contract and 
        fielded eight in fiscal 2005; the remaining six will be fielded 
        in fiscal year 2006.
  --The Advanced Bradley Full Crew Interactive Skills Trainer virtual 
        gunnery system. This is a low cost, deployable training system 
        that appends directly to the Bradley Fighting Vehicle and 
        enhances home station training in advance of a live fire event.
  --The Engagement Skills Trainer 2000. This system simulates weapons-
        training events. These trainers provide initial and sustainment 
        marksmanship training, static unit collective gunnery tactical 
        training and shoot/don't shoot training. Soldiers use this 
        trainer primarily for multipurpose, multi-lane, small arms, 
        crew-served and individual anti-tank training simulation. The 
        trainer simulates day and night, as well as Nuclear, Biological 
        and Chemical marksmanship and tactical environments.
  --The Laser Marksmanship Training System simulates weapons training 
        events that lead to live fire qualifications for individual and 
        crew served weapons. This system allows the Soldier to use 
        their own personal weapons to conduct individual and 
        sustainment marksmanship training using Nuclear, Biological and 
        Chemical equipment.
  --The eXportable Combat Training Capability. This capability allows 
        us to take the Maneuver Combat Training Center environment to 
        the unit. We are able to tailor this training to meet any 
        operational focus from the conventional warfight to the 
        contemporary operational environment in Iraq and Afghanistan. 
        The eXportable Combat Training Capability, along with 
        traditional Maneuver Combat Training Center rotations, will 
        provide units with ``final exam'' certification as required by 
        the Army Force Generation model prior to deployments.
Information Technology
    The Army National Guard successfully increased the bandwidth and 
provided a secure data link to the Joint Force Headquarters in each of 
the 50 states, Commonwealth of Puerto Rico, two U.S. Territories, and 
the District of Columbia. The Army Guard's modern wide-area network 
provides improved redundancy and increased network security.

  TRANSFORMATION FOR THE 21ST CENTURY: READY, RELIABLE, ESSENTIAL AND 
                               ACCESSIBLE

Ground-based Midcourse Defense
    Defending against ballistic missile attack is a key component of 
the National Security Strategy for Homeland Defense. In the initial 
defensive operations phase, the Army National Guard plays a major role 
in this mission as the force provider for the Ground-based Midcourse 
Defense system. We have assigned Active Guard-Reserve manpower to 
support this new role. The Ballistic Missile Defense program is 
dynamic--undergoing constant refinement and change.
    Soldiers assigned to Ground-based Midcourse Defense perform two 
missions:
  --Federal Military Mission.--The federal military mission is to plan, 
        train, certify, secure, inspect, coordinate, and execute the 
        defense of the United States against strategic ballistic 
        missile attacks by employing this system; and
  --State Military Mission.--In accordance with Title 32, the state 
        military mission is to provide trained and ready units, 
        assigned personnel, and administrative and logistic support.
Logistics and Equipment
    The Army National Guard continues modernization to the digital 
force with the emerging technologies that will dramatically improve 
logistical support for these systems, substantially reduce repair 
times, increase operational readiness rates and eliminate obsolete and 
unsustainable test equipment. Use of these technologies allows the Army 
Guard to operate heavy equipment at a higher operational rate while 
reducing the overall costs for these systems.
    The Army National Guard currently has a significant portion of the 
Army's maintenance infrastructure. This Cold War infrastructure is 
expensive and redundant. Under the Army's new maintenance strategy, the 
Army Guard and other Army elements are consolidating maintenance 
systems. This enhances maintenance and improves efficiency. Army 
maintenance personnel now effectively diagnose and maintain equipment 
at two maintenance levels instead of four.
Personnel Transformation
    The human dimension of Army National Guard transformation is the 
crucial link to the realization of future capabilities and to the 
enhanced effectiveness of current capabilities. Transformation of human 
resource policies, organizations, and systems will enhance Army 
National Guard ability to provide force packages and individuals at the 
right place and time. Future web-based systems will integrate personnel 
and pay, provide accurate human resource information for commanders, 
and give Soldiers direct access to their records. Evolving current 
systems such as Standard Installation Defense Personnel System and the 
Reserve Component Automation System applications extend current 
capabilities and enhance readiness, providing support for development 
of an electronic record brief and automated selection board support.
Aviation Transformation and Modernization
    Army National Guard aviation completed 109 percent of the flying 
hours projected for fiscal year 2005, an average of 9.9 aircrew flying 
hours per month--the highest level since 1996. During fiscal year 2005, 
an average of 307 aircrews were deployed each month in support of 
Operations Noble Eagle, Enduring Freedom, the Balkans (Kosovo Force and 
Stabilization Force Bosnia), and Operation Iraqi Freedom.
    Army National Guard aircrews flew more than 94,000 hours this past 
year in support of the Global War on Terrorism. This is a 58 percent 
increase over fiscal year 2004. More than 245,000 hours were flown in 
support of the Army Guard missions for homeland security, training, 
counterdrug, and combat operations. Despite the fact that 30 percent of 
the Army National Guard aviation force structure was deployed, the Army 
aviation transformation process continued. As aircraft were 
redistributed to modernize units, aircrew qualification and proficiency 
training was accelerated to meet emerging deployments.
    On the home front, the Army National Guard aviation community 
continued to support domestic contingencies by flying over 7,485 
missions, transporting nearly 62,117 civilians to safe havens, and 
transporting Army National Guard Soldiers to hurricane-ravaged zones. 
Support aircraft were flying recovery and relief missions in Louisiana 
within four hours of Katrina's passage. In addition to moving 
approximately 7,300 tons of equipment, food, sandbags, and life saving 
supplies, we rescued almost 16,000 of our citizens during Hurricane 
Katrina and Rita relief and recovery efforts. At the peak of the relief 
and recovery efforts, the Army National Guard had 151 aircraft on 
station supporting Louisiana and Mississippi.
    In Texas after Hurricane Rita, the Army National Guard flew 185 
missions, transported 117 civilian and military personnel, moved 31 
tons of supplies, and conducted 19 rescue or life-saving missions. 
Aviation assets from 28 states rallied to support Louisiana, 
Mississippi, and Texas in their relief and recovery efforts after 
Katrina and Rita. A total of 5,341 flight hours have been flown since 
August 2005.
    The Army National Guard aviation force continues modernizing, but 
at a pace much slower than originally planned by the Army prior to the 
onset of combat operations in Afghanistan and Iraq. Associated aircraft 
losses and the continuing need for more operational aircraft in theater 
slowed aircraft transfers from the active Army. This is especially true 
for the critically needed UH-60-Blackhawk helicopter (the bulk of the 
Army Guard's aviation force). An expanded summation of Army National 
Guard aviation assets and requirements are listed below:
Training in ``One Army''
    Training centers support our ability to conduct performance-
oriented training under real world conditions. The Army National Guard 
modernizes and restructures to effectively meet evolving warfighting 
requirements. We face a number of continuing challenges in sustaining 
power support platforms and modernizing Army National Guard live fire 
ranges and range operations for the Pennsylvania Guard's Stryker 
Brigade Combat Team. The Army National Guard will consolidate range and 
training land investment documentation under the Sustainable Range 
Program.
    The Army National Guard achieves training excellence by leveraging 
Distributed Learning. Distributed Learning improves unit and Soldier 
readiness by increasing access to training resources and reducing 
unnecessary time away from the home station. Interactive Multimedia 
Instruction courseware, satellite programming and distance learning 
offer needed instruction in such areas as Military Occupational Skill 
Qualification reclassification for Soldiers and units.

                                SUMMARY

    The Army National Guard engages in a full spectrum of civil-
military operations. Our Soldiers represent every state, territory, and 
sector of society. Today, they represent their nation serving honorably 
throughout the world. In these critical times, the Army National Guard 
must maintain readiness. A vital part of the Army's force structure, 
the Army Guard remains a community based force committed to engage in 
overseas missions while protecting and serving our cities and towns. 
The Army National Guard proves itself capable of carrying out its goals 
of supporting the Warfight, defending the Homeland and transforming 
into a ready, reliable, essential and accessible force for the 21st 
century.
    The National Guard is foremost a family. This year we remember the 
spirit and sacrifice of Guard families who lost homes and loved ones 
during the Gulf Coast hurricane season. For his selfless service 
responding to Hurricane Katrina, we honor the memory of: Sergeant 
Joshua E. Russell, Detachment 1, Company A, 890th Engineer Battalion.

LIEUTENANT GENERAL DANIEL JAMES III, VICE CHIEF, NATIONAL GUARD BUREAU 
                    AND DIRECTOR, AIR NATIONAL GUARD
                       MESSAGE FROM THE DIRECTOR

    What an incredible year this has been for the nation and the Air 
National Guard! The Air Guard continues to serve with distinction at 
home and abroad. At home, the Hurricane Katrina relief effort brought 
into sharp focus our role as America's Hometown Air Force. We flew over 
3,000 sorties, moved over 30,000 passengers, and hauled over 11,000 
tons of desperately needed supplies. Air Guardsmen saved 1,443 lives--
heroically pulling stranded Americans off rooftops to safety. Air 
National Guard medical units treated over 15,000 patients at eight 
sites along the Gulf Coast, combining expert medical care with 
compassion for our fellow Americans.
    Abroad, the Air Guard brings the will of the American people to the 
Global War on Terrorism. The Air Guard fulfills 34 percent of the Air 
Force's missions on 7 percent of the Air Force's budget, a definite 
bargain in fiscally constrained times. Our contributions over the past 
four years have been tremendous. Since September 11, 2001, we've 
mobilized over 36,000 members and have flown over 206,000 sorties 
accumulating over 620,000 flying hours. One-third of the Air Force 
aircraft in Operation Iraqi Freedom were from the Air Guard. We flew 
100 percent of the Operation Enduring Freedom A-10 missions and 66 
percent of the Iraqi Freedom A-10 taskings. We accomplished 45 percent 
of the F-16 sorties. The A-10s flew more combat missions in the Iraqi 
war than any other weapon system.
    We flew 86 percent of the Operation Iraqi Freedom tanker sorties. 
We accomplished this primarily through the Northeast Tanker Task Force. 
In keeping with our militia spirit, that task force was initially 
manned through volunteerism. A total of 18 units supported it; 15 were 
from the Air National Guard.
    Air National Guard Security Forces were the first security forces 
on the ground in Iraq. Intelligence personnel have been providing 
unique capabilities for Central Command and organizational support for 
the U-2, Predator, and Global Hawk. Medical personnel have been using 
the new Expeditionary Medical Support system capability, providing 
critical care to the warfighter. Civil Engineers have built bare bases 
in the desert and trained Iraqi firefighters while Weather personnel 
worldwide provided over 50 percent of the Army's weather support. 
Financial Management personnel have been diligently working to keep 
benefits moving to our members despite challenging pay, allowance and 
benefit entitlements and complex administration systems. Air National 
Guard Command, Control, Communications and Computer personnel have kept 
vital information flowing on one end of the spectrum and provided 
Ground Theater Air Control System Personnel on the other. And our 
tireless chaplains have been providing outstanding spiritual aid out in 
the field. We have been able to participate at these levels because we 
provide Expeditionary and Homeland Defense capabilities that are 
relevant to the nation.
    Today as we look toward our future relevancy, having proven 
ourselves as indispensable and equal Total Force partners, we have to 
be prepared to transform with the Total Force. We are now in a position 
to make the decisions that will influence our next evolution . . . 
transforming the Air National Guard.
    Some of today's capabilities may not be required in the future. The 
future Air Force will rely heavily on technological advances in space, 
command and control, intelligence and reconnaissance systems, 
information warfare, unmanned aerial vehicles, and the ability to 
conduct high volume and highly accurate attacks with significantly 
fewer platforms. For the Air Guard to remain Total Force partners, we 
have carved out our strategy in those areas and will explore new 
organizational constructs. Among those constructs are various forms of 
integrated units where we can combine individual units with other Air 
Guard units or with another service component. We have to expand our 
capabilities as joint warfighters and make the necessary changes to 
integrate seamlessly into the joint warfighting force. To remain 
relevant we must continue to listen to the messages that are being sent 
today.
    Now is the time for us to lead the way by considering, selecting 
and implementing new concepts and missions that leverage our unique 
strengths to improve Total Force capabilities in support of 
expeditionary roles and homeland defense. This can only be accomplished 
by involving all Air National Guard stakeholders, working toward a 
common goal . . . enhanced capabilities to assure future relevance for 
the Air National Guard.
    By addressing together the complex issues that face us, we will 
keep the Air National Guard ``Ready, Reliable, Essential and 
Accessible--Needed Now and in the Future.''

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 90 YEARS

Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National guardsmen have 
been mobilized to operate alert sites and alert support sites for 
Operation Noble Eagle in support of Homeland Defense. Our Air National 
Guard has partnered with active duty and reserve forces to provide 
Combat Air Patrol, random patrols, and aircraft intercept protection 
for large cities and high-valued assets in response to the increased 
terrorist threat. The Air National Guard has assumed the responsibility 
of all ground alert sites and some irregular Combat Air Patrols 
periods. This partnering agreement maximizes our nation's current 
basing locations and capitalizes on the high experience levels within 
the Air Guard and its professional history in Air Defense operations.
    To continue operations at this indefinite pace has posed some 
unique funding and manning challenges for both the field and 
headquarters staffs. As we move into the fiscal year 2006 Program 
Objective Memoranda exercise, the active Air Force and Air National 
Guard will continue to work towards a permanent solution for our alert 
force and seek ways to incorporate these temporary Continuum of Service 
tours into permanent programs.
Space Operations: Using the Stars to Serve the Community
    For the Air Guard, space operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses, television, computers, and 
wireless phones, but also serve as an important military deterrence 
from external threats. Colorado's 137th Space Warning Squadron provides 
mobile survivable and endurable missile warning capability to U.S. 
Strategic Command. Recently, Air National Guard units in Wyoming and 
California have come out of conversion to provide operational command 
and control support to Northern Command and to provide round-the-clock 
support to the Milstar satellite constellation. Alaska's 213th Space 
Warning Squadron ensures America's defense against nuclear threat by 
operating one of our nation's Solid State Phased Array Radar that 
provides missile warning and space surveillance.
    The Air Force has approved space missions for the 119th Command and 
Control Squadron in Tennessee to support the U.S. Strategic Command, 
and the 114th Range Flight in Florida is partnered with an active Air 
Force unit performing the Launch Range safety mission. There are future 
plans by the Air Force to transition additional space program missions 
and assets in Alaska and other states to Air National Guard control.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

    The Air National Guard has been contributing to the Global War on 
Terrorism across the full spectrum of operations. During the peak of 
Operation Iraqi Freedom, we had over 22,000 members mobilized or on 
volunteer status to support the Global War on Terrorism worldwide. In 
Operation Iraqi Freedom we flew 43 percent of the fighter sorties, 86 
percent of the tanker sorties, 66 percent of the A-10s close air 
support sorties and 39 percent of the airlift sorties. At the same time 
we were flying almost 25 percent of the Operation Enduring Freedom 
fighter sorties and over 20 percent of the tanker sorties.
    However, our capabilities do not reside only in aircraft: 15 
percent of our expeditionary combat support was engaged during this 
same period. This includes 60 percent of security forces, many of whom 
were mobilized for the longest duration. Additionally, about 25 percent 
of our intelligence, services and weather personnel were mobilized. 
Logistics and transportation capabilities are vital to homeland defense 
as well as our expeditionary mission.
    Air National Guard men and women are proud to defend and protect 
our nation at home and abroad. Often, however, support equipment 
requirements overseas necessitate that equipment remain in place, 
causing a shortage of equipment for training at home. We are working 
with Air Force and Defense Department leaders to develop a solution.
Medical Service Transformation--Expeditionary Combat Support, Homeland 
        Defense, and Wing Support
    The Air National Guard's Surgeon General led the Air National Guard 
Medical Service through its most revolutionary transformation in 
history by reconfiguring its medical capabilities into Expeditionary 
Medical Support systems. These systems provide highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the Air National Guard today. This system is capable of 
simultaneously providing Expeditionary Combat Support to the warfighter 
for Air and Space Expeditionary Force missions, Homeland Defense 
emergency response capabilities to the states and support to the Air 
National Guard Wings.
    The Expeditionary Medical Support capability allowed ten percent of 
Air National Guard medical unit personnel to deploy for Operation Iraqi 
Freedom, compared to only three percent in the early 1990s for 
deployments for Operations Desert Shield and Desert Storm. The U.S. 
Central Command has validated that the Expeditionary Medical Support 
system is a perfect fit for the Chief of Staff, U.S. Air Force Global 
Strike Task Force and Concept of Operations.
    The Expeditionary Medical Support system also plays a critical role 
in Homeland Defense. The Air National Guard Medical Service plays a 
vital role in the development and implementation of the National 
Guard's Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive Enhanced Response Force Package. This package will provide 
support to state and local emergency responders and improve Weapons of 
Mass Destruction response capabilities in support of the Civil Support 
Teams. The Air National Guard has contributed to the 12 trained CERFP 
teams and will build towards 76 Expeditionary Medical Support teams by 
2011.
    The Guard's short-term objective is to obtain 20 Small Portable 
Expeditionary Aerospace Rapid Response equipment sets, two for each 
Federal Emergency Management Agency region. This would allow for 
additional reachback capability for the Civil Support Teams and the 
states. This has been a prelude to the next step in the Air National 
Guard Medical Service Transformation.
    At Readiness Frontiers, over 100 medical planners received Federal 
Emergency Management Agency training to enhance Air National Guard 
Medical Service responsiveness to homeland disasters. This is the first 
time the medical service has taken on an endeavor of this magnitude and 
allows for future training opportunities in building routine 
relationships with military, federal and civilian response personnel.
    The Air National Guard medical service's new force structure 
provided by the Expeditionary Medical Support system delivers 
standardized and much-improved force health protection, public health, 
agent detection, and health surveillance capabilities to better support 
all Air Guard Wings. This will enhance the protection of the wings' 
resources and improve the medical readiness of its personnel.
Eyes and Ears in the Sky--Air National Guard Intelligence, 
        Surveillance, and Reconnaissance Systems and Support
    The Air National Guard's Intelligence, Surveillance, and 
Reconnaissance personnel and systems play an increasingly important 
role in the defense of our nation. Air Guard men and women are 
essential to support Global Hawk, Predator, and U-2 collection 
missions.
    Due to a significant increase in Air Force mission requirements, 
the Air Guard continues to expand its intelligence collection and 
production capability. The Air Guard has also expanded its imagery 
intelligence capability through the use of Eagle Vision, which is a 
deployable commercial imagery downlink and exploitation system. This 
system provides valuable support to aircrew mission planning and 
targeting, as well as imagery support to natural disasters and 
terrorism.
    Other developing Air Force capabilities entrusted to the Air 
National Guard include the F-16 Theater Airborne Reconnaissance System 
and the C-130 SCATHE VIEW tactical imagery collection system. The 
Theater Airborne Reconnaissance System will be improved to provide 
near-real-time support to warfighter ``kill-chain'' operations in day-
night, all weather conditions. SCATHE VIEW provides a near-real-time 
imaging capability to support humanitarian relief and non-combatant 
evacuation operations. To support signal intelligence collection 
requirements, the Air Guard continues to aggressively upgrade the 
SENIOR SCOUT platform. SENIOR SCOUT remains the primary collection 
asset to support the nation's war on drugs and the Global War on 
Terrorism in the southern hemisphere.
Comprehensive and Realistic Combat Training--An Asymmetric Advantage
    The National Guard Bureau has a fundamental responsibility to 
ensure that the men and women of the Air Guard are properly trained to 
meet the challenges they will face to protect and defend this country. 
This can be done through the effective development and management of 
special use airspace and ranges. To support this training requirement, 
the Air Guard is responsible for 14 air-to-ground bombing ranges, four 
Combat Readiness Training Centers, and the Air Guard Special Use 
Airspace infrastructure.
    To ensure that our units remain ready and relevant, they must have 
access to adequate training airspace and ranges that meet the demands 
of evolving operational requirements. The National and Regional 
Airspace and Range Councils, co-chaired by both the Air Guard and the 
Air Force, continue to identify and resolve airspace and range issues 
that affect combat capability and are engaged with the Federal Aviation 
Administration in the redesign of the National Airspace System.
    The four Combat Readiness Training Centers provide an integrated, 
year-round, realistic training environment (airspace, ranges, systems, 
facilities, and equipment), which enables military units to enhance 
their combat capability at a deployed, combat-oriented operating base 
and provide training opportunities that cannot be effectively 
accomplished at the home station. As such, these centers are ideal 
assets for the Joint National Training Capability. The centers offer an 
effective mix of live, virtual and constructive simulation training. 
The Air National Guard continues to pursue National Training Capability 
certification for these centers and ranges.
    It is imperative to the warfighter that the Air Guard maintains its 
training superiority. As the warfighting transformation and joint 
operational requirements evolve, it is essential that the airspace and 
range infrastructure be available to support that training. There are 
challenges. The Air National Guard has a shortfall in electronic 
warfare training. To keep our Citizen-Airmen trained to the razor's 
edge, we must have the Joint Threat Emitter to simulate the various 
surface to air missile and anti-aircraft artillery threats that any 
future conflict might present.

  TRANSFORMATION FOR THE 21ST CENTURY: RELEVANT NOW . . . AND IN THE 
                                 FUTURE

Supporting a ``Capabilities Based'' Military Force
    The Air National Guard is a solid partner with the Air Force, the 
Air Force Reserve, and the Department of Defense. The Defense 
Department's priority is Transformation . . . and therefore it is the 
priority of the active services and the reserve components.
    The Air Force is pursuing innovative organizational constructs and 
personnel policies to meld the various components into a single, 
unified force. Ongoing shifts in global conflict and U.S. strategy 
suggest an increasing attention to activities such as homeland defense, 
nation-building, and others that may require different mixes of 
capability that are not necessarily resident at sufficient levels in 
the active component. This ``Future Total Force'' integration will 
create efficiencies, cut costs, ensure stability, retain invaluable 
human capital, and, above all, increase our combat capabilities.
    One example of this transformational initiative is the proposed 
movement of Air National Guard manpower to Langley AFB, an active duty 
base, from Richmond, an Air National Guard base, with the intent of 
leveraging the high experience of Guard personnel to improve the combat 
capability for the active force.
    Another transformation effort is to ``integrate,'' where sensible, 
units from two or more components into a single wing with a single 
commander. Active, Guard, and Reserve personnel share the same 
facilities and equipment, and together, execute the same mission. This 
is a level of integration unmatched in any of the Services.
Emerging Missions
    The Air National Guard is working to embed new and innovative 
capabilities into the force. These include: Predator unit equipped and 
associate, Global Hawk, Deployable Ground Stations/Distributed Common 
Ground System, F-15 Aggressor, C-130 Flying Training, Cryptological and 
Linguist Training, Expeditionary Combat Support, as well as support to 
Joint Forces with Battlefield Airmen, Air Operations Centers, 
Warfighting Headquarters, Space Control and Operations.
    On November 25, 2004, the Secretary of the Air Force and Chief of 
Staff of the Air Force outlined a Total Force vision for Air Guard 
Intelligence, Surveillance and Reconnaissance by calling for the 
standup of two MQ-1 Predator flying units in Texas and Arizona by June 
2006 to help fill worldwide Reconnaissance, Surveillance, and Target 
Acquisition requirements. Air Guard Predator operations will first fill 
worldwide theater requirements, but will also likely evolve into 
providing direct defense for the Homeland in conjunction with the 
Department of Homeland Security and U.S. Northern Command.
    Adoption of emerging missions by Air National Guard units promotes 
all three National Guard priorities for the future. The addition of new 
weapons systems to the Air Guard provides essential capabilities that 
enable homeland defense and homeland security missions. New systems 
including RQ/MQ-1 Predator, and RQ-4 Global Hawk, provide intelligence, 
surveillance, and reconnaissance capabilities to Air National Guard 
forces. Other capabilities, such as air operations center support, will 
provide ready experience in planning, command and control, and mission 
leadership that will be invaluable in federal/state mission capable 
units.
Modernizing for the Future
    The Air National Guard modernization program is a capabilities-
based effort to keep the forces in the field relevant, reliable and 
ready for any missions tasked by the state or federal authorities. As a 
framework for prioritization, the modernization program is segmented 
into three time frames: short-term, the current and next year's Defense 
budget; medium-term, out to fiscal year 2015; and long-term, out to 
fiscal year 2025 and beyond.
    The Air National Guard remains an equal partner with the Air and 
Space Expeditionary Forces that are tasked to meet the future 
challenges and missions. Budget constraints require the Air Guard to 
maximize combat capability for every dollar spent. The Air National 
Guard includes all aircraft, ground command and control systems, and 
training and simulation systems in this modernization effort. The 
requirements necessary to focus this effort must be grounded in clearly 
defined combat capabilities and missions.
    The following summarizes the Air National Guard's force posture by 
weapons system:
    The E-8C Joint Surveillance Target Attack Radar System remains a 
highly coveted asset by all combatant commanders. It provides wide 
theater surveillance of ground moving targets operated by the first-
ever blended wing of Air National Guard, Air Force and Army, the 116th 
Air Control Wing, at Robins AFB, Ga. Keeping the system modernized 
while maintaining the current high Operations Tempo in combat theaters 
will be a continuing challenge in the future. The most urgent 
modernization needs for the Joint Surveillance Target Attack Radar 
System include re-engining, radar upgrades, installation of the Traffic 
Alert Collision Avoidance System, and integration of a self-protection 
suite.
    The A-10 remains the only Air Force fighter/attack aircraft 
operating out of Afghanistan today. Six Air Guard squadrons account for 
38 percent of combat-coded A-10s in the Combat Air Force. The A-10 is 
undergoing modification to modernize the cockpit, provide a data link, 
improve targeting pod integration, and add Joint Direct Attack 
Munitions capability. Future improvements to the A-10 include a SATCOM 
radio, an updated Lightweight Airborne Recovery System for combat 
search and rescue missions, and improved threat detection. Recent 
conflicts highlighted a thrust performance deficiency making upgrading 
the TF-34-100A engine a priority.
    Air National Guard F-16s continued to provide crucial combat 
capabilities during 2005 in Operation Iraqi Freedom, Operation Enduring 
Freedom and Operation Noble Eagle. The Block 25/30/32 F-16 continued 
its modernization program by fielding the Commercial Central Interface 
Unit, Color Multi-Function Displays and AIM-9X while pursuing future 
integration of the Radar Modernized Programmable Signal Processor, 
Advanced Identification Friend or Foe, Joint Helmet Mounted Cueing 
System and the smart triple ejector rack. The Block 52 F-16s are nearly 
finished with their Common Configuration Implementation Program that 
brought these systems and LINK16 capabilities to their fleet. Air Guard 
Block 42 F-16s will begin their common configuration upgrades later 
this year.
    The F-15 modernization includes the continued installation of the 
BOL Infrared countermeasures improvements system, continued delivery of 
upgraded engine kits and installation of the Multifunctional 
Information Distribution System Fighter Data Link. The next upgrades 
include the retrofit of a permanent night vision cockpit lighting 
system, continued integration and purchase of the Joint Helmet Mounted 
Cueing System, and the delivery of the replacement Identify Friend or 
Foe system.
    The HC-130 is completing installation of the Forward Looking 
Infrared system, an essential capability during combat rescue 
operations. The HC-130 starts integration and installation of the Large 
Aircraft Infrared Counter Measure system, increasing survivability in 
face of the ever-increasing threat from hand-held missiles.
    The HH-60 program started installation of the new M3M .50 caliber 
door gun, replaced personal equipment for the pararescue jumpers with 
state-of-the-art weapons and technologies. The initiation of the HH-60 
replacement program will begin to slow any further modernization.
    C-130 enhancements included the multi-command Avionics 
Modernization Program which upgraded nearly 500 aircraft to a modern, 
more sustainable cockpit. Additionally, the Air National Guard 
continued acquisition of the AN/APN-241 Low Power Color Radar, 
continued installation of the Night Vision Imaging System, and the Air 
National Guard-driven development of Scathe View to include various 
technological spin-offs having application in a myriad of civilian and 
military efforts. Other Air Guard programs include the AN/AAQ-24 (V) 
Directional Infrared Countermeasures System, propeller upgrades like 
the Electronic Propeller Control System and NP2000 eight-bladed 
propeller, and a second generation, upgraded Modular Airborne Fire 
Fighting System. Additionally, the Air National Guard partnered with 
the Air Force for the first multiyear buy of the new C-130J aircraft to 
replace the aging C-130E fleet.
    The KC-135 weapons system completed the installation of the cockpit 
upgrade and continued the engine upgrades to the R-model. The KC-135 
continued to be the air bridge for the multiple combat deployments 
across the globe. Keeping the aging fleet modernized will continue to 
challenge the Air National Guard as the refueling operations evolve to 
meet the next mission.
    The Air National Guard Modernization Program is key in continuing 
to field a relevant combat capability, ensuring dominance of American 
air power for the next 15 to 20 years. We must sustain an open and 
honest dialogue from the warfighter through Congress, in order to 
maximize the investment of precious and limited resources.
Force Development
    Our personnel are our greatest asset and force multiplier. To 
capitalize on their talents, the Air National Guard has implemented a 
new force development structure to get the right people in the right 
job, at the right time, with the right skills, knowledge and 
experience. We are taking a deliberate approach to develop officers, 
enlisted, and civilians by combining focused assignments with education 
and training opportunities to prepare our people to meet the Air 
National Guard needs. Through targeted education, training, and 
mission-related experience, we will develop professional Airmen into 
joint force warriors with the skills needed across all levels of 
conflict. This is at the ``heart'' of our Officer and Enlisted Force 
Development plans. These plans are a critical communication tool to 
capture the member's ``career'' development ideas, desired career path 
choices, assignment, and developmental education preferences. The 
bottom-line of our Force Development efforts is to provide an effects- 
and competency-based development process by connecting the depth of 
expertise in the individual's primary career field with the appropriate 
education, training, and experience. The desired effect is to produce 
more capable and diversified leaders.
    Recruiting quality applicants and taking care of our people will be 
key in maintaining the end strength numbers needed to accomplish our 
HLD missions, our successful transformation, and our support to the war 
fighter. Air National Guard retention remains at an all-time high. 
However, recruiting is a challenge, as the parents, teachers, and 
counselors now play a larger role in their child's decision to join the 
military. Therefore, the Air National Guard expanded funding of thirty 
eight storefront recruiting offices. These offices offer a less 
imposing sales environment than the traditional flying wing location.
    As part of the Total Force, the Air National Guard realizes it is 
essential that we transform into an effects-based, efficient provider 
of human combat capability for our warfighters, partners, and our 
Nation. Our Vision and Strategic Plan sets the transformational flight-
path for the personnel community in support of the Air Expeditionary 
Force, security for the homeland, our states' missions, and roles in 
the community. Furthermore, we will advance our continued commitment to 
a diverse Air National Guard, not just in gender and ethnicity, but in 
thought, creativity, education, culture, and problem-solving 
capabilities.
Information Networking for the Total Force
    The Air National Guard Enterprise Network is critical to the 
successful transmission of information within a unit, between units, 
and among the various states. We are making progress towards 
modernizing our nationwide information technology network that serves a 
vital role in homeland security and national defense. A healthy and 
robust network for reliable, available and secure information 
technology is essential to federal and state authorities in their 
ability to exercise command and control of information resources that 
potentially could impact their various constituencies.
    Greater emphasis must be placed on maturing the Air National Guard 
Enterprise Network. The rapidly changing hardware and software 
requirements of our warfighting and combat support functions come with 
a significant cost to upgrade and maintain a fully capable Information 
Technology network. The Air Guard network has typically been supported 
at the same level it was during the 1990s. Without a significant 
infusion of resources to acquire new technology, our ability to 
accomplish other missions will suffer. Modernization of the Air 
National Guard Enterprise Network will enhance interoperability with 
other federal and state agencies.

                                SUMMARY

    The Air National Guard will continue to defend the nation in the 
War on Terrorism while transforming for the future. We will do this 
across the full spectrum of operations in both the Expeditionary and 
Homeland Defense missions. The Air National Guard will also continue to 
draw upon our militia culture and linkage to the community as we 
execute our multiple missions and roles. The men and women of the Air 
Guard are currently serving proudly in the far corners of the globe--
and here at home--and will continue to do so with distinction.
    Today's guardsmen and women are your doctors, lawyers, police 
officers, cooks, teachers, and factory workers, white and blue-collar 
workers. They are your civilians in peace; Airmen in war--we guard 
America's skies.

MAJOR GENERAL TERRY L. SCHERLING, DIRECTOR OF THE JOINT STAFF NATIONAL 
                              GUARD BUREAU
                          JOINT STAFF OVERVIEW

    During 2005, the National Guard's pursuit of mission objectives 
once again proved to be a remarkable accomplishment. Support for 
Homeland Defense, the Warfighter, and Transformation guided our 
ambitious initiatives to serve our nation and our communities over the 
entire spectrum of domestic and overseas operations.
    Although the National Guard continued to be essential to our 
nation's success in Operations Enduring Freedom and Iraqi Freedom, 
Guard support to the warfight is not limited to our role on the 
battlefield. We demonstrate our ability to support the warfight 
anytime, anywhere, through dynamic evolutions to our State Partnership 
Program, Family Programs, and Employer Support of the Guard and Reserve 
Program. Our State Partnership Program supports homeland security by 
helping to develop dependable collaborative partners for the United 
States. Since our last posture statement, we accomplished 425 events 
between partner states and foreign nations, and added two new 
partnerships: Rhode Island with the Bahamas and Ohio with Serbia and 
Montenegro. We expect to add another six partnerships in fiscal year 
2007. Not since World War II have so many Guard members been deployed 
to so many places for such extended periods. Our Family and Employer 
Support programs continue to serve as a foundation to provide relevant 
and consistent support to our Soldiers, Airmen, families, employers, 
and communities during all phases of the deployment process.
    Our progress in homeland defense may be even more remarkable. More 
than 2,500 National Guard members provided consistent and reliable 
counterdrug support to the nation's law enforcement agencies. 
Initiatives are underway to leverage our 16 years of counterdrug 
experience and apply it to overseas drug trafficking problems in the 
Middle East. In addition to noted successes in our counterdrug program, 
we have continued to enhance all of our homeland defense capabilities. 
The Department of Defense acknowledged our Mission Assurance Assessment 
as essential to protect the nation's critical infrastructure. Our 
Weapons of Mass Destruction Civil Support Teams, recognized for their 
specialized expertise and rapid response times, have been expanded to 
55 full-time teams across the nation. We are now focusing on our 12 
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
Enhanced Response Force Packages as critical assets to the national 
response for the Global War on Terrorism.
    These and other National Guard capabilities were brought to bear 
frequently in 2005 in support of civil authorities by responding to 
national events, floods, wildfires, hurricanes and more. During the 
record 2005-hurricane season, the National Guard deployed over 50,000 
members in response to Hurricane Katrina alone, saving over 17,000 
lives, providing millions of meals and liters of water, and ensuring 
safety and security to numerous communities. Some regarded our response 
as one of our ``finest hours.''
    Yet, we have never rested on our laurels. We continue to transform. 
The Joint Combined State Strategic Plan is aiding our ability to plan 
for domestic operations, helping the National Guard, state governors, 
and U.S. Combatant Commanders assess force capabilities for HLS and 
HLD. The Department of Defense National Security Personnel System will 
apply to the 50,000-member National Guard Military Technician 
workforce, transforming the way our civilian personnel system works. We 
implemented the Joint Continental United States Communication Support 
Environment to address requirements for collaborative information 
sharing and other Command, Control, Communications, and Computer 
capabilities that can support HLS and HLD stakeholders. Our Joint 
Training Centers continue to evolve through continuous and in-depth 
analysis of lessons learned and homeland security training 
requirements.
    This past year the National Guard provided a remarkable 
demonstration of how effectively we can and do execute our state and 
federal missions simultaneously. The National Guard is always ready, 
always there.

                   HOMELAND DEFENSE: HERE AND ABROAD

    ``In times of crisis, our nation depends on the courage and 
determination of the Guard.''    President Bush, August 2005.
National Guard Reaction Force
    The National Guard has over 369 years of experience in responding 
to both the federal government's warfighting requirements, and the 
needs of the states to protect critical infrastructure and ensure the 
safety of our local communities. To improve the capability of the 
states to rapidly respond to threats against the critical 
infrastructure within our borders, the Chief of the National Guard 
Bureau has asked the Adjutants General of the states, territories and 
Commanding General, District of Columbia to identify and develop a 
Rapid Reaction Force capability. The goal is a trained and ready 
National Guard force available to the governor on short notice, capable 
of responding in support of local and state governments and, when 
required, the Department of Defense. The National Guard Bureau is 
working with both Northern and Pacific commands to ensure that National 
Guard capabilities are understood and incorporated into their response 
plans.
Critical Infrastructure Program--Mission Assurance Assessment (MAA)
    During the past year, the National Guard provided support to the 
country by responding to severe weather, wild fires, several National 
Special Security Events and Hurricanes Katrina and Rita. The year's 
events also guided the National Guard's preparations to implement MAA. 
This is a National Guard Homeland Defense prototype program in which 
teams of National Guard Soldiers or Airmen are trained to conduct 
vulnerability assessments of Department of Defense critical 
infrastructure in order to prevent or deter attacks and plan emergency 
response in case of a terrorist attack or natural disaster. The program 
is designed to educate civilian agencies in basic force protection and 
emergency response; develop relationships between first responders, 
owners of critical infrastructure, and National Guard planners in the 
states; and to deploy traditional National Guard forces in a timely 
fashion to protect the nation's critical infrastructure. In developing 
this concept, National Guard Bureau has worked with the Office of the 
Assistant Secretary of Defense for Homeland Defense and the Joint Staff 
to establish policies and standards. During 2005, the National Guard 
trained six Critical Infrastructure Program--Mission Assurance 
Assessment Detachments to conduct vulnerability assessments. The 
National Guard plans to train four additional detachments in 2006 to 
cover the four remaining Federal Emergency Management Agency Regions. 
The MAA teams' pre-crisis preparatory work facilitates the National 
Guard in continuing its time-honored tradition of preventing attacks, 
protecting and responding when necessary in defense of America at a 
moment's notice.
Support to Civil Authorities
    In 2005, the National Guard provided unprecedented support to 
federal, state, and local authorities, providing assistance during 
natural and manmade disasters, and supporting HLS and HLD operations. 
National Guard forces performed HLS missions protecting airports, 
nuclear power plants, domestic water supplies, bridges, tunnels, 
military assets and more. By the end of the year, the Guard expended 
over one million man-days of support in assistance to civilian 
authorities at the local, state and federal level.
    Hurricanes Katrina and Rita and, to a lesser degree, Wilma, 
affected states across the South. The National Guard provided 
assistance in the form of humanitarian relief operations that included 
construction, security, communications, aviation, medical, 
transportation, law enforcement support, lodging, search and rescue, 
debris removal, and relief supply distribution. Liaison officers sent 
to the affected areas assisted with coordination of air and ground 
transportation ensuring expeditious delivery of desperately needed 
equipment and supplies. Working closely with the governors of the 
affected states and the Federal Emergency Management Agency, the Guard 
proved instrumental in providing support to the beleaguered citizens 
and in reestablishing security of the affected areas.
Weapons of Mass Destruction Civil Support Teams
    Eleven additional National Guard Weapons of Mass Destruction Civil 
Support Teams (CST) were authorized in 2005, enhancing our ability to 
respond to chemical, biological, radiological, nuclear, and high-yield 
explosive events. There are now 55 authorized teams. Since September 
11, 2001 the 34 existing certified teams have been fully engaged in 
planning, training, and operations in support of local and state 
emergency responders. The remaining 21 teams are progressing rapidly 
toward certification. These are highly trained and skilled, full-time 
teams, established to provide specialized expertise and technical 
assistance to an incident commander.
    Their role in support of the incident commander is to ``assess, 
assist, advise, and facilitate follow-on forces.'' State governors, 
through their respective Adjutant General, have operational command and 
control of the teams. The National Guard Bureau provides logistical 
support, standardized operational procedures, and operational 
coordination to facilitate the employment of the teams and ensure back-
up capability to states currently without a certified team.
    2005 was a busy operational year for our teams. They assisted 
emergency responders throughout the country. 18 CSTs provided personnel 
and equipment that were vital to the National Guard response to 
Hurricanes Katrina and Rita. These teams conducted assessments of 
contamination levels remaining after the floodwaters receded. They 
provided critical communications and consequence management support to 
local, state, and federal agencies. Most importantly, they provided 
advice and assistance to the local incident commanders that 
dramatically impacted the recovery effort.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Enhanced Response Force Package
    To enhance the chemical, biological, radiological, nuclear, and 
high-yield explosive response capability of the National Guard, 12 
States were selected to establish a task force comprised of existing 
Army and Air National Guard units, with Congress authorizing an 
additional five in the fiscal year 2006 Defense Appropriation. The task 
force is designed to provide a regional capability to locate and 
extract victims from a contaminated environment, perform medical triage 
and treatment, and conduct personnel decontamination in response to a 
weapon of mass destruction event. The units that form these task forces 
are provided additional equipment and specialized training, which allow 
the Soldiers and Airmen to operate in a weapon of mass destruction 
environment. Known as a chemical, biological, radiological, nuclear, 
and high-yield explosive Enhanced Response Force Package (CERFP), each 
task force operates within the Incident Command System and provides 
support when requested through the Emergency Management System. Each 
task force works in coordination with U.S. Northern Command, U.S. 
Pacific Command and other military forces and commands as part of the 
overall national response of local, state, and federal assets. Each 
CERFP has a regional responsibility as well as the capability to 
respond to major chemical, biological, radiological, nuclear, and high-
yield explosive incidents anywhere within the United States or 
worldwide as directed by national command authorities. This capability 
augments the CST and provides a task force-oriented structure that will 
respond to an incident on short notice. While the exact numbers are not 
known, it is estimated that the Texas National Guard CERFP medical 
element treated over 14,000 patients from Hurricanes Katrina and Rita 
through late September.
    During 2005, 11 of the 12 teams completed National Fire Protection 
Association certified specialized training in confined space/collapsed 
structure operations. The twelfth is projected to complete search and 
extraction training during 2006.
National Special Security Events
    The Department of Homeland Security designates certain high-
visibility events that require an increased security presence as 
National Security Special Events. In 2004 and 2005, the G8 Summit, the 
Democratic National Convention, the Republican National Convention, 
President Ronald Reagan's funeral, and the Presidential Inauguration 
received such designation.
    The National Guard Bureau Joint Intelligence Division, in 
coordination with the Joint Force Headquarters--State intelligence 
offices, provided support to each event. Support missions included 
traffic control-point operations, a civil disturbance reaction force, 
aviation and medical evacuation support, a chemical support team, and 
support to the District of Columbia Metropolitan Police Department and 
the U.S. Secret Service for crowd screening. Army and Air National 
Guard personnel from several surrounding States were employed for these 
missions.
Intelligence for Homeland Security
    The National Guard Bureau has honed partnerships with U.S. Northern 
Command, Department of Homeland Security, Joint Force Headquarters--
State, and national agencies to enhance information sharing. We are 
aggressively engaged in seeking creative ways for the National Guard's 
joint structure's capabilities to support U.S. Northern Command's 
requirements for situational awareness of homeland security activities 
within the 54 states, territories, and District of Columbia. As part of 
the homeland security effort, the National Guard Bureau is exploring 
working relationships with federal agencies such as the Defense 
Intelligence Agency, National Reconnaissance Office, National Security 
Agency, Federal Bureau of Investigation, and National Geospatial 
Intelligence Agency.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

State Partnership Program
    The State Partnership Program is the National Guard's preeminent 
activity supporting Regional Combatant Commanders' Theater Security 
Cooperation. This program demonstrates the distinct role and capability 
a citizen-militia can provide a country's civilian leadership to 
transform their military and society. The program partners U.S. states 
with foreign nations to promote and enhance bilateral relations. It 
supports Homeland Defense by nurturing dependable collaborative 
partners for coalition operations in support of Secretary Rumsfeld's 
Concepts of Global Engagement and the Global War on Terrorism.
    The program reflects an evolving international affairs mission for 
the National Guard. It promotes regional stability and civil-military 
relationships in support of U.S. policy objectives. State partners 
actively participate in many and varied engagement activities including 
bilateral familiarization and training events, exercises, fellowship-
style internships and civic leader visits. All activities are 
coordinated through the theater Combatant Commanders and the U.S. 
ambassadors' country teams, and other agencies as appropriate, to 
ensure that National Guard support meets both U.S. and country 
objectives. Since our last Posture Statement, there have been over 425 
events involving U.S. states and their foreign partners.
    Since the last Posture Statement, two new partnerships were 
formed--Rhode Island/Bahamas and Ohio/Serbia and Montenegro. Nigeria 
has formally requested a partnership. Identification of a partner state 
is in progress. Several countries have initiated the formal process of 
requesting a partnership.
    This program is challenged to adapt to rapidly changing 
international conditions and events. Mature partnerships demand careful 
consideration of the appropriate partnership role and mission. The 
program's expansion in emerging geographic regions will require 
insightful selection of partner states, roles and missions and the 
appropriate path to promote political, military and social stability in 
partner countries while making the best use of National Guard 
resources. Expansion and integration in the Horn of Africa and the 
Pacific Rim are areas of challenge for our program. An ongoing 
challenge is to ensure states receive optimal support and the partner 
countries reap the greatest benefit.
    NGB is working to establish and formalize Foreign Affairs and 
Bilateral Affairs Officer positions and training with the services and 
the combatant commanders, Ambassadors and partner countries. These are 
vital initiatives to support expansion of the roles and missions of the 
program.
    In fiscal year 2007 and beyond, working with the geographic 
combatant commanders, we expect to take the program to the next level 
of security cooperation. We look for increased interaction at the 
action officer/troop level. The partner countries are looking for more 
hands on engagement events, unit exchanges, and exercises as well as 
working with their partner states during actual operations. A prime 
example is the liaison support given by Alaska to their partner state, 
Mongolia, when they deployed troops to Iraq. The National Guard seeks 
to satisfy this desire for deeper relationships while increasing the 
number of partnerships. In 2007, we can potentially add six 
partnerships.
National Guard Family Program
    The National Guard Bureau Family Program is a Joint Force 
initiative that serves as the foundation for support to Army and Air 
National Guard family members. As the Guard faces an unprecedented 
increase in military activity and extended deployments, the highest 
priority of the National Guard Family Program is to provide families 
with the assistance to cope with mobilization, deployment, reunion, and 
reintegration.
    Not since World War II have so many Guard members been deployed to 
so many places for such extended periods. The role and support of the 
family is critical to success with these missions. The National Guard 
Family Program developed an extensive infrastructure to support and 
assist families during all phases of the deployment process. There are 
more than 400 National Guard Family Assistance Centers located 
throughout the 54 states, territories and the District of Columbia. 
These centers provide information, referral, and assistance with 
anything that families need during a deployment. Most importantly, 
these centers and these services are also available to any military 
family member from any branch or component of the Armed Forces.
    The State Family Program Directors and Air Guard Wing Family 
Program coordinators are the program's primary resources for providing 
on-the-ground family readiness support to commanders, Soldiers, Airmen, 
and their families. The National Guard Bureau Family Program office 
provides support to program directors and coordinators through 
information-sharing, training, volunteer management, workshops, 
newsletters, family events, and youth development programs, among other 
services. To enhance this support, the National Guard Family Program, 
through the Outreach and Partnership program, is leveraging federal, 
state, and local government agency resources and forming strategic 
partnerships with veteran, volunteer, and private organizations.
    The greatest challenge lies in awareness and communication. The 
feedback we receive indicates that many family members are unaware of 
the many resources available to them during a period of active duty or 
deployment. Our primary goals are to increase the level of awareness 
and participation with existing family resources, and to improve 
overall mission readiness and retention by giving our warfighters the 
peace of mind of knowing that their families are well cared for.
Veterans' Affairs
    Sustained mobilization of the National Guard since 9/11 has 
resulted in a larger number of Guard members eligible for entitlements 
available through the Department of Veterans Affairs. Last year, the 
Chief of the National Guard Bureau, the Department of Veterans Affairs 
Under Secretary for Health and Under Secretary for Benefits signed a 
memorandum of agreement to establish a Veterans Affairs program to 
improve the delivery of benefits to returning Soldiers and ensure a 
seamless transition to veteran status. The agreement resulted in the 
appointment of a permanent liaison at the National Guard Bureau and at 
the Department of Veterans Affairs, and assignment of a state benefits 
advisor in each of the 54 Joint Force Headquarters--State. The benefits 
advisors coordinate the entitlement needs of members at the state level 
with the Department of Veterans Affairs, other veterans' service 
organizations and community representatives. This new program builds 
upon the strength and success of the National Guard Family Program and 
capitalizes on the services already provided by the Department of 
Defense.
Employer Support of the Guard and Reserve
    The National Guard and Reserve continue to be full partners in a 
fully integrated Total Force. This means our National Guard and Reserve 
service members will spend more time away from the workplace defending 
and preserving our nation. Employers have become inextricably linked to 
a strong national defense as they share this precious manpower 
resource. The basic mission of the Employer Support of the Guard and 
Reserve (ESGR) program is to gain and maintain support from all public 
and private employers for the men and women of the National Guard and 
Reserve.
    A nationwide network of local employer support volunteers is 
organized into ESGR committees within each state, the District of 
Columbia, Guam, Puerto Rico and the Virgin Islands. In this way, 
employer support programs are available to all employers, large and 
small, in cities and towns throughout our country. Today, nearly 3,000 
volunteers serve on local ESGR committees. With resources and support 
provided by the national office and the National Guard Bureau, the 54 
ESGR committees conduct Employer Support and Outreach programs, 
including information opportunities for employers, ombudsman services, 
and recognition of employers whose human resource policies support and 
encourage participation in the National Guard and Reserve. In view of 
the importance of employer support to the retention of quality men and 
women in the National Guard and Reserve, and in recognition of the 
critical contributions from local committees, the National Guard Bureau 
provides full time assistance and liaison support to the Joint Forces 
Headquarters--State and the 54 ESGR committees.
    The National Guard Bureau remains committed to the development of 
strategic partnerships with government agencies, veterans service 
organizations and public sector employers to ensure employment 
opportunities for our redeploying service members with an emphasis on 
our disabled veterans. One of the most important tasks our country 
faces is ensuring that our men and women in uniform are fully 
integrated into the civilian workforce when they return from service to 
our country.
Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads trains and mentors at-risk youth at 
30 program sites throughout the country to become productive citizens 
in America's future. As the second largest mentoring program in the 
nation, the ChalleNGe program is coeducational and consists of a five-
month ``quasi-military'' residential phase and a one-year post-
residential mentoring phase. A cadet must be a volunteer, between 16 
and 18 years of age, drug free, not in trouble with the law, unemployed 
or a high school dropout.
    The program has served as a national model since 1993 and the 25 
states and the Commonwealth of Puerto Rico that offer the program 
graduated more than 55,800 young men and women. Participants graduate 
from the program equipped with the values, skills, education, and self-
discipline necessary to succeed as adults in society. Significantly, 
although many ChalleNGe candidates are from at-risk populations, over 
70 percent of ChalleNGe graduates have attained either a General 
Equivalency Diploma or a high school diploma. Furthermore, 
approximately 20 percent of all graduates choose to enter military 
service upon graduation.
The National Guard Counterdrug Program
    For over 16 years, the National Guard Counterdrug program has 
assisted more than 5,000 law enforcement agencies in protecting the 
American homeland from significant national security threats. The 
Guard's operations assist these agencies in obstructing the 
importation, manufacture, and distribution of illegal drugs; and by 
supporting community based drug demand reduction programs. The program 
also supports the U.S. Northern and Southern Command combatant 
commanders. Given the growing link between drugs and terrorism, the 
National Guard's program continues to complement America's homeland 
security efforts. Although primarily a domestic program, initiatives 
are underway to leverage the National Guard's years of domestic 
counterdrug experience and apply it to overseas drug trafficking 
problems in the Middle East.
    This National Guard Bureau program, as executed by the 54 states 
and territories, through their respective governors' Counterdrug plan, 
supports the Office of National Drug Control Policy strategies. Support 
for these strategies is embedded within six general mission categories 
including: program management; technical support; general support; 
counterdrug related training; reconnaissance and observation; and drug 
demand reduction support. In 2005, approximately 2,475 National Guard 
personnel provided counterdrug support to law enforcement agencies and 
continued to remain ready, reliable, and relevant for their wartime 
mission by actively participating in their unit of assignment through 
weekend drill, annual training, and individual Soldier and Airman 
professional development.
    In fiscal year 2005, National Guard support efforts led to 61,125 
arrests and assisted law enforcement agencies in seizing nearly 2.4 
million pounds of illegal drugs, eradicating over two million marijuana 
plants, and confiscating over 4.5 million pills. Also, as a result of 
this joint effort, 11,490 weapons, 4,357 vehicles and more than $213 
million in cash were seized.
    In addition to counterdrug support operations, Air and Army 
National Guard aviation assets supported HLD and HLS operations as part 
of a joint task force along the northern border during Operation Winter 
Freeze. The success of that operation was to a great degree directly 
related to the program personnel's long-standing experience with law 
enforcement agencies.
    During rescue and recovery operations in support of Hurricane 
Katrina, our program played a major role. Thirty-five aircraft deployed 
to the Gulf Coast from 25 different states. These aircraft performed 
search and rescue operations and providing valuable photographic and 
infrared reconnaissance to assist officials in determining damage 
levels of the levees and the surrounding communities. In addition, the 
program organized Task Force Counterdrug Light Assault Vehicle, a task 
force comprised National Guard Soldiers and Airmen with Light Assault 
Vehicles from Nebraska, Oregon, California, Tennessee, and Michigan. 
These vehicles, which have an amphibious capability not commonly found 
in Guard units but critically needed in the flooding following Katrina, 
logged more than 800 hours and 6,000 miles and performed over 600 
rescues.

                  TRANSFORMATION FOR THE 21ST CENTURY

Transformation to a Joint National Guard Bureau
    The National Guard Bureau crafts the strategies that will result in 
the implementation of the Secretary of Defense's guidance to improve 
National Guard relevancy and support to the War on Terrorism, Homeland 
Defense and Homeland Security. The National Guard Bureau has presented 
an updated concept and implementation plan to achieve formal 
recognition as a joint activity of the Department of Defense to the 
services, a step that would formally establish the National Guard 
Bureau as the Joint National Guard Bureau.
Joint Force Headquarters--State
    The Joint Force Headquarters--State were established 
(provisionally) in October, 2003 in each of the 50 states, the 
Commonwealth of Puerto Rico, two U.S. Territories and the District of 
Columbia, to reorganize the previously separate Army National Guard and 
Air National Guard headquarters into a joint activity that exercises 
command and control over all assigned, attached or operationally 
aligned forces. These were formed in compliance with guidance from the 
Secretary of Defense to forge new relationships that are more relevant 
to the current environment between National Guard Bureau, the Office of 
the Secretary of Defense and the Joint Staff with a primary focus on 
improving Department of Defense access to National Guard capabilities. 
The Services and the Director of the Joint Chiefs of Staff have 
formerly approved the mission statement, and a Joint Operations Center 
is now operating 24 hours a day, 365 days a year, in each Joint Force 
Headquarters--State.
    All Joint Force Headquarters--State were directly involved in 
coordinating support for various disasters and emergencies this year to 
include the recovery efforts following the 2005 Gulf Coast hurricanes. 
Progress continues toward the goal of 54 fully operational Joint Force 
Headquarters--State by September of 2006. ``Core'' Joint Mission 
Essential Task Lists were customized to the task conditions and 
standards necessary for each particular state, approved by the 
respective Adjutant General, and loaded into the Joint Force 
Headquarters--State Joint Training Plan. Draft Joint Training Plans are 
complete for all Joint Force Headquarters--State to plan for, and 
capture, joint training during exercises and real-world events. Many of 
these headquarters' have already participated in Vigilant Shield and 
Vigilant Guard homeland defense exercises. The remaining states are 
scheduled for these exercises in 2006-2007.
Joint Combined State Strategic Plan
    The Joint Combined State Strategic Plan is designed to categorize, 
assess, and forecast future capabilities to support Joint Domestic 
National Guard operations by providing the ability to track and assess 
ten joint core capabilities needed to support Homeland Defense and 
Homeland Security. They are: command and control, Civil Support Teams, 
maintenance, aviation/airlift, engineer, medical, communications, 
transportation, security, and logistics. This plan serves as both a 
strategic tool and as an operational planning tool for the governor and 
U.S. combatant commands. This program's potential for future 
development coupled with its ability to track these vital competencies 
makes the plan a decisive tool for continuing transformation of the 
National Guard.
    Recent Hurricane Katrina relief efforts highlight the importance of 
having this information readily available. The National Guard was able 
to identify and mobilize units based on current availability and 
specific functional capability. In addition, individual states have 
used the state based joint combined strategic plan to render support to 
civil authorities during life threatening snowstorms and severe 
flooding this past winter. As a dynamic program, the plan is undergoing 
initiative enhancements to enable identification of additional, 
individual state-specific capabilities. This will allow for tracking 
specific situational response capabilities to hurricanes, tornadoes, 
floods, mass casualties, and fires among others at the state and 
regional level.
Joint Continental United States (CONUS) Communications Support 
        Environment (JCCSE)
    U.S. Northern Command and the National Guard Bureau jointly 
developed the JCCSE construct to address requirements for collaborative 
information sharing and other command, control, communications, and 
computer (C4) systems capabilities in the post 9/11 Homeland Defense 
and Defense Support to Civil mission environment. The detailed, long-
term vision for the JCCSE is outlined in the joint U.S. Northern 
Command and National Guard Bureau document, Joint CONUS Communications 
Support Environment (JCCSE) Concept for Joint C4, October 15, 2005, 
which defines JCCSE as, ``. . . the vital organizations and net-centric 
information technology capabilities required by the National Guard to 
support U.S. Northern Command, U.S. Pacific Command, U.S. Strategic 
Command, U.S. Joint Forces Command, and other DOD and non-DOD partners 
by extending interagency and intergovernmental trusted information 
sharing and collaboration capabilities from the national level to the 
state and territory and local levels, and to any incident site 
throughout the United States and its territories.''
    JCCSE is an umbrella construct that involves organizational and 
process development as well as requisite supporting enhancements to 
existing National Guard information technology capabilities. Due to the 
ongoing threats to the U.S. homeland in the post 9/11 environment, NGB 
took preemptive action to establish initial capabilities--the Interim 
Satellite Incident Site Communications Set (ISISCS)--that are 
geographically dispersed throughout the CONUS, as well as Hawaii, and 
have proven invaluable in real world operations in support of 
Department of Defense security missions and for disaster response 
operations related to Hurricanes Ivan, Katrina, and Rita. When fully 
implemented, JCCSE will provide robust state-federal net work 
connectivity as well as national level management and integration of 
long haul, tactical, and other DOD capabilities related to C4 systems. 
JCCSE will provide U.S. Northern and U.S. Pacific Commands, NGB, and 
the 54 Joint Force Headquarters--State with connectivity to any task 
force headquarters location, staging area, or incident site. JCCSE will 
be a major step forward in sharing information among federal, state, 
local, tribal, private sector, and non-governmental entities for 
incidents occurring in the states and territories related to HLD/DSCA 
mission taskings, major disasters or emergencies, and catastrophic 
incidents.
Open Source Information System
    The Open Source Information System is a Virtual Private Network 
used for open source research and sharing of unclassified, but 
sensitive, information between the National Guard Bureau and all 54 
Joint Force Headquarters--State, as well as other federal and DOD 
agencies. This system provides sensitive community-based, law-
enforcement information at the lowest possible cost. The project is 
demonstrating the significant value-added concept of sharing installed 
technology with communities.
    The National Guard Bureau, in partnership with the Army's Foreign 
Military Studies Office at Fort Leavenworth, Kansas, has developed 
training on the use of the Open Source Information System as well as 
open source information research skills and methodologies. This effort 
will provide the necessary tools for research and information sharing 
at the unclassified level to ensure interoperability, reliability, 
efficiency, operations security and economies of scale.
Homeland Security Joint Interagency Training Centers
    The Joint Force Headquarters of each state must possess the ability 
to establish one or more Joint Task Forces to support homeland defense. 
Additionally, as a result of legislation enacted in 2004, the legal 
authority exists to establish a Joint Task Force within each state 
composed of both National Guard members in non-federal status and 
active component military personnel. In order to better prepare 
National Guard leaders for the challenges of ``dual-status'' Joint Task 
Force command, the National Guard Bureau developed and implemented a 
formal training program for senior leaders from every state and 
territory. The dual-status Joint Task Force commander is a 
transformational concept that leverages the unique capabilities 
resident in the total force and strengthens unity of command in support 
of the homeland defense mission.
    National Guard Joint Interagency Training Centers were established 
in October 2004 at Camp Dawson, West Virginia and in San Diego, 
California. During fiscal year 2005, over 5,000 students from the 
National Guard and its interagency partners attended training at the 
centers. These training facilities conduct individual or collective 
training and educate Department of Defense entities and federal, state, 
and local authorities. The centers teach specialized courses in 
Incident Management, Continuity of Government/Continuity of Operations 
and Vulnerability Assessment. Areas of emphasis included protecting the 
domestic population, U.S. territory, and critical infrastructure 
against threats and aggression.
    These centers provide homeland security training development and 
delivery, and work to ensure training availability, quality, and 
standardization. They serve the homeland security training needs of 
National Guard units, specifically those with Homeland Defense, Civil 
Support, and Emergency Preparedness missions. The centers will continue 
to evolve through continuous and in-depth analysis of homeland security 
training requirements. The training centers continue to be a critical 
capability that achieves the homeland defense priorities of the 
National Guard Bureau.

                        STATE ADJUTANTS GENERAL

    Alabama--Major General (Ret) Crayton M. Bowen
    Alaska--Major General Craig E. Campbell
    Arizona--Major General David P. Rataczak
    Arkansas--Major General Don C. Morrow
    California --Major General William H. Wade, II
    Colorado--Major General Mason C. Whitney
    Connecticut--Brigadier General Thaddeus J. Martin
    Delaware--Major General Francis D. Vavala
    District of Columbia--Major General David F. Wherley, Jr., 
Commanding General
    Florida--Major General Douglas Burnett
    Georgia--Major General David B. Poythress
    Guam--Major General Donald J. Goldhorn
    Hawaii--Major General Robert G. F. Lee
    Idaho--Major General Lawrence F. Lafrenz
    Illinois--Major General (IL) Randal E. Thomas
    Indiana--Major General R. Martin Umbarger
    Iowa--Major General G. Ron Dardis
    Kansas--Major General Tod M. Bunting
    Kentucky--Major General Donald C. Storm
    Louisiana--Major General Bennett C. Landreneau
    Maine--Major General John W. Libby
    Maryland--Major General Bruce F. Tuxill
    Massachusetts--Brigadier General (MA) Oliver J. Mason, Jr.
    Michigan--Major General Thomas G. Cutler
    Minnesota--Major General Larry W. Shellito
    Mississippi--Major General Harold A. Cross
    Missouri--Major General (MO) King E. Sidwell
    Montana--Major General Randall D. Mosley
    Nebraska--Major General Roger P. Lempke
    Nevada--Brigadier General (NV) Cynthia N. Kirkland
    New Hampshire--Major General Kenneth R. Clark
    New Jersey--Major General Glenn K. Rieth
    New Mexico--Brigadier General (NM) Kenny C. Montoya
    New York--Major General Joseph J. Taluto (Acting)
    North Carolina--Major General William E. Ingram, Jr.
    North Dakota--Major General Michael J. Haugen
    Ohio--Major General Gregory L. Wayt
    Oklahoma--Major General Harry M. Wyatt, III
    Oregon--Major General Raymond F. Rees
    Pennsylvania--Major General Jessica L. Wright
    Puerto Rico--Colonel (Ret) Benjamin Guzman
    Rhode Island--Brigadier General John L. Enright, Acting
    South Carolina--Major General (Ret) Stanhope S. Spears
    South Dakota--Major General Michael A. Gorman
    Tennessee--Major General Gus L. Hargett, Jr.
    Texas--Major General Charles G. Rodriguez
    Utah--Major General Brian L. Tarbet
    Vermont--Major General Martha T. Rainville
    Virginia--Brigadier General Robert B. Newman, Jr.
    Virgin Islands--Brigadier General (VI) Eddy G. L. Charles, Sr.
    Washington--Major General Timothy J. Lowenberg
    West Virginia--Major General Allen E. Tackett
    Wisconsin--Major General Albert H. Wilkening
    Wyoming--Major General Edward L. Wright

    Senator Stevens. General Vaughn, we would be happy to have 
your statement.

STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD, DEPARTMENT 
            OF THE ARMY
    General Vaughn. Chairman Stevens, Senator Inouye, 
distinguished members of the subcommittee: General Blum has 
adequately captured my statement. I will ask that it be read 
into the record and I will just hit a couple points.
    The States, territories, and the District of Columbia 
continue to measure up and meet every mission as called by the 
President or the Governors. We still today have over 50,000 
mobilized on duty. A success story that is brewing up--and if I 
could have that chart real quick so we can see this. We have 
got a black line, I think that is big enough for all to see. 
That is where our end strength is going.
    We are on track to make 350,000. That end strength, as you 
can see on there, turned down in late 2003, in October. Where 
it stabilized and turned back up at the low point was June 
2005, which is the point in time where we had the most people 
that we have ever had, the most soldiers that we have ever had, 
deployed. Now, that speaks to something. That speaks to a lot 
of appreciation when these soldiers return home to their 
communities. You have had a lot to do with that and we thank 
you very much for your great and strong support. We are going 
to make this end strength at the end of this year.
    I look forward to your questions. Thank you very much.
    Senator Stevens. Thank you very much, General. 
Congratulations. That is good news.
    General Ickes, we would be happy to have your comments.

STATEMENT OF MAJOR GENERAL CHARLES ICKES II, ACTING 
            DIRECTOR, AIR NATIONAL GUARD, DEPARTMENT OF 
            THE AIR FORCE
    General Ickes. Thank you, sir. Mr. Chairman, members of the 
subcommittee: I really appreciate this opportunity to address 
you today.
    By the way, with me today, one of our chiefs. Chief Arnold, 
if you would stand up for a minute. He works for us at the 
Guard Bureau. In June he will retire with nearly 41 years of 
dedicated service to the Nation. He runs one of our strategic 
initiatives divisions and he has been instrumental to me 
personally in helping us set a path for the Air National Guard 
into the future. This is typical of what the Air Guard brings 
every day to the fight.
    Chief, thank you for being with us.
    Senator Stevens. Thank you very much.
    General Ickes. I would certainly like to start by thanking 
the subcommittee for not only your fantastic support, but to 
tell you how important National Guard and Reserve equipment 
appropriation (NGREA) is to us as we move forward in the Air 
National Guard. The support that you give us in that area is 
vital. It is vital because it allows us to do those 
modernization and upgrading issues that we so vitally need. It 
allows us to address those, and you have been so helpful in 
that area and I cannot tell you how big of a positive impact 
that has for us.
    The Air National Guard is engaged in every mission set that 
the United States Air Force has today. We are truly part of the 
total force. We are involved whether it be airlift, alert, and 
Hurricane Katrina-like operations, both outside the Continental 
United States (OCONUS) and at home. We are totally engaged, 
excited, and supportive of these mission areas.
    During Hurricane Katrina and Rita last year, the vast 
majority of the aircraft you would have seen flying during 
those operations were Air National Guard units in support of 
the Governors and the emergency management assistance compact 
(EMAC) agreements and the compacts that are established. During 
Katrina operations we flew 389 separate sorties in 1 day. We 
flew nearly 3,000 sorties during that operation, supporting 
General Vaughn, General Blum, and the Governors to meet the 
needs of the Nation. I could not be prouder of those folks, and 
all they have done.
    Your assistance with the Air National Guard has been able 
to help us with unique business practices to field precision 
targeting pods, data links, and upgrade our numerous engine 
requirements. Our currently deployed forces now possess the 
ability to provide the combatant commanders (COCOMs) with 
previously unseen and vital urban close air support (CAS), a 
mission that a few years ago none of us were really that 
prepared to do, but thanks to your support, we have been able 
to make great strides in those mission areas.
    In the future we seek modernization of our precision strike 
capabilities, 24-hour combat ID, and enhanced survivability of 
our large aircraft as we put large aircraft infrared 
countermeasures (LAIRCOM) systems on them.
    Last year's achievements underscore the critical needs to 
maintain our ability to act as an operational force, but yet 
still remain and maintain a strategic capability. We provide 
surge for wartime needs, or for national emergencies, while 
being operational at the same time. We maintain capability when 
we are properly resourced, and we work that constantly with 
everybody.
    We fully support the President's budget, and we understand 
that budgets are always tight. There are areas, though, that we 
continue to look to address to make sure that we adequately 
meet the needs of our 106,800 guardsmen. We have to be able to 
continue to attract, recruit, and retain these individuals. 
This year we will highlight recruiting and retention bonuses, 
and the things that go with it, to allow us to be competitive 
in a very competitive recruiting market.
    We have already reallocated some funds this year to address 
those needs. We are focusing on increased advertising, 
storefront recruiting offices, administrative assistance to our 
recruiters, and to capitalize on those programs that we have 
already begun.
    Some other things that are impacting us. In the 2005 
National Defense Authorization Act, we were approved enhanced 
authority for bonus programs, but we did not--we were not, able 
to source adequately the funds. We are working to do that now.
    Training is vital to both the current and future 
capabilities of the Air National Guard. It is what makes us 
special and unique. We need your help with this shortfall in 
our training budgets.
    We need to continue to focus on, as we transform the 
National Guard along with the Air Force as part of the total 
force team, those total force initiatives (TFI) are properly 
funded and adequately resourced, so that we have new mission 
sets for those organizations, much like Senator Bond addressed.
    We are bringing on new capability as we speak, such as 
Predator in Nevada, Arizona, California, Texas, and shortly in 
North Dakota.
    Those of us in the Air National Guard responsible for 
keeping our traditional guardsmen trained and ready, our full-
time technicians, are concerned that they have been under 
considerable strain. We are concerned about that force, but we 
are addressing that, and are keeping our eye on it.
    Another issue that has cropped up for us is contract 
logistics support for some of the new weapon systems we are 
bringing on board. We are finding more and more that we are 
finding shortfalls in those areas for the C-130J, for C-17s, 
and for the joint surveillance and target radar system (STARS) 
unit down in Georgia.
    Our depot maintenance program is only funded at about 75 
percent, and that will continue to be a challenge because we 
tend to fly legacy aircraft in the Air National Guard. We need 
to maintain those. Older aircraft need a little bit more care 
and feeding.
    I just want to thank you once again for all your great 
support. I want to thank you for all you have done in 
recognizing the contributions of our guardsmen, and I stand 
ready to answer any questions you may have. Thank you.
    Senator Stevens. Thank you very much, General.
    Senator Dorgan, each of us had an opening statement. Before 
we start our 7 minutes each, would you like to have any opening 
statement?

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, I am sorry I was delayed. I 
will defer. I would only say, I am sure as all of you have, how 
much all of us appreciate the work that the Guard has done and 
thank you for bringing some soldiers here to share their 
stories with us. They are inspiring stories and talk once again 
of service and commitment, duty, and honor. So thank you very 
much.
    And I will await my chance to ask questions.
    Senator Stevens. Thank you, Senator.

              NATIONAL GUARD AND RESERVES OPERATION TEMPO

    General Blum, we have some statistics on the tempo of 
operations for the Guard and Reserve. Are you planning any 
special initiatives to try to deal with and manage the high 
operations tempo?
    General Blum. Yes, Mr. Chairman, we are. We are working 
very closely with the Department of the Army and the Air Force 
to give our citizen-soldiers and airmen a predictable model of 
when they, their families, and their employers can expect to be 
called to extended active duty. I am not talking about for 
local disasters. They could get called out tonight; they 
understand that.
    For extended deployments in the air expeditionary force or 
in the army force generation model, we are moving every day 
closer to a predictable model that will allow an Army National 
Guardsman to know that once he has done an extended tour in 
Iraq, Afghanistan, somewhere else overseas, or here at home 
necessary and required for the defense of the Nation, he would 
probably be reasonably guaranteed a dwell time between 5 and 6 
years before he was called again from the States to go 
overseas.
    I think the employers will tolerate that. We think the 
families will tolerate that, and indications are from our 
service members that they find that is an acceptable model that 
they can live with. It also meets our regeneration model is 
practicable because we generally replenish our units at a rate 
of about 18 percent a year, which over 5 years means that you 
would not put an undue or unfair burden on a family, an 
employer, or a single guardsmen that they would not be 
otherwise willing, ready, and able to bear.
    Senator Stevens. I am not going to mention the individual, 
but I was contacted by an individual, a member of the Reserve, 
I think it was, who I was told the person had served in Iraq, 
returned home, and thought that was it, and entered a special 
program for advancement that was really not employment, it was 
more like an internship, the paid type of upgrading process, 
then was served another notice to go back to Iraq. If he does 
that he loses his promotional capability and he does not have a 
job now, like he did when he went over before.
    Now, are you set up so these individual circumstances can 
be examined on request of individual members if they are called 
up as quickly as that?
    General Blum. Mr. Chairman, in the National Guard of the 
United States Army and Air Force the adjutants general in each 
State are empowered to make those type of decisions.
    Senator Stevens. This is Reserve now. That is you, is it 
not?
    General Blum. Well, sir, I only have the National Guard 
under me. The second panel could probably address that better, 
but we recognize that as an issue. None of us--I do not want to 
speak for any of the Reserve chiefs that come behind me, but 
none of us want any of our reservists, whether the Guard or 
Reserve, to be punished because of their service, or to be 
unduly called to the service of their Nation repeatedly and 
unnecessarily.
    In the Guard we have empowered the Adjutants General to 
ensure that any soldier that did not want to willingly re-serve 
again sooner than 5 years would. In fact, soldiers have the 
ability to cross-level and get some other person with the same 
specialty or skill set to take their place, so that we do not 
put an unfair burden on any of our citizen-soldiers.
    I think the other Reserve chiefs will tell you how they do 
it in theirs, but that is how we do it in the Guard. I push 
that down to the State and local level.

            NATIONAL GUARD END STRENGTH AND FORCE STRUCTURE

    Senator Stevens. Have you had any negotiations with the 
service secretaries, the chiefs of staff, concerning end 
strengths and force structure changes that you have not 
discussed here now?
    General Blum. That we have not discussed here, Mr. 
Chairman? No. We have had very candid--what I share with this 
subcommittee I share with the service secretaries. I do not 
change my story. We have told Secretary Harvey and Secretary 
Wynne, the Secretary of the Army and the Air Force, that the 
Army and Air National Guard will meet their end strength and 
they will do it in the next calendar year. I am absolutely 
confident that the trend that General Vaughn showed you on that 
chart is a very healthy and real trend.
    We also, I might add, have the highest percentage of 
deployable forces within the Army and Air National Guard we 
have ever had in the history of the Army and Air National 
Guard. These are not hollow numbers. These are real deployable 
citizen-soldiers. By the end of this year we will have 350,000 
of those in the Army and about 106,700 of those in the Air 
Force, in the Air Guard.
    Senator Stevens. The President's budget said 333,000. The 
Army Secretary testified that he thought you would go up to 
350,000. Is that the agreement now?
    General Blum. The agreement is that they will fund us to 
350,000. The agreement was that they would restore all of the 
money that was taken out as a result of program decisions 
memorandum (PDM), which was--and I do not want to get this to 
the penny, but it is roughly $189 million in personnel, $219 
million in operation and maintenance (O&M), and about $63 
million in the defense health program that they absolutely are 
committed to restore to our coffers.
    Senator Stevens. What about the Air Force? We have got an 
overall reduction in strength of 40,000 in the future years 
defense plan (FYDP), I am told.
    General Blum. That is correct, sir. That is supposed to 
take effect in 2008 and we are under very serious 
negotiations--and that is the word, negotiations, 
collaboration--with the Department of the Air Force, because I 
cannot understand, nor can they adequately describe to me how 
that manpower bill was determined. They realize that there is a 
flaw in the calculation, and they are working with us to 
determine exactly what that manpower build really needs to be.
    It may be that the Air National Guard needs to be smaller. 
It may be that the Air National Guard needs to remain the same 
or it actually may need--we may actually need to grow. An 
informal manpower study that we have run--and we have asked the 
Air Force to validate it and run their own for us--actually 
shows us being a growth of 12,000 to 19,000 to do all of the 
missions that the Air Force wants the Air Guard to do.
    We are not saying they are right, we are not saying they 
are wrong. We are saying we are going to work together with 
them. We have the time before 2008 to get the numbers right and 
to get the size of the Air Guard right for this Nation and for 
the United States Air Force. Secretary Wynne and General Mosely 
have pledged their commitment to work with the Air National 
Guard leadership on this.
    Senator Stevens. Thank you very much.
    Senator Inouye.

                           EQUIPMENT FUNDING

    Senator Inouye. General Blum, last September a report was 
issued indicating that there was a need for $20 billion for the 
Army National Guard and $5 billion for the Air National Guard 
for equipment. The Congress responded by providing $1 billion. 
Can you tell us what your long-term plans are?
    General Blum. Senator Inouye, we will work with the 
leadership of the United States Army. The United States Army is 
challenged in this area as well. It is not unique to the Guard. 
It is worse for us in the Guard because we started at a lower 
level of equipping to begin with, so we are further in the 
hole, so to speak. They understand that.
    General Schoomaker and Secretary Harvey have appeared and 
testified to other subcommittees of Congress and the Senate and 
they have repeatedly assured us that there is $21 billion in 
the planning and operational maintenance (POM), in the future 
year defense plan (FYDP), in the budget, to address these 
issues for the Army National Guard. Frankly, they understate 
their contribution because there is about another $2 billion in 
there in aviation modernization. When you put it together there 
is almost $23 billion of good faith in the budget that the Army 
has in place to improve the equipment situation that exists in 
the Army National Guard.
    It is right now about as dire as I have seen it here at 
home in modern history but the other side of the coin is that 
we have the best equipped, best led, best trained force 
overseas right now that this Nation has ever fielded. That 
includes Active, Guard, and Reserve. It is truly seamless when 
you get overseas.
    The problem is that we have cross-leveled what we did not 
have now for 4\1/2\ years to ensure that the soldiers that go 
overseas have exactly what they need to do their job and that 
has depleted our stocks here at home. We are seriously looking 
at strategies to replenish those stocks of supplies and 
equipment. The United States Army leadership, particularly 
General Schoomaker and Secretary Harvey, have expressed their 
absolute commitment to making that a reality.

                          EQUIPMENT READINESS

    Senator Inouye. General Blum, there seems to be a common 
practice that when your troops, the Air and the Army National 
Guard, leave Afghanistan and Iraq they leave back their 
equipment. Obviously, from my standpoint it would affect 
readiness and I would think that it would make them unable to 
meet their State needs. But it is a common practice.
    I am just wondering, what do you think about that?
    General Blum. Senator Inouye, you are absolutely correct. 
The National Guard is often asked to leave the equipment that 
we cross-leveled and ensured that the soldiers would have when 
they left the United States. We are often asked to leave that 
in theater, in place, in Iraq and Afghanistan. That is a good 
thing to do, in my judgment, because it saves lots of time and 
millions and millions of dollars in moving equipment back and 
forth.
    I fully support leaving the equipment in theater. What I 
think needs to be addressed is the unintended consequence of 
leaving us uncovered with equipment back here at home to train. 
We have the most experienced force that we have ever had; 60 
percent of our force now is combat veterans. They are used to 
having equipment in their hands that is modern and capable, and 
if they are going to stay with us, if we are going to be able 
to retain these skilled, experienced people, we are going to 
have to have equipment to train and keep them--keep the edge on 
their capabilities.
    We are also going to need that equipment to train the new 
people that we are recruiting. We need the nonlethal equipment, 
the trucks, the medical sets, the communications, aviation, the 
engineer equipment, that are absolutely vital if we are going 
to be able to do our homeland defense and homeland support 
missions when we are called upon to support agencies such as 
the Federal Emergency Management Agency (FEMA) or the 
Department of Homeland Security (DHS). Whether we are called 
out by the Governor or we are called out by the President, we 
are going to need that equipment.
    The problem has been we have not paid sufficient attention 
to re-equipping or resetting the force back here at home fast 
enough for that domestic mission to have equipment to train 
with and to have equipment to respond to natural disasters or 
terrorist events here in the United States.
    Senator Inouye. You are not getting it?
    General Blum. Sir?
    Senator Inouye. You are not getting it?
    General Blum. We are starting to get it now. I think that 
the senior leadership of the Army and the Air Force understand 
the urgency to do this now. They are, I think, genuinely 
committed to helping us remedy this problem. It will not get 
fixed overnight, however, Senator. It is going to take--it is 
going to take, frankly, years. My issue is that I do not know 
if we have years. Sooner is better for me, because this is not 
equipment that it is nice to have; it is essential to have. We 
may need it as soon as the next 60 days in the southeastern 
part of our Nation for the hurricane season that is beginning.

         NATIONAL GUARD ROLE IN THE QUADRENNIAL DEFENSE REVIEW

    Senator Inouye. The recent Quadrennial Defense Review (QDR) 
came forth with a new force structure plan which drastically 
changes your force structure. Did you have any role to play in 
this or was it just imposed upon the Guard?
    General Blum. We did not play a very effective role in it, 
let us put it that way, Senator. General Schoomaker and 
Secretary Harvey have both testified that it could have been 
done better. They are committed to making sure that it is done 
better in the future and that we are not as surprised as we 
were last time.
    Senator Inouye. Time does not permit it, but can you 
provide this subcommittee how you would do it better?
    General Blum. Well, sir, I will try to simplify it. If I am 
going to play football on a football team, it is nice to get 
called to the huddle if you are going to know what play you are 
supposed to run. They are committed to making sure that we get 
called to all of the huddles, not just some of them.
    Senator Inouye. So you did not have a huddle?
    General Blum. I am sure there was a huddle. I am not sure 
that we were in the huddle.
    Senator Inouye. Thank you very much, sir.
    Senator Stevens. Well put, General. I think we are going to 
try to deal with that.
    Senator Burns.
    Senator Burns. How does it feel like to be General 
Carpenter and be the lonesome end, if you remember those days.
    General Blum. Yes, sir, I do.

                 AIR NATIONAL GUARD F-15 MODERNIZATION

    Senator Burns. We have already covered--Senator Inouye 
already covered some--one of my questions, and that was the 
equipment, and we understand that our 163d is coming back, 
about 35 percent of their equipment, and there being a real 
bind in replacing some of that equipment. I am certainly glad 
you are taking care of that.
    General Ickes, I am kind of concerned about, you said a 
while ago on your budget that the President has set down--as 
you know, we are converting in Montana from 16's to 15's, and I 
did not see any real strong funding for modernizing the new F-
15C's that we are getting up there. To be more specific, there 
is a piece of equipment called the active electronically 
scanned array radar (AESAR). Is that being addressed or are we 
going to have to--are we going to have to take care of that?
    Senator Bond. Yes.
    Senator Burns. You and me are going to do that? Me and you, 
huh? Okay. We killed a bear; paw shot him.
    But I would still like for you to address that situation.
    General Ickes. Yes, sir. I believe the Air Force does 
believe that it is a--the AESAR radar, as it is addressed, is a 
major enhancement to the capability of the F-15. Our concern 
remains if the Air Guard, which has 100 percent of the fixed 
alert facilities in the United States and is given that 
responsibility to protect the sovereign skies of the United 
States, we ought to probably have the best equipment on our 
aircraft to meet that mission set.
    As there are certain potential threats that come down the 
road in the future, we want to make sure that we can adequately 
address that. Congress did appropriate some money and we are in 
the process right now of addressing $50 million some across the 
F-15 fleet within the Air National Guard. That certainly will 
not address anywhere near enough of the aircraft, the F-15's 
within the Air National Guard. So as we address a modernization 
road map, that is certainly one of the things that our F-15 
community has spoken to as something they think would be vital 
to be relevant into the future.
    So yes, sir, there is money out there now.
    Senator Burns. Well, I thank you for that response and we 
will be following this very closely. I would also say that the 
northern border unit that we have now going in up there of 
course we are going to be looking at. It is getting itself in 
place up there right now. I will not be here for the second 
panel, but I want the subcommittee to know that our Red Horse 
Brigade that operates out of Montham is a hybrid force. It has 
both Reserves and regulars in it. In fact, the first commander, 
commanding officer of that brigade, was a Reserve officer.
    This kind of a blend of people has helped us in our force 
and it works. There are some folks that say that they are a 
little skeptical about the cooperation and how each one of us 
is looked at. So that has worked up there, and of course I 
think we will see probably more of that both probably as far as 
the Army, the boots on the ground, and kind of people will also 
be a hybrid type of organization.
    But I am still concerned about the equipment, the 
replacement of that equipment for our folks to train. We are 
moving into a fire season in Montana. I do not think we will 
have a huge fire season this year. We have got more than 
adequate moisture, which we thank the Lord for, and we will 
move on. But we will be monitoring these kind of situations. 
General, maybe we should sit down and talk about those kind of 
things as far as the Air Guard is concerned and your concerns 
there.
    I appreciate your good leadership on this. With that, that 
is the only question that I have and I would yield the floor, 
and thank you very much for coming and your testimony.
    Senator Stevens. Thank you very much, Senator.
    Senator Mikulski.

              EMERGENCY PREPAREDNESS FOR NATURAL DISASTERS

    Senator Mikulski. Many of my questions have been covered, 
about equipment and some other issues. I want to get to the 
question of, were you in the huddle, General Blum, not about 
the QDR, but about emergency planning in terms of our response 
to natural disasters.
    Let me get to my point. Both panelists and you have said 
that hurricane season starts June 1, fire season. Each State 
has its own natural disaster propensities. The Guard, both Army 
and Air Force, were valiant during Katrina and worked at an 
incredible tempo. Your testimony, General Ickes, just speaks 
for itself. Behind every number is a person and a family.
    So my question is this. I am worried that we are not 
prepared again. We keep moving people around. We keep moving 
boxes around. But the question is: Are we prepared? In getting 
ready for both hurricane season and natural disasters, has 
there been a real plan established where there would be a 
disaster of such horrific proportion, like Katrina was, for the 
way the National Guard will be organized, mobilized, the 
prepositioned materials, et cetera?
    I am worried about hurricanes. I am worried if avian flu 
does come to America it will be the National Guard that will 
have to maintain civic order, perhaps even the quarantine of 
our own people. Could you tell me, are you in the huddle? Are 
we being prepared? Because I think you have the right stuff. I 
am just concerned that we do not have the right organizational 
mechanism to mobilize our response the way we need to be 
mobilized.
    General Blum. Senator Mikulski, let me assure you that our 
excellent response last year, which was historic in its scope 
and speed, unprecedented in military history of the world to a 
natural disaster, will be better this year if needed because, 
frankly, you have given us $800 million, your subcommittee has 
given us $800 million. We have spent that on equipment on 
exactly what we told you we needed to respond better this year.
    Last year we had three deployable command and control 
satellite communications systems deployed. This year we will 
have 19----
    Senator Mikulski. General, it is not only about equipment. 
You know, the response to Katrina was late, uneven, disjointed. 
There was a lack of a national command and control structure. 
When a State's own responses are so overwhelmed by the nature 
of the disaster, only a national response can come in. As you 
know as guardsmen and someone under the doctrine of mutual 
assistance, has that been rectified?
    General Blum. I cannot with absolute certainty say it has 
been rectified. I can tell you that we have had avian flu 
exercises this year. We have had multiple hurricane exercises 
this year. I am gratified by the fact that more people are 
coming to the huddle that you describe than we used to see 
coming to the huddle, including FEMA. We have a big one coming 
up on May 17 with all of the National Guard leadership in FEMA.
    Senator Mikulski. Who would be in charge?
    General Blum. Well, absolutely it would be the Governor of 
the State where the hurricane occurs initially, and then if 
they request Federal assistance who will be in charge will be 
designated by the administration and the Department of Homeland 
Security. It could very well be FEMA. It would be very likely 
that it would be----
    Senator Mikulski. Then how would you be mobilized for a 
national response? What the Air Force did is beyond a local 
National Guard and they themselves might have been killed. The 
base might have been destroyed. Their families will be in 
disarray or evacuating.
    General Blum. From the uniformed side, we will--I will 
absolutely tell you that the situational awareness or the 
information sharing between the United States Northern Command 
and the National Guard has improved and will be better this 
year than it was last year. You will also see an improved 
communication and sharing of information with the Joint Staff 
of the Department of Defense this year. Better than it was in 
the early stages last year. You will even see better 
communication between the adjutants general and the supporting 
States with one another than they did, even as compared to how 
extraordinarily well they did last year.
    We have learned a lot of things the hard way last hurricane 
season. We hope to do better on many of those things this year. 
I will never say that we are absolutely prepared because you 
never know exactly what we are going to be facing, but we are 
better prepared than we were last year as an inter-agency 
coordinated effort.
    I do not know if that adequately answers your question.
    Senator Mikulski. Well, it does, but you need to know I 
worry about it.
    General Blum. Well, you should, you should.
    Senator Mikulski. We can talk more about it or even 
privately about it, because I think both the Army and the Air 
Force, and then coupled with our Coast Guard, were fantastic. 
But you need to be able to have the response at the right time.

                  RETENTION IN THE ARMY NATIONAL GUARD

    Army retention. One of the issues I think, is the retention 
of the noncommissioned officers (NCO's) or at the sergeant 
level a significant challenge? Because no matter how well we 
recruit, you need an officer corps, and it's the NCO that seems 
to play such a part in both training and even the social glue 
of individual units in our States. Am I right in that analysis, 
and how are we doing on retaining them?
    General Vaughn. I think you are exactly right, Senator. We 
are very proud of our retention inside the Army Guard. It goes 
back to those units that have been deployed and done very 
meaningful things. You know what we are faced with with our 
recruiting situation. We are going to have the youngest 
National Guard that we have ever had, but we are also going to 
have the most combat veterans we have ever had.
    Every place we go, we see folks that would have--we see 
soldiers really that would have left the force except for one 
thing: They wanted to go with their unit on a deployment. When 
you were talking about folks that went back the second time a 
while ago, there are 1,000 soldiers out of Minnesota that went 
with the 1st of the 34th that did not have to go.
    Now, what we are seeing is those soldiers when they come 
back--normally they would not have been in anyway, but they 
extended, and what they are telling us is they will stay with 
us to groom that next level of leadership in the NCO corps 
before they leave. That is all we are asking them to do, 
because we are going to have a very young force.
    I think we are doing real well in retention. We thank this 
subcommittee for all of that help. Across the Army we are doing 
well. Thank you.
    Senator Mikulski. Thank you.
    Mr. Chairman, I have other questions. I know others will be 
asked. My time is up. I would just like to comment to the Air 
Force. I have a very keen interest in military medicine that 
the leadership of the subcommittee is aware of. I think the 
advances we have made in Iraq at limiting both mortality and 
morbidity has been fantastic. It is because of not only the new 
battlefield techniques, but because of what the Air Force does, 
from lifting the soldier from the battlefield to the hospital 
in Iraq or Afghanistan and to Germany.
    I think it has been a story that has not been told, and 
every physician, including the civilian community, is amazed at 
the brilliance of it and the medical ingenuity. But it could 
not be done without the Air Force doing the heavy lifting. So a 
very, very, very special thanks.
    Senator Stevens. Thank you, Senator.
    Let me remind Senators we have another panel and we have a 
vote starting at, two votes starting at 12 noon.
    Senator Bond.
    Senator Bond. Mr. Chairman, I have agreed to yield to 
Senator Domenici for one quick question.

               HOLLARAN AIR FORCE BASE: F-22 CONSTRUCTION

    Senator Domenici. One question. My question has to do with 
Holloman Air Force Base and the fact that the F-22's are 
scheduled to be assigned there. As you know, at the other 
assignments the Air National Guard flies the F-22's in 
conjunction with the regular Air Force. My question is how will 
the New Mexico National Guard be used for operating the F-22 
squadrons at Holloman?
    General Ickes. Yes, sir, Senator. As a matter of fact, 2 
weeks ago I was in discussions with The Adjutant General (TAG) 
and his staff down in New Mexico to how we best leverage those 
great Air Guardsmen down there to move into the F-22 mission. 
Much like we are going to be and we are in Virginia and Hawaii.
    We have great opportunities in the F-22. What we are 
looking at is how we can come up with a concept that will allow 
the unit to be able to recruit and retain down at Holloman and 
be a vital part of that mission. We have found at Langley with 
the folks that we have put in the F-22. The Air Force is 
ecstatic about the skill sets that we are bringing the 
experience in both our air crew and our maintainers. We are 
looking for the best way to do that.
    I would tell you that it will be something like a 
detachment-type (DET) of construct probably initially. It 
probably will not be a full-up robust unit down there 
initially, just because of how we will sustain a full-up unit 
down there. The TAG is very eager to look at organizational 
constructs that would work to get the New Mexico Guard into 
that.
    Senator Bond. Thank you very much, General Ickes.

            NATIONAL GUARD SEAT ON THE JOINT CHIEFS OF STAFF

    General Blum, what does the National Guard represent now in 
terms of percentage of the total force?
    General Blum. About 32 percent of the total capability of 
the United States Army and about 34 percent of the total 
capability of the United States Air Force.
    Senator Bond. Can you tell me how many hold the rank of 
general and lieutenant general respectively in the active duty 
Army and in the Air Force?
    General Blum. No, sir, I am not prepared to give you that 
number right now.
    Senator Bond. I think in the Army there are 12 generals and 
49 lieutenant generals, the Air Force 13 generals and 37 
lieutenant generals.
    The National Guard has how many generals and how many 
lieutenant generals?
    General Blum. We do not have any generals and, as far as 
lieutenant generals, we have----
    Senator Bond. Three.
    General Blum [continuing]. Three.
    Senator Bond. So that is zero percent of the full generals, 
3 percent of the lieutenant generals, although you comprise 
over 30 percent of the force. Should we increase the grade 
authorization of the Chief National Guard Bureau (CNGB) to four 
star in order to provide him or her a seat at the Joint Chiefs 
of Staff (JCS), thus giving the Guard a stronger voice?
    General Blum. Is that a direct question to me, sir?
    Senator Bond. Is that a--yes. Should we?
    General Blum. It would be probably inappropriate for me to 
comment and my feelings on that really do not matter. Those 
decisions really need to be decided in other places. What I 
have got to do is decide how to do the job with the tools I 
have in front of me.
    Senator Bond. I understand the Department of Defense 
position. Do you have a personal opinion on which you can give 
me some guidance?
    General Blum. Well, sir, if you are asking me would it aid 
a future chief in their ability to do the job, I think that is 
certainly worthy of very serious consideration. However, it 
would be inappropriate for me to discuss that because I am 
currently in that position.
    Senator Bond. We understand that and we take that into 
account.
    But let me just, a couple points and I want to see if I 
have got these correct. Since 9/11 the role of the Guard has 
become more important to the security of the Nation. In 
response to 9/11, Congress created an Assistant Secretary of 
Defense and the Department of Homeland Security, but did not 
establish any formal connection between those entities and the 
National Guard Bureau (NGB), and under the current law the NGB 
is still limited to serving as a channel of communication 
between the services and it has no formal connection to the 
Joint Chiefs of Staff, no voice of its own inside the Joint 
Chiefs of Staff.
    Is that a correct statement of the structure?
    General Blum. Sir, if you look at--this question I am more 
comfortable to address, frankly, because it is not tied to an 
incumbent or anything like that. The U.S. Code right now 
establishes in law the job of the Chief of the National Guard 
Bureau. It is restricted to a channel of communication between 
the States and the Chief of Staff of the Army and the Air Force 
and the Secretary of the Army and the Air Force. It does not 
recognize any direct connection to the Department of Defense. 
It does not establish any connection to the Joint Staff. It 
does not reflect any that Goldwater-Nichols changes.
    We were completely excluded from that and obviated from 
those reforms. We are still left in the 1947 construct. We are 
a unique organization that is still viewed through policy, 
regulation, authorities, and resources largely as a strategic 
reserve. Yet we are an operational force today and will be a 
more and more essential operational force in the future.
    So I would say the policies, the regulations, the 
authorities, and the resources need to seriously be looked at 
to bring them into line with an operational force that is 
unique, in all of DOD; and that has shared responsibilities 
with the dual mission for both the governors and the President.
    Senator Bond. As we have discussed, this year the Army 
through the Pentagon sent Congress a budget proposal which 
reduced the size, proposed reducing the size of the Army Guard 
force structure, holding back some of the manpower funding 
based on recruiting downturns. I believe that senior Army 
leadership has acknowledged the fact in congressional testimony 
these decisions were made without full and complete 
consultation with the States or the adjutants general. Is that 
a fair statement?
    General Blum. Yes, sir, and that has been the testimony of 
the Secretary of the Army and the Chief of Staff of the Army.
    Senator Bond. We have also heard from the subcommittee 
previously in BRAC consultations the Air Guard was left out of 
making what I consider, I have already stated, is a very bad 
decision. When hurricane--well, when you have four-star 
generals making decisions like this, from what little I know 
about military discipline, a three-star general listens to a 
four-star general, the four-star general gives the orders to 
three-star generals. Is that a fair account of the structure?
    General Blum. Yes, sir, that is the way it is set up to 
work and it works very well.
    Senator Bond. That is why we want to change it.
    When Hurricane Katrina struck, the biggest military 
deployment response effort was conducted, not by the Department 
of Defense, but States sending National Guards under the 
emergency management assistance compact and set up specialized 
informed dialogue between the States and the Federal 
Government.
    Even though the National Guard Bureau had no formal 
connection to the Department of Defense or the White House, you 
were in fact called upon to give advice and provide 
coordination, were you not?
    General Blum. Absolutely, particularly after the first 24 
to 36 hours.
    Senator Bond. I understand the National Guard Bureau has 
been in the forefront of cutting edge ideas, like the joint 
force headquarters, State chem-bio response, National Guard 
quick reaction. You have pioneered these capabilities as 
America needs them. But I understand it has been slow to get 
DOD funding, at least in part because the National Guard Bureau 
does not have a formal mandate to develop unique capabilities 
such as this. Is that correct?
    General Blum. That is fair, sir. That is a fair statement. 
That is accurate.
    Senator Bond. I will say that I will make a statement that 
adding a four-star general will not endanger national security.
    Thank you, General Ickes. Following up on the comment made 
by Senator Mikulski, our congressional delegation (CODEL) to 
Iraq and Afghanistan, we were flying a National Guard C-130, 
supposedly going directly to Kabul. We detoured to Kandahar, 
picked up a severely injured Afghan officer. They established a 
field hospital on the C-130, dropped him at Bagram Air Base, 
and we saw how magnificent the work of the National Guard, 
Wyoming Guard flying in Rhode Island aircraft.
    Thank you.
    Senator Stevens. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.

                TOTAL FORCE INTEGRATION AND NORTH DAKOTA

    General Ickes, I wonder if you could update me on the plans 
for the 119th, the Happy Hooligans in Fargo?
    General Ickes. Well, sir, right now what we are trying to 
figure out in the Air Guard, working with the Air Force, is--
and General Blum has alluded to it--there is a myriad of 
requirements that we are looking to fill, capability that we 
want to bring. That drives us to somewhere to around 112,000 to 
119,000 guardsmen.
    But yet we understand when we start matching resources to 
requirements there will be some adjustments made. So now what 
we are trying to figure out in this total force initiative is 
what are we going to be able to do.
    For North Dakota specifically, Predator is, the unmanned 
air vehicle (UAV) systems are on their way to North Dakota. We 
will be standing that up shortly. I was in discussion with the 
TAG this morning about the bridge missions for the State to 
make sure that we have a bridge capability. General Blum has 
committed to them being our first joint cargo aircraft 
organization. So we are working for a way that we do not lose 
that flying capability in the organization, and we will be 
discussing that more today.
    But we are trying to figure out, are we going to have 
adequate resources to stand up this new total force integration 
capability as we go into the future? We have the people, we 
have the missions. We have just got to make sure resources 
match that, and training.
    Senator Dorgan. Well, the administration's budget proposal 
to cut the Air Guard by roughly 14,000 over 5 years, how will 
that affect the total force integration? How might it affect 
the total force integration?
    General Ickes. It will have a big impact, sir, if we have 
to meet that requirement. General Blum has been working close--
we work close with General Wood, the head programmer of the Air 
Force. We are trying to figure out how to move into new 
transformational organizations so that we can find some 
efficiencies.
    But our concern is that, as we have done some preliminary 
studies, the Guard--there is enough capability and requirement 
for more than we have today. Now we have to prioritize and then 
figure out, what are we going to be able to do? It is going to 
be a challenge for us as we move into the future.
    We understand the Air Force's needs to modernize the fleet. 
We want to be part of that. We will be part of that. But there 
are some challenges.
    Senator Dorgan. The flying mission, the Happy Hooligans, 
the 119th, the bridge you are talking about there might be some 
C-130's, is that correct?
    General Blum. Yes, it might, Senator. But we may even have 
a better solution that we are going to discuss on that with the 
Governor today. Actually, later today we will meet with the 
Governor. We have been able to come up with another option that 
we would like North Dakota to consider that may be even, 
frankly, better than that.
    But if nothing better than that develops, then we will 
probably do what we have discussed and that would be the C-130 
bridge.

                          LENGTH OF DEPLOYMENT

    Senator Dorgan. Let me ask, General Blum. One of the issues 
with respect to the National Guard in my State and others when 
they are deployed is that generally speaking, while they are 
citizen-soldiers, have jobs, homes, families they are leaving 
to go, in many cases now to deployment in Iraq, they are taken 
on their deployment and gone in many cases 14, 16, in some 
cases 18 months. Active duty soldiers when deployed in most 
cases leave their base station here in the United States and 
are gone 12 months and back.
    So the fact is the citizen-soldiers here are gone from home 
the longest. Tell me, are you working through--I know that you 
addressed some of that earlier this morning. Are you working 
through ways to reduce that time away from home for the 
deployments for the Guard?
    General Blum. The short answer is yes, sir, we are. If you 
want more detail, I will tell you how we are doing it.
    Senator Dorgan. If you would, yes.
    General Blum. There are several factors there that are 
involved. One is the mobilization piece. When they are called 
up they have to be given the equipment they did not have, they 
have to be given the training that they did not receive, they 
have to get processed for all of the dental and medical issues 
that were not resourced or covered previously because they were 
a strategic reserve.
    As you bring them in to make them an operational force, it 
takes time and resources to do that. That extends the time.
    All soldiers in the United States Army spend 1 year boots 
on the ground right now. General Schoomaker and the Army 
leadership is committed to shortening that as fast as they 
possibly can, but right now they are unable to do that. We do 
not want to look unaccessible or unreliable. We want to remain 
an essential, integral part of the United States Army and Air 
Force. We serve overseas the same length of time as the active 
duty people.
    The additional time you are talking about is the time that 
could be shortened if equipment were in the hands and training 
were in the hands of the reservists or the national guardsmen 
before they were called. That would dramatically shorten the 
time. The active duty people still do training before they 
deploy as well and I do not take any quarrel with that at all. 
There is always specialized training required. But this time 
could be shortened through process and resource.

                     EQUIPMENT, WEAR AND DEPLETION

    Senator Dorgan. In my remaining minute and a half, let me 
ask about equipment. There has been a lot of stories and a lot 
of evaluation about just plain wearing out of equipment. We 
have a very large emergency supplemental bill on the floor of 
the Senate now. Much of that is to try to replace equipment 
that is wearing out. We are using that equipment much more 
heavily than was anticipated.
    Tell me what you are facing with that equipment situation?
    General Blum. Exactly the same issues, except it is 
exacerbated because we started with less than all of the 
equipment we were supposed to have to begin with. As I said 
earlier, the entire United States Army has this problem. It is 
not unique to the Guard or the Reserves, but the Guard and the 
Reserves have a more significant problem because they were 
underresourced at the beginning and as the resources are 
depleted that pushes you further and further in the hole.
    I do not know if that is adequate for your answer, but that 
is the overall big picture.
    Senator Dorgan. It is a pretty serious problem, I think.
    General Blum. Oh, it is an incredible problem for the 
United States Army over the total Army, not just the Guard, but 
the Guard suffers disproportionately because we started lower 
on our inventory to begin with.
    Senator Dorgan. General Vaughn, General Blum, General 
Ickes, thank you very much for being here.
    Senator Stevens. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

            NATIONAL GUARD SEAT ON THE JOINT CHIEFS OF STAFF

    I am pleased all the witnesses are here. I have read the 
testimony. Unfortunately, we are at Judiciary at the same time. 
I know much of my questions have already been asked.
    We look over the past year and we have seen troops from our 
National Guard providing upward of 50 percent of the troops in 
Iraq. We know the National Guard provided perhaps the best 
response of the Government to Hurricane Katrina, and General 
Blum and I have talked about these matters before.
    A lot of us were very disappointed to see the Army and the 
Air Force attempt to cut the end strength of the National Guard 
on purely budget grounds without considering they have broad 
responsibilities. Senator Bond has already discussed this, but 
he and I are co-chairs of the Guard Caucus and we fought these 
cuts very hard. We have actually 73 members in a time when, 
unfortunately, the Senate has become far more partisan than 
what the three of us are used to as more senior members here. 
This was a strong showing of bipartisanship, 73 Senators 
joining the letter to the Secretary opposing this.
    I kind of look at the National Guard as a 21st century 
fighting force with a kind of 19th century organizational chart 
or flow chart. I think the interesting thing is how well you 
have worked around some of those obstacles. That is why Senator 
Bond and I are introducing the National Defense Enhancement and 
Guard Empowerment Act of 2006, which has been discussed.
    General Blum, you were circumspect in your answers to 
Senator Bond on that. I do not want to pressure, but tell me 
this. Would your successor be in a better position to address 
the needs of the Guard if the chief sat on the Joint Chiefs of 
Staff?
    General Blum. I would have to say that that would be a more 
advantageous position to have your points, your agenda, and 
your voice heard. I would think, I would think that it could 
not be anything other than an advantage for someone to be in 
that position. I can see no disadvantage for a future chief. 
You could not provide him a better platform to have his voice 
heard, let me at least put it to you that way.
    You are asking me a very awkward question.
    Senator Leahy. I understand. I had a follow-up on that, 
which I will not ask because that would be even more awkward.
    I have not heard anybody on this panel try to dissuade 
Senator Bond and me from going forward. I had an interesting 
discussion with the Secretary of Defense where he disagrees 
with us and in fact made his position very clear. I however 
made mine very clear. And he and I have known each other for 
well over 30 years and we sometimes agree and when we disagree 
we are never so shy that we refrain from letting each other 
know where we disagree.
    Let me ask you this. The Army and the Air Force when they 
were putting forward the request for cutting the Guard's force 
structure by 17,000 and 14,000 respectively, were you or your 
two chief deputies involved in the deliberations and 
decisionmaking?
    General Blum. I think it has been testified before by 
myself, Secretary Harvey, General Schoomaker, the Chief of 
Staff of the Army, that that entire episode could have been 
done and handled much better. There is a definite commitment 
amongst the senior leadership of the United States Army and the 
Guard Bureau to make sure that we speak with one voice and that 
we move forward, from what has been a very ugly and consistent 
past history that is well known by all the members of this 
subcommittee. This is not a new development. This is a pattern, 
a historical pattern, that we are trying to get away from. We 
are trying to move forward in a new, more positive direction 
with the current leadership.
    But the history is replete with examples where the Guard 
and Reserve leadership were informed more than they were 
involved.

                           MISSION READINESS

    Senator Leahy. Well, what bothers me is that also it comes 
down almost like you are doing it with a slide rule on money 
and ignoring mission. I am more interested in looking first at 
what the mission is and then determining whether we can fulfill 
the mission. I think it sort of goes the other way around, and 
I think that is unfortunate.
    We have seen a broadly expanded mission in Iraq and 
Afghanistan. I certainly see it from my little State of 
Vermont, that we have had on a per capita basis one of the 
highest, if not the highest, number of casualties in the 
country. We certainly have not found anybody who has refused to 
go. They are there. They salute and off they go. And I am told 
by those who have visited from outside our State that 
Vermonters have handled themselves extremely well.
    General Blum. Yes, sir, they have.
    Senator Leahy. But I think that could be said of a whole 
lot of States. And I also know that our regular Army and Air 
Force have done an extremely good job over there, but they 
could not do the job that they have been tasked to do, or our 
marines, without the backup of the Guard. Then we have, of 
course, the homeland things. Katrina, we saw that, when you 
guys responded so well. But we also saw an enormous amount of 
equipment used up.
    My time is up. I think you know where I stand on this. We 
will keep trying to replace the equipment you need for Katrina, 
from Katrina, and Iraq and Afghanistan, because, much as we 
would like to say the need will never occur again, we know it 
will.
    Thank you, Mr. Chairman.
    General Blum. Thank you, Senator.
    Senator Stevens. Thank you very much.

                       ROLE OF THE NATIONAL GUARD

    Thank you very much, Generals. I was just sitting here 
talking to Senator Inouye and we are reminded about the fact 
that about 27, 28 years ago Senator Stennis decided on the 
recommendation of Senator Hollings and myself to ask the Guard 
to have their people who had duty time 2 weeks a year to 
perform that over in Europe, and that led to the whole concept 
of trying to think about how we could use the Guard and Reserve 
forces in terms of augmenting the commitments we had at that 
time to maintain forces in Europe.
    We have come a long way now. We also were the ones that put 
in the first bill to make your rank four star, General. When 
that failed, everyone moved up to three stars, but we had two 
people assigned to be advisers to the Chairman of the Joint 
Chiefs to represent Guard and Reserve interests on the 
immediate staff.
    Now we are going back again to the four-star level and 
obviously questions here from the Guard Caucus indicate that, 
and Senator Inouye and I will once again join them in trying to 
bring about a restructuring. In the final analysis, that will 
be a decision by the Armed Services Committee, but we think we 
have a role in this also, so we are going to be advisers, but 
certainly rely on your judgment as to how this might work out.
    It is not going to be too convenient to have a fifth member 
of the Joint Chiefs who really has a role that intercedes with 
two other chiefs. We have to find some way with the Armed 
Services Committee to reconcile that problem. But I certainly 
do agree it is time now that the forces that you represent, you 
and the generals who follow you represent, are part of the 
total force and they should not--that force should be at the 
table. It should be in the huddle, General, and we look forward 
to helping to do that.
    General Blum. Mr. Chairman, if I might, for the record I 
would like to state my position on one thing. I do not support 
the National Guard being a separate service. I hope no one 
takes any of the testimony or draws conclusions. First of all, 
I have not really seen the details of what is being proposed 
here today, and it is very awkward for me to comment.
    Senator Stevens. We are not asking you to and I do not 
think we should.
    General Blum. And I certainly want to go on record as 
saying that the role of the Army National Guard and the Air 
National Guard as Federal reserve components of the Army and 
the Air Force should be maintained and probably strengthened, 
and that the unique dual role mission of the National Guard, 
which is really probably the core of what is misunderstood most 
or not well understood or well known throughout the halls of 
the Pentagon, is the root of a lot of the problems.
    I would say that you want to maintain that unique dual 
role, and I would say that you want to maintain the Army and 
Air National Guard of the United States as Federal Reserves of 
the Army and the Air Force, but clearly, clearly the 
legislation that exists today does not recognize the Department 
of Defense, it does not recognize the Joint Staff, it does not 
recognize Northern Command's existence, it does not recognize 
the Assistant Secretary of Defense for Homeland Defense. Those 
things are absolutely in need of serious addressing. There is 
no question.
    The National Guard needs to be, as well as the other 
Reserve components need to be, brought up and caught up with 
the Goldwater-Nichols Act. We were left out of that.
    Senator Stevens. Well, the experience you are going through 
now and we have been through in terms of this involvement for 
Afghanistan and then Iraq certainly demonstrates the need for 
rethinking of the organizational structure that utilizes the 
Guard and Reserve. That is what we are saying. I think we are 
trying to bring about that really recognition of what this 
experience has demonstrated. I hope we are successful.
    General Blum. Senator Leahy, I will not get into your 
discussions with the Secretary of Defense, but I do know that 
he recognizes what I just described as an issue that needs to 
be resolved, and he has a very keen interest in resolving. 
There is no question about it. This is definitely on his radar 
screen to be addressed.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much.
    General Blum. Thank you, sir.
    Senator Stevens. We thank the three of you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General H Steven Blum
               Questions Submitted by Senator Ted Stevens
    Question. The National Guard has deployed a substantial amount of 
equipment overseas. How has the loss of that equipment affected 
readiness levels nationwide? How do you plan on replenishing that 
equipment?
    Answer. As one would expect, the readiness levels of the Army 
National Guard (ARNG) units have declined substantially. The ARNG has 
contributed approximately 86,000 pieces of equipment valued at over 
$2.8 billion as ``theater provided equipment'' (TPE). While the Army 
has the role and responsibility of equipping the ARNG, the ARNG and 
Army have been working closely together to develop a strategy that will 
transform our formations into modular units. In the 2005-2011 Program 
Objective Memorandum (POM) Army has ``firewalled'' over $21 billion of 
equipment dedicated to the ARNG. In addition, Army has requested $2.2 
billion in the fiscal year 2007 supplemental to repay the ARNG for 
equipment contributed to TPE. The ARNG is currently working with the 
Army on the 2008-2013 POM to further modernize and transform the ARNG. 
The ARNG also has developed an Unfinanced Request for an additional $33 
billion that, if funded, would fill the ARNG to 100 percent of 
Objective Table of Organization and Equipment requirements, thus 
fulfilling the Army's ultimate goal.
    Question. I am concerned with the President's fiscal year 2007 
budget request for National Guard Counter-Drug programs. Each year the 
administration does not request sufficient funds for State Plans 
Programs, and this year is no different. Why is it important that the 
National Guard continue to support our nation's counter-drug program?
    Answer. National Guard Counterdrug (NG CD) Program personnel in 
every state and territory work to: provide specialized military support 
of the drug related homeland security activities of federal, state, and 
local law enforcement, in the form of criminal activity analysis, law 
enforcement officer training, aviation support, criminal activity 
observation and reporting, linguist support, and engineering support; 
educate America's youth about the dangers of drug abuse and addiction, 
to reduce the demand for drugs; and lend specialized drug fighting 
skills to the military Combatant Commanders abroad in their fight 
against terrorism and drugs.
    The National Guard is an effective force multiplier for law 
enforcement's drug interdiction efforts. In fiscal year 2005 National 
Guard Counterdrug personnel assisted law enforcement in seizing the 
following: cocaine (353,225 pounds); crack cocaine (11,950 pounds); 
marijuana plants (2,043,734 plants); marijuana, processed (1,986,178 
pounds); methamphetamine (6,137 pounds); heroin (2,139 pounds); ecstasy 
(560,971 pills); other/designer drugs (4,621,339 pills); weapons 
(11,490); vehicles (4,357); and currency ($241,988,784).
    The National Guard Counterdrug program faces serious financial 
challenges. Approximately 90 percent of the CD Budget is used to fund 
personnel Pay and Allowances. Budget increases have not kept pace with 
the inflation in manpower costs. As the buying power of the budget 
shrinks, the Counterdrug program loses capability each year.
    Presidential Budget Directive (PBD-95) directed a recommended 
minimum level of National Guard Counterdrug capability, measured in 
terms of end strength, to be 2,763 Guardsmen. In fiscal year 2007, the 
National Guard Counterdrug Program would require an additional $61 
million above the President's budget to achieve this personnel level. 
The five Counterdrug schools for law enforcement officers have 
identified requirements for $20 million above the President's budget. 
Updating the sensors on the RC-26 surveillance aircraft to preserve 
viability will cost $38 million above the President's budget. These 
sensors also provide real time downlinks during crisis operations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. General Blum, can you provide the committee your thoughts 
on the implications of the Guard becoming our nation's operational 
force instead of the strategic force of the past, and how we balance 
that with their state's missions?
    Answer. The National Guard has transformed itself from the Cold War 
strategic reserve into an operational force with a focus on joint and 
expeditionary warfare that is capable of responding to a broad range of 
civil and humanitarian crises. Whether supporting a variety of state 
missions in a domestic scenario or deploying to over 40 nations on five 
continents in the past year alone, the Guard is more ready, reliable, 
essential and accessible today than at anytime in its nearly 400 years 
of existence. Since the terrorist attacks of September 2001, the Guard 
has been employed around the world and here at home as an operational 
force in a variety of contingencies and, with the exception of those 
units mobilized for war, is still under-resourced for many of the 
missions it now performs. Army Guard units in particular remain manned 
at Cold War levels, lack a robust cadre of full-time support personnel, 
and are equipped well-below wartime requirements. Since September 11, 
2001, Guard units deploying to the warfight have been well-equipped, 
but the response to Hurricane Katrina revealed serious shortcomings in 
the equipping of Guard units for Homeland Security and Defense. Guard 
units returning from overseas came back with an average of only about 
35 percent of the equipment with which they deployed, leaving them far 
less capable of meeting training requirements and, most importantly, 
fulfilling their missions here at home. To fulfill these missions, the 
Guard's highest priorities for re-setting and re-equipping continue to 
be satellite and tactical communications equipment, medical equipment, 
utility helicopters, military trucks and engineer equipment. We must 
also ensure that this equipment is identical to the equipment required 
for wartime use so that Guard units remain interoperable with their 
active component counterparts for both Homeland Defense and Homeland 
Security operations. Additionally, we must invest in an extensive non-
lethal weapons capability for use in both domestic and overseas 
contingencies. By re-equipping with these priorities, the Guard will be 
able to effectively and ably continue its service to the American 
people, both at home and abroad.
    Question. General Blum, as I understand it, instead of divisions 
being the centerpiece of the Army, modular brigade combat teams will be 
a strategically agile force that can ``plug into'' joint and coalition 
forces in an expeditionary manner. Could you describe what the Army 
National Guard will look like at the end of fiscal year 2007 and the 
rate at which the Army National Guard will become a modular force?
    Answer. The Army is involved in the most dramatic restructuring of 
forces since World War II. The centerpiece is modular transformation 
and an increase in the Army's operational force with the building of 
brigade combat teams (BCTs) and associated multi-functional and 
functional support brigades. The Army National Guard is building toward 
28 BCTs and 48 multi-functional and functional support brigades. The 
Army is currently conducting Force Management Review 2009-2012 to 
assess the optimum balance of force capabilities across all three 
components. A key element of this review is the collaborative effort 
with the Army National Guard Adjutants General to address warfighting 
requirements, current operational demands and potential Homeland 
Defense missions. The results of this effort may change the number and 
type of BCTs and support brigades in the Army National Guard beginning 
in fiscal year 2008.
                                 ______
                                 
              Question Submitted by Senator Arlen Specter

    Question. I understand that the National Guard and the Active 
Components (AC) are working together to ensure the Guard and the AC use 
as many of the same analytical and reporting systems as possible to 
ensure they are compatible in combat. Will this effort, however, 
provide all of the functionality the Guard needs for normal peacetime 
operations and to rapidly and effectively respond to domestic 
emergencies?
    Answer. While DOD and the Army provide analytical and reporting 
tools our soldiers can use to operate as a cohesive enterprise, none 
have the ability to work outside of the federal force. Therefore, we 
are working on the requirements for a program, dubbed the ``National 
Guard Enterprise,'' to encompass all the National Guard requirements 
for all purposes. The program will work with all the DOD systems and 
will have the capabilities to work with state and local systems, 
provide management for all the state National Guard requirements, and 
provide the National Guard with good incident management capability. 
The North Carolina National Guard has already funded interoperable 
communications systems for themselves, and we're going to try it in our 
Joint Operations Centers at the National Guard Bureau and in several of 
the Gulf states initially and see where we can go from there. We'll 
move carefully and cautiously because I want it to work correctly, and 
I don't want any of our airmen or soldiers using a system that doesn't 
work the same as the systems used in the combat theater.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

           KIRTLAND NATIONAL GUARD'S ROLE WITH F-16 SQUADRONS

    Question. What is the long range plan for National Guard F-16 
squadrons like the New Mexico National Guard at Kirtland Air Force 
Base?
    Answer. The F-22 mission is an ideal follow-on flying mission for 
the New Mexico Air National Guard. The current F-16 block 30 platform 
is scheduled for retirement in fiscal year 2012-2017. The Air Force 
needs the high experience inherent in Air National Guard units to 
maximize the potential of the F-22. A likely organizational structure 
for Holloman Air Force Base is the ``Classic Associate'' model.

                NATIONAL GUARD'S ROLE IN BORDER SECURITY

    Question. Existing Federal law allows the National Guard to work on 
counter drug initiatives such as building fences and barriers along the 
border. As a border state senator, I know first-hand the success these 
initiatives have had in our war on drugs.
    Last year I introduced border security legislation that would 
expand the ability of States to use the National Guard in additional 
border efforts, including building roads, participating in search and 
rescue operations, and monitoring the international border. Under my 
legislation, the National Guard would not participate in any law 
enforcement activities and would be coordinated through the Departments 
of Defense and Homeland Security.
    I believe such legislation could expand on current border security 
efforts, like an operation recently conducted in New Mexico that 
involved the U.S. Army assisting border patrol agents by surveying the 
border and notifying border patrol agents of illegal crossers. 
Additionally, I think such legislation could save lives, as the 
National Guard could participate in search and rescues operations for 
the many individuals who try to cross the border in the desert 
Southwest and suffer dehydration or worse.
    Can you tell us a little bit about the National Guard's current 
role on the international border?
    Do you believe allowing the National Guard to participate in 
surveillance efforts, search and rescue operations, and construction 
projects could be a valuable source of training for our Guardsmen?
    Answer. The National Guard has for years provided support to 
security along the Nation's borders. Some of this has been in the form 
of support to law enforcement agencies performed as part of the 
National Guard counter-drug activities in border states. Additionally, 
National Guard engineer units have participated in innovative readiness 
training in which they hone their engineering, construction, planning 
and logistics skills by building fencing along the border. Our 
experience has been that this has indeed been good training.

             EMERGENCY POWER SOURCES FOR THE NATIONAL GUARD

    Question. I believe that as a key part of our nation's defense, the 
National Guard must have the tools it needs to protect Americans, 
including energy security that can be achieved through energy 
diversity.
    Do any of our National Guard Armories currently have alternative 
energy sources that they can utilize in emergencies?
    Have you considered what alternative energy sources might best be 
suited for our Armories?
    Answer. Some readiness centers constructed in the past several 
years have included diesel-powered emergency generators. This item 
became an official item of construction criteria in 2003 but was 
permitted as an exception to criteria on a case by case basis before 
that year.
    We have not yet been able to come up with viable alternatives to 
diesel-powered emergency generators. True alternative energy sources 
are, at this time, cost prohibitive and often technically unfeasible.

                       NATIONAL GUARD AND PLAYAS

    Question. New Mexico Tech operates a training, research, 
development, test and evaluation complex in the town of Playas, New 
Mexico. First responders, homeland security personnel, defense 
personnel and others may utilize the unique training capabilities 
offered in the remote, desert southwest town of Playas.
    I understand that you have visited Playas and seen some of its 
capabilities.
    Does the Playas training center offer special training 
opportunities to the National Guard?
    Answer. The Playas, New Mexico, facility offers National Guard 
units the opportunity to train with other government agency and 
Department of Defense first responders using interagency procedures, 
thus improving cooperation and coordination between these entities. The 
facility's unique capabilities--including use of explosives, sufficient 
airspace for unmanned aerial vehicle (UAV) and air operations, and use 
of urban settings for military operations--provides settings and 
training opportunities that are unavailable at most training 
facilities.

          NATIONAL GUARD AND THE ARMY'S AIR DEFENSE ARTILLERY

    Question. Thirty percent of the Army's Air Defense Artillery (ADA) 
is being assigned to the National Guard. Defense against rocket-
artillery-mortar, cruise missiles, and tactical ballistic missiles are 
now required of the ADA along with their traditional mission against 
manned aircraft. Additionally, these greatly expanded capabilities must 
be very mobile for integration into the Future Combat System.
    Which ADA capabilities does the National Guard feel it can best 
support?
    How will the National Guard ADA units be able to integrate their 
training into the net-centric, mobile units of the Future Combat 
System?
    Answer. The Army National Guard (ARNG) can be successful in all 
mission areas of Air Defense Artillery (ADA), except for the theater 
missile defense mission of the Patriot system, if properly resourced. 
The key to success for the ARNG's integration into net-centric warfare 
is for proper resourcing, especially in new equipment and full-time 
manning.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

    Question. The National Guard has played a critical role in our 
national security over the past several years. In light of their major 
role in Iraq and Afghanistan, as well as their critical role 
domestically in the hurricane response this past year, General Blum, 
what role do you see the National Guard taking in order to meet the 
security requirements of the United States, now and in the future?
    How do you see the National Guard's role and mission changing in 
the next several years?
    Answer. The National Guard's role in meeting the security 
requirements of the United States will continue to evolve as the 
nation's requirements evolve, but the National Guard will continue to 
remain a hallmark of performance to the nation as it has for nearly 
four hundred years. As a transformed force capable of joint and 
expeditionary warfare, the Guard also remains capable of responding to 
a broad range of civil and humanitarian crises. The Guard fights narco-
terrorism through our counterdrug programs. We stand guard over 
America's critical physical and cyber infrastructure. Our Airmen fly 
the vast majority of air sovereignty missions over America's cities, 
while our Soldiers man air and missile defense systems in the nation's 
capital and Alaska. We conduct peacekeeping operations in Kosovo and 
the Sinai, stand watch aboard military cargo ships as they transit the 
Persian Gulf, guard prisoners in Guantanamo Bay, and train the Iraqi 
and Afghan national armies. As recently as 2005, the Army National 
Guard contributed half of the combat brigades on the ground in Iraq. As 
much as the Guard does overseas, however, we must not lose sight of our 
responsibility at home. Our commitment to the nation's Governors is to 
not only provide each of them with sufficient capabilities under state 
control, but to also provide the appropriate mix of forces to allow 
them to respond to domestic emergencies. To meet this, the National 
Guard Bureau is committed to the fundamental principle that each and 
every state and territory must possess ten core capabilities for 
homeland readiness: a Joint Force Headquarters for command and control; 
a Civil Support Team for chemical, biological, and radiological 
detection; engineering assets; communications; ground transportation; 
aviation; medical capability; security forces; logistics; and 
maintenance capability. By focusing the Guard's priorities on 
recruiting and retention bonuses and initiatives, equipment reset and 
modernization, and obtaining critical domestic mission resources, our 
nation's future security will remain closely aligned with the 
transformation of the Guard as it continues to meet these challenges 
both at home and abroad.
                                 ______
                                 
        Question Submitted to Lieutenant General Clyde A. Vaughn
               Question Submitted by Senator Ted Stevens

    Question. The Committee provided the Army National Guard an 
additional $60 million for equipment in the National Guard and Reserve 
Equipment account in the fiscal year 2006 Defense Appropriations Act, 
and $700 million in title IX. Can you tell us what requirements these 
funds will fill?
    Answer. The National Guard and Equipment Account helps meet the 
equipment and system requirements identified by the Chief of the 
National Guard Bureau in the document entitled ``National Guard 
Equipment Requirements, Protecting America at Home and Abroad,'' which 
was sent to members of the House and Senate last September. These 
requirements fall into ten areas: Joint Force Headquarters and Command 
and Control; Civil Support Teams and Force Protection; Maintenance; 
Aviation; Engineer; Medical; Communications; Transportation; Security; 
and Logistics. One major area of focus for the Guard is improving 
Interoperable Communications in Disaster Response.
                                 ______
                                 
          Question Submitted to Major General Charles Ickes II
               Questions Submitted by Senator Ted Stevens

    Question. The Committee provided the Air National Guard an 
additional $60 million for equipment in the National Guard and Reserve 
Equipment account in the fiscal year 2006 Defense Appropriations Act, 
and $200 million in title IX. Can you tell us what requirements these 
funds will fill?
    Answer. For fiscal year 2006 the Air National Guard was approved 
$30 million in the National Guard and Reserve Equipment Account (NGREA) 
to fund equipment purchases versus the $60 million addressed in your 
question. The $30 million in fiscal year 2006 NGREA will fund equipment 
purchases to fulfill requirements in Precision Strike, Data Link/Combat 
Identification, 24 Hour Operations, Enhanced Survivability, Propulsion 
Modernization, Simulation Systems and Training. $200 million in fiscal 
year 2006 Title IX NGREA will help the Air National Guard fund 
equipment requirements identified by the Chief of the National Guard 
Bureau in the September 22, 2005, document entitled ``National Guard 
Equipment Requirements, Protecting America at Home and Abroad.'' These 
requirements include urgent needs to replace damaged and destroyed 
equipment used in support of hurricanes Katrina and Wilma, improve 
current capabilities, and modernize future capabilities. The equipment 
will enable the Air National Guard to better to respond to natural 
disasters, emerging homeland defense/homeland security needs, and 
leverage organic capabilities in support of the Global War on 
Terrorism.

                                Reserves

STATEMENT OF LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF, 
            ARMY RESERVE, DEPARTMENT OF THE ARMY
    Senator Stevens. We will now hear from the leadership of 
the Reserve components: Lieutenant General James Helmly, Chief 
and Commander of the Army Reserve; Vice Admiral John Cotton, 
Chief of the Naval Reserve; Lieutenant General Jack Bergman, 
Commander of the Marine Corps Reserve; Lieutenant General John 
Bradley, Chief of the Air Force Reserve.
    General Helmly, I understand this is your final appearance 
before our subcommittee. We want to thank you for your 
appearances in the past and your cooperation with this 
subcommittee and wish you well in your next assignment.
    We welcome General Bergman, who is making his first 
appearance before us as Commander of the Marine Corps Reserve. 
It is a pleasure to have you before us, sir, and we look 
forward to working with you.
    It really is a pleasure to have you all here. We are sorry 
that the previous round has taken a little bit longer than we 
thought, but we wanted to hear your statements. Your statements 
are printed in full in the record and we would like to hear 
your comments.
    General Helmly.
    General Helmly. Senator Stevens, Senator Inouye, 
distinguished members of the subcommittee: Thank you for your 
time today. My name is Ron Helmly, as you noted, and I am an 
American soldier.
    I am privileged today to be accompanied by two other 
soldiers of your Army Reserve: Captain--and I would ask them to 
stand as I call their names--Captain Matthew R. Brown and 
Sergeant Brianne C. Dix. Both of these distinguished members of 
our force have served in combat in Iraq. Their presence reminds 
us all of why we are here, to support the men and women who 
have answered our Nation's call to duty.
    Captain Brown and Sergeant Dix are both representative of 
all of our members and I know I speak for my fellow chiefs, 
sailors, airmen, marines, coast guardsmen as well. They remind 
us of why we lead and why we are appearing before this 
subcommittee today.
    Thank you very much, Captain Brown, Sergeant Dix.
    Senator Stevens. Captain Brown, Sergeant Dix, we thank you 
very much for being here. We appreciate it. Thank you.
    General Helmly. Senator, I hope to convey to you clearly 
today what the Army Reserve is doing to address the many issues 
involved in changing our force from an industrial age force in 
reserve to a more modern, skill-rich, complementary force that, 
when brought to duty, capitalizes on the intrinsic value of 
civilian-based skills, trains and prepares warrior-citizens who 
can compliment our Army and joint forces.

                           PREPARED STATEMENT

    I ask that our prepared statement, which consists of our 
Army Reserve posture statement, be entered into the record as 
our prepared statement. I thank you the subcommittee for your 
time and for all you have done in the past and continue to do 
for our soldiers, sailors, airmen, marines, and their families, 
and I look forward to your questions. Thank you very much.
    Senator Stevens. Thank you very much. We appreciate that.
    [The statement follows:]

        Prepared Statement of Lieutenant General James R. Helmly

           PURPOSE AND ORGANIZATION OF THE POSTURE STATEMENT

    The 2006 Army Reserve Posture Statement (ARPS) provides an overview 
of the Army Reserve. It details accomplishments of the past year, as 
the Army Reserve continued to implement profound changes while 
simultaneously fighting the Global War on Terrorism. The Army Reserve 
understands its vital role in The Army Plan. This plan, endorsed by the 
Secretary of the Army in the 2005 and 2006 Army Posture Statements, 
centers around four overarching, interrelated strategies. The Army 
Reserve best supports The Army Plan by complementing the joint force 
with skill-rich capabilities. The Army Reserve programs, initiatives 
and requirements are designed to provide this additional support and 
are best described in the following strategies: (1) managing change; 
(2) providing trained and ready units; (3) equipping the force; and (4) 
manning the force. These strategies ensure that the Army Reserve, as an 
integral component of the Army, continues to meet its non-negotiable 
contract with the American public: to fight and win our Nation's wars.

                          TODAY'S ARMY RESERVE

    America remains a nation at war, fighting a Global War on Terrorism 
that demands the skill, commitment, dedication and readiness of all its 
armed services. Our adversary is intelligent, tenacious, elusive and 
adaptive--a viable threat to the United States' national security and 
freedom.
    By law, the purpose of the Army Reserve--to ``provide trained units 
and qualified persons available for active duty in the armed forces, in 
time of war or national emergency, and at such other times as the 
national security may require''--is a reminder that while the methods, 
tactics and adversaries we face in the Global War on Terrorism are 
drastically changed from that which we prepared for in the past, our 
Nation's dependence on the Army Reserve has not changed.
    Today's Army Reserve is no longer a strategic reserve, it is a 
complementary, operational force, an inactive-duty force that uses the 
energy and urgency of Army transformation and the operational demands 
of the Global War on Terrorism to change from a technically focused, 
force-in-reserve to a learning, adaptive organization that provides 
trained, ready, ``inactive-duty'' Soldiers poised and available for 
active service, as if they knew the hour and day they would be called. 
This fundamental shift provides significant challenges to our 
institution. Managing critical but limited resources to achieve higher 
readiness and continuing to recruit high-quality Soldiers, and 
sustaining a high tempo of operations are among the most essential of 
these challenges.
    As a fully integrated member of our nation's defense establishment, 
the Army Reserve depends on the resources requested in the President's 
budget. These funds allow the Army Reserve to recruit, train, maintain 
and equip forces to prepare for present and future missions. As 
detailed later in this document, the Army Reserve is simultaneously 
undergoing deep and profound change in how it organizes, trains, mans, 
manages, and mobilizes Soldiers and maintains its forces. We are 
reshaping the force to provide relevant and ready assets with a 
streamlined command and control structure. We are committed to 
examining every process, policy and program, and changing them to meet 
the needs of the 21st century as opposed to continuing them from the 
past. We will remain good stewards of the trust of the American public.
    The Army Reserve's future--an integral component of the world's 
best Army, complementing the joint force with skill-rich capabilities, 
skills and professional talents derived from our Soldiers' civilian 
employment and perfected by daily use--is truly more a current reality 
than a future one. Every initiative, change and request is geared to 
one end--to make the United States Army Reserve a value added, integral 
part of the Army: the preeminent land power on earth--the ultimate 
instrument of national resolve--that is both ready to meet and relevant 
to the challenges of the dangerous and complex 21st century security 
environment.
    The Army Reserve Soldier has always answered our country's call to 
duty--and we always will!

                                  Lt. Gen. James R. Helmly,
                                               Chief, Army Reserve.
                          ARMY RESERVE HISTORY
                    HISTORICAL BACKGROUND AND TODAY

    The Army Reserve is an institution with a long tradition of 
adapting to the changing security needs of the Nation. The profound 
changes currently underway today, with more than 40,000 Army Reserve 
Soldiers mobilized in support of the Global War on Terrorism, are an 
accelerated continuation of that tradition.
    1908: The official predecessor of the Army Reserve was created in 
1908 as the Medical Reserve Corps and subsequently titled the Organized 
Reserve Corps. It was a peacetime pool of trained officers and enlisted 
men that the Army mobilized as individual replacements for units in the 
world wars of the 20th century. Today, the Army Reserve makes up 67 
percent of the Army's total medical force with physicians, dentists, 
nurses and veterinarians bringing their civilian skills and experience 
to Soldiers on the battlefield.
    1916: Using its constitutional authority to ``raise and support 
armies,'' Congress passed the National Defense Act in 1916 that created 
the Officers' Reserve Corps, Enlisted Reserve Corps and Reserve 
Officers' Training Corps. The Army mobilized 89,500 Reserve officers 
for World War I (1917-1919), one-third of whom were physicians. 
Currently, more than 25,000 students at 1,100 colleges and universities 
are enrolled in Army ROTC.
    1920: After the war, the separate Reserve corps for officers and 
enlisted men were combined into the Organized Reserve Corps, a name 
that lasted into the 1950s. Today, the Army's Title 10 force is known 
as the Army Reserve.
    1940: In preparation for World War II, the Army began calling Army 
Reserve officers to active duty in June 1940. In the year that 
followed, the number of Reserve officers on active duty rose from less 
than 3,000 to more than 57,000.
    1941-1945: During World War II (1941-1945), the Army mobilized 26 
Reserve (designated) infantry divisions. Approximately a quarter of all 
Army officers who served were from the Reserve, including more than 
100,000 Reserve Officers' Training Corps graduates. More than 200,000 
Reserve Soldiers served in the war.
    1950-1953: The Korean War (1950-1953) saw more than 70 units and 
240,000 Army Reserve Soldiers called to active duty. While the Korean 
conflict was still underway, Congress began making significant changes 
in the structure and role of the Reserve. These changes transformed the 
Organized Reserve into the United States Army Reserve.
    1970s: By the 1970s, the Army Reserve was increasingly structured 
for combat support and combat service support. The end of the draft 
coincided with announcement of the Total Force Policy in 1973. The 
effect of an all-volunteer force and the Total Force Policy was a shift 
of some responsibilities and resources to the Army Reserve. Today, in 
the spirit of the Total Force policy, when America's Army goes to war, 
the Army Reserve goes to war.
    1991: Army Reserve Soldiers were among the first reserve component 
personnel called to active duty for operations Desert Shield/Desert 
Storm and were among the last to leave the desert. More than 84,000 
Army Reserve Soldiers provided combat support and combat service 
support to the United Nations forces fighting Iraq in the Persian Gulf 
and site support to United States forces elsewhere in the world.
    1993: In the post-Cold War era, the Army restructured its reserve 
components. Reduction in active-component end strength made the Army 
even more reliant on the Army Reserve and the Army National Guard. A 
1993 agreement among all three components called for rebalancing the 
preponderance of reserve component combat formations in the Army 
National Guard, while the Army Reserve would principally focus on 
combat support and combat service support. Today, the Army Reserve 
provides 30 percent of the Army's combat support and 45 percent of its 
combat service support capabilities.
    1995: Since 1995, Army Reserve Soldiers have been mobilized 
continuously. For Bosnia and Kosovo, 20,000 Army Reserve Soldiers were 
mobilized.
    2006: As of February 2006, more than 147,000 Army Reserve Soldiers 
have been mobilized in support of the Global War on Terrorism, with 
more than 40,000 still serving on active duty.

                           STRATEGIC OVERVIEW

    Today's security environment is volatile, uncertain, complex and 
ambiguous. The elements of that environment often interact randomly and 
without sufficient lead time to develop a deliberate response. The need 
for Army Reserve Soldiers and units to be fully prepared to respond, 
prior to mobilization, is paramount.
    World conditions reveal a variety of emerging challenges to our 
national security interests: Wider range of adversaries; Weapons of 
mass destruction; Rogue state armies; Cyber network attacks; Worldwide 
terrorism; and The global economy.
    National conditions present additional challenges: Protracted war; 
Homeland defense; Budget pressures; Public focus; Global War on 
Terrorism (GWOT); Disaster response/relief; Declining manufacturing 
base; and Propensity for military service.
    Within such an environment, the Army Reserve is changing from a 
strategic reserve to an inactive-duty force of skill-rich capabilities 
with enhanced responsiveness to complement the Army's transformation to 
a more lethal, agile and capabilities-based modular force. The Army 
Reserve's force structure is no longer planned as a force in reserve--a 
``supplementary force;'' rather, it is a force that complements the 
Army and joint forces. Today's units are to be prepared and available 
to deploy with their full complement of trained Soldiers and equipment 
when the Nation calls.
    This transformation will progress as the Army Reserve continues to 
meet the ongoing operational challenges of the Global War on Terrorism, 
while simultaneously supporting other missions around the globe.

                            MANAGING CHANGE

Accomplishments
    Since the beginning of 2005, the Army Reserve has:
  --Developed and applied a cyclic readiness and force management 
        model, currently called Army Force Generation (ARFORGEN). 
        Applied the ARFORGEN logic to how Army Reserve units are 
        scheduled and resourced for deployment. In 2005, about 75 
        percent of the Army Reserve mobilized units were from the Army 
        Reserve Expeditionary Force packages using the ARFORGEN model.
  --Programmed inactivation of 18 general officer non-war-fighting 
        headquarters.
  --Awarded 11 military construction contracts in 2005 to construct 
        nine new Army Reserve training centers that will support more 
        than 3,500 Army Reserve Soldiers in Kansas, Florida, Utah, 
        Pennsylvania, Maryland, New Jersey and Colorado.
  --Awarded two major range improvement project contracts for Fort 
        McCoy, WI.
  --Activated two functional commands, the Military Intelligence 
        Readiness Command and Army Reserve Medical Command, providing 
        focused training and force management for medical and military 
        intelligence Army Reserve forces.
  --Began realignment of command and control of U.S. Army Civil Affairs 
        and Psychological Operations forces from Special Operations 
        Command to the U.S. Army Reserve Command to improve training 
        and force management.
  --Initiated action to close or realign 176 Army Reserve facilities 
        under BRAC, a higher percentage than any other component of any 
        service, moving Army Reserve Soldiers into 125 more modern 
        facilities.
  --Began applying Lean Six Sigma business management techniques to 
        improve supporting business processes and methods.
    Transforming to meet today's demand for Army Reserve forces has led 
to the development of a host of initiatives. When implemented, these 
initiatives will accomplish the following:
  --Ensure more focused and efficient management, increasing units' and 
        Soldiers' readiness.
  --Increase the number of Army Reserve Soldiers in deployable units.
  --Provide improved facilities and more effective training to Army 
        Reserve Soldiers.
  --Streamline the command and control of Army Reserve forces.
  --Increase the number of Soldiers in specialties needed to support 
        the GWOT.
  --Improve Army Reserve business, resourcing and acquisition 
        processes.
Focused, Efficient Management: Army Reserve Expeditionary Force
    The foundation for Army Reserve support to future contingencies is 
the Army Reserve Expeditionary Force (AREF). Incorporating a strategy 
for cyclically managing Army Reserve force readiness, AREF directly 
supports the Army's Force Generation model. AREF applies Army 
rotational force doctrine to decisions regarding training, equipping 
and leader deployment. The management system applies packaged and 
cyclic resourcing of capabilities instead of the outmoded, tiered 
resourcing model, which supported a now obsolete, time-phased force 
deployment list against prescriptive operational plans. AREF provides 
more focused, efficient support to units about to deploy by developing 
packages that can be called to duty as needed. The system also 
capitalizes on constrained resources to best utilize equipping and 
readiness dollars.
    Under AREF, most Army Reserve units are assigned to one of the 
expeditionary force packages. The packages move through a rotational 
cycle of readiness levels, ranging from reconstitution to validation 
and employment. The units in each package will have a one-year 
``availability'' period during which they will be ``on call'' or 
deployed. AREF enables the Army Reserve to achieve a high level of 
readiness in planned, deliberate time periods and provides a means to 
program and manage resources in advance. This resourcing strategy also 
ensures that deploying units be trained individually and collectively 
on the most modern equipment and have that equipment available when 
needed.
    When fully implemented, the AREF strategy will add rotational depth 
to the force, spread the operational tempo more evenly throughout the 
Army Reserve, and add predictability to the processes that support 
combatant commanders, Soldiers, families and employers.
Increasing the Operational Force
    In 2005, the Army Reserve began divesting itself of force structure 
that exceeded its congressionally authorized end strength of 205,000. 
The Army Reserve also began reducing the number of spaces in non-
deploying units. These actions allow more Soldiers to be assigned to 
deployable units and to be fully prepared for mobilization. This 
process requires a substantial ``leaning out'' of our training base and 
support headquarters, while carefully maintaining high quality training 
and support services. As an example of training base efficiencies, in 
fiscal year 2005, the Army Reserve continued to develop the new 84th 
U.S. Army Reserve Readiness Training Command that resulted from the 
merger of the Army Reserve Readiness Training Center and the 
Headquarters of the 84th Division (Institutional Training). This 
consolidation improved the Army Reserve's individual training and 
leader education capabilities while creating leaner training support 
command and control structures. Reducing the number of units and 
focusing efforts to get more Soldiers into deployable units will allow 
more effective and cost-efficient management.
Improved Facilities and Training Support: Realignment and Closure
    Base Realignment and Closure (BRAC) 2005 enables the Army Reserve 
to reshape its force and command, control and management headquarters, 
improving readiness while realizing significant cost reductions.
    The BRAC 2005 recommendations became law in November 2005. BRAC 
provides the Army Reserve the opportunity to station forces in the most 
modern, up-to-date facilities possible and to redesign a Cold-War 
structure that no longer reflects current requirements. Under BRAC, the 
Army Reserve will close or realign 176 of its current facilities. This 
is a higher percentage than any other military component. Army Reserve 
units from these older centers and facilities will move into 125 new 
Armed Forces Reserve centers (AFRCs) that are shared with at least one 
other reserve component, helping support ``jointness'' and efficiency. 
This construction will eliminate duplication of facilities within the 
same geographical areas serviced by different components of our Armed 
Forces. Some of these moves have already begun. The new AFRCs will have 
high-tech, distance learning, and video teleconferencing capabilities, 
fitness centers, family readiness centers, and enhanced maintenance and 
equipment storage facilities. These dramatic changes, closely 
coordinated among Army Reserve planners and the BRAC agencies, were 
synchronized with the Army Reserve's overall effort to reduce its 
organizational structure and allow more deployable forces.
Streamline Command and Control
    Assisted by BRAC, the executive restructuring of Army Reserve 
forces creates a more streamlined command, control, and support 
structure, develops future force units and reinvests non-deploying 
force structure into deploying units. The Army Reserve will 
disestablish the current 10 regional readiness commands (RRCs) that 
provide command and control, training, and readiness oversight to most 
of the Army Reserve units in the continental United States, and will 
reduce the number of general-officer commands.
    Simultaneously, four regional readiness sustainment commands 
(RRSCs) will be established. These RRSCs, which will be fully 
operational by the end of fiscal year 2009, will provide base 
operations and administrative support to units and Army Reserve 
Soldiers within geographic regions. For the first time, all of the Army 
Reserve operational, deployable forces will be commanded by 
operational, deployable command headquarters.
    Some of the future force brigade-level units will include support 
brigades (e.g., maneuver enhancement brigades, sustainment brigades, 
engineer, combat support, chemical and military police brigades).
    Two functional, deployable commands were converted in 2005. The 
Army Reserve activated the Military Intelligence Readiness Command 
(MIRC) at Fort Belvoir, VA, and the Army Reserve Medical Command (AR-
MEDCOM) at Pinellas Park, FL. The MIRC is integrated with the Army 
Intelligence and Security Command, and the AR-MEDCOM is integrated with 
the Army Medical Command. The AR-MEDCOM will eventually be further 
converted to a medical deployment support command and will be 
deployable. Aviation and military police commands are two additional 
functional commands being activated.
    The result of the reshaping of the Army Reserve forces will be a 
more streamlined command and control structure and an increase in 
ready, deployable assets to support the Global War on Terrorism.
Increasing Civil Affairs and Psychological Operations Assets
    The skills required today to assist civil governments gain their 
footing are not inherently military. It is in the ranks of the Army 
Reserve where city managers, bankers, public health directors and other 
such specialists vital to stability and support operations are found. 
For example, 96 percent of the Army's current civil affairs Soldiers 
are Army Reserve Soldiers; two of the three psychological operations 
groups--with their valued skills--are in the Army Reserve.
    Over the next five years, the Army Reserve will add 904 Civil 
Affairs Soldiers and 1,228 Psychological Operations Soldiers to its 
inventory. The addition of these critical skills to the Army Reserve 
comes without additional Congressional funding; the positions will be 
transferred from the existing force.
    Additionally, the Chief of Staff of the Army has approved the 
transfer of Army Reserve Civil Affairs and Psychological Operations 
forces from the U.S. Special Operations Command to the U.S. Army 
Reserve Command. This will fully integrate Army Reserve Civil Affairs 
and Psychological Operations elements into the conventional force, 
providing dedicated support to conventional operations.
Improving Business Practices
    The Army Reserve is aggressively incorporating Lean Six Sigma 
concepts and practices into its business processes. Six Sigma is a 
problem-solving methodology that uses data and statistical analysis to 
create break-through performance within organizations.
    The Army Reserve is embracing this program not only as an 
efficiency tool, but also as the very foundation for change. To 
demonstrate this commitment, the Army Reserve has stepped forward as a 
front-runner in Lean Six Sigma implementation within the Army. The 
Chief, Army Reserve has mandated Army Reserve leaders to constantly 
question and review current business processes within the Army Reserve 
to assess their value to readiness and to seek ways to improve 
responsiveness.
    In conjunction with the Secretary of the Army's business 
transformation order, the Army Reserve began development of its 
deployment plan and completed classroom training of five Six Sigma 
``green belts'' (coach-facilitators), who are currently working their 
first projects. In addition, 40 senior leaders received two-day 
executive level business transformation training.
    The continuation of training is planned with a goal of 
institutionalizing the Army Reserve program fully by achieving the 
highest level Six Sigma certification within the Army staff. The 
organizational structure to support the program is being defined and 
established to ensure top-level support.
Compelling Needs
    Continued support of Army Reserve Expeditionary Force and other 
programs associated with Army Force Generation.
    Steady funding line for BRAC-generated changes to Army Reserve 
facilities.

                   PROVIDING TRAINED AND READY UNITS

Accomplishments
            Since 9/11:
    As of February 2006, the Army Reserve has mobilized more than 
147,000 Soldiers' more than 25,000 of those Soldiers served on multiple 
deployments.
    98 percent of Army Reserve units have provided support to current 
operations.
            Fiscal Year 2005 and beyond:
    Performed over 1,900 unit mobilizations in fiscal year 2005.
    Provided a CH-47 Chinook aviation company to support Pakistan 
earthquake relief efforts, transporting victims, relocating refugees 
and delivering supplies.
    Provided relief support in response to Indiana tornado damage, 
locating victims, draining lakes and retaining pond areas.
    Supported Gulf Coast hurricane relief efforts by flying CH-47 
Chinook helicopters and providing two truck companies to transport 
supplies, Soldiers and flood victims.
    Scheduled Army Reserve units in 2006 and 2007 to align with the 
Army Reserve Training Strategy (ARTS) to produce a trained and ready 
force using a cyclic force readiness model.
    Developed and implemented the Exercise WARRIOR to challenge units' 
collective responsiveness under stressful, contemporary operating 
environment conditions.
    Refined existing functional exercises (targeted to a specific 
branch) to LEGACY exercises to train technical skills in a tactical 
environment.
Operations
    In December of 2005, more than 40,000 Army Reserve Soldiers were 
serving on active duty in 18 countries around the world. This is a much 
changed world from the one the Army Reserve operated in less than a 
decade ago.
    The Army Reserve is on the leading edge in training Iraqi forces. 
More than 750 Soldiers from the Army Reserve's 98th Division 
(Institutional Training), Rochester, NY, and other Army Reserve units 
returned from Iraq after spending a year training Iraqi military and 
security forces. Soldiers from the 80th Division (Institutional 
Training), Richmond, VA, replaced the 98th and continue this critical 
mission today. Their continuing efforts, in conjunction with other 
coalition forces, will enable the Iraqis to increasingly provide their 
own security, thus hastening the eventual maturing of Iraq's fledgling 
democracy. From supporting all military branches, running truck convoys 
of food, ammunition, fuel and various other items, to responding to 
ambushes and directly engaging the enemy, the Army Reserve has been an 
integral element of the U.S. military and coalition efforts in Iraq, 
Afghanistan and elsewhere throughout the CENTCOM area of 
responsibility.
Civil Support
    In September 2005, the Army Reserve deployed emergency preparedness 
liaison officers, CH-47 heavy-lift helicopters, military history 
detachments and truck companies to assist in the federal disaster 
response to hurricanes Katrina and Rita.
    During the mission, the Army Reserve made available three Army 
Reserve centers to house National Guard Soldiers responding from other 
states. Additionally, the centers provided operating space for the 
Federal Emergency Management Agency and first responder 
representatives.
    The Army Reserve also provided desperately needed fuel for the 
American Red Cross in order to sustain refrigeration of perishable food 
for the evacuees.
    As recent missions make clear, the Army Reserve has significant 
numbers of potentially critical capabilities that may be needed in 
future homeland defense and security missions. These capabilities 
include skilled medical professionals who can practice anywhere in the 
United States, hazardous materials reconnaissance, casualty extraction 
from inside a combat zone, mass casualty decontamination, critical 
medical care, engineering support and water purification.
    As of September 2005, the Army Reserve, in conjunction with the 
Pennsylvania State Fire Academy, had trained and certified more than 
350 Army Reserve chemical Soldiers to the federal standard, and trained 
more than 2,400 chemical and medical Soldiers to perform mass casualty 
decontamination.
    Twenty-five Army Reserve chemical defense units are fielded with 
specialized weapons of mass destruction-response equipment for 
hazardous material and mass casualty decontamination operations. 
However, sustaining and upgrading these robust capabilities is not 
achievable under current funding levels.
Army Reserve Training Strategy
    As the world and its threats have changed, so have the ways the 
Army Reserve approaches preparing and training its members to fight the 
nation's battles and protect its vital interests. The Army Reserve 
Training Strategy (ARTS) is the strategic training vision, establishing 
the fundamental concepts to implement the train-alert-deploy model for 
Army Reserve Soldiers. ARTS creates progressive training and readiness 
cycles, which provides priorities for resources, managed readiness 
levels and predictable training. Today's environment does not 
accommodate yesterday's ``mobilize-train-deploy'' model. Today's Army 
Reserve Soldiers must be trained and ready prior to mobilization as if 
they knew the day and hour they would be called. ARTS is a critical 
element of the Army Reserve Expeditionary Force, which supports the 
Army Force Generation (ARFORGEN) model. As units advance through a 
series of cumulative and progressively complex training events, each 
training phase improves the level of unit readiness.
  --During the reset/train phase of ARFORGEN, Army Reserve units begin 
        reconstitution as Soldiers complete needed professional 
        education and other skill-related training. The focus and 
        priority is on individual training. The culminating event for 
        the reset/train phase of ARFORGEN is the WARRIOR exercise; a 
        multi-functional, multi-echelon, multi-component, joint and 
        coalition event that improves unit proficiency at the company/
        platoon level.
  --Units in the second year of the Reset/Train force pool will 
        concentrate on perfecting their collective mission tasks by 
        participating in functional exercises at the squad/crew level. 
        The Army Reserve conducts a wide range of functional exercises 
        throughout the United States providing skill specific training 
        for Soldiers and units under field conditions. For example, the 
        Quartermaster Liquid Logistics Exercise provides a challenging 
        collective training venue for water purification, water 
        production, and petroleum, oil and lubricants (POL) units. 
        Other functional exercises are conducted for military police, 
        transportation, maintenance and medical units.
    The readiness and training goals for Army Reserve forces are the 
same as those for the Active component and in every instance the Army 
Reserve has provided trained and ready Soldiers. While the standards 
are the same, the conditions under which the Army Reserve prepares for 
its missions are significantly different. The limited training time for 
Army Reserve Soldiers competes with numerous civilian career priorities 
and must be used effectively and efficiently.
Premier Training: Warrior Exercise (WAREX)
    Warrior exercises are combined arms ``combat training center-like'' 
exercises. These exercises include opposing forces, observer-
controllers and structured after-action reviews. They provide branch/
functional training for combat support/combat service support units in 
a field environment. Future warrior exercises will also serve as the 
capstone, externally evaluated, collective training event to move Army 
Reserve units from the Reset/Train Pool of AREF into the Ready Pool. 
The 90th Regional Readiness Command conducted the first Warrior 
Exercise in June 2005 at Fort Bliss, Texas, training more than 3,500 
Soldiers.
Experience-Based Training
    Capitalizing on recent experiences in the Global War on Terrorism 
and lessons learned, Army Reserve training continues to adapt to meet 
changing battlefield conditions and an agile, thinking enemy.
            Counter Improvised Explosive Device Train-the-Trainer (T3) 
                    Course
    Initially unsophisticated and relatively easy to detect as a 
roadside bomb, improvised explosive devices (IEDs) have become more 
complex in design and increasingly lethal over time. The purpose of the 
Counter Improvised Explosive Device (CIED) Train-the-Trainer (T3) 
Course is to train trainers in countering IED threats, with the first 
priority being those troops mobilizing and deploying to Iraq and 
Afghanistan. The goal is to close the tactical performance gap between 
unit pre-mobilization training tasks, conditions, standards, and the 
actual tactical environment and mission expectations in theater.
    The 84th U.S. Army Reserve Readiness Training Command at Fort 
McCoy, WI, trained 360 Soldiers during several five-day CIED T3 courses 
in fiscal year 2005. These trainers have returned to their home 
stations to integrate CIED training into their training programs. CIED 
training provides graduates the knowledge, skills and ability to 
provide expert advice to their unit commanders as they develop a 
training strategy that incorporates CIED tactics into multi-echelon, 
pre-mobilization training.
            Convoy Training
    Convoys are now combat patrols. Recognizing the dangers of convoy 
operations, the Army Reserve has developed and implemented a convoy 
training program. In addition to counter attack methods, the training 
familiarizes Soldiers with the driving characteristics of armored 
vehicles. The program focuses on three specific areas:
  --Counter Improvised Explosive Device train-the-trainer skills
  --Integration of live fire into convoy operations training
  --Development of a combat driver training program that will 
        progressively develop individual driver skills and unit convoy 
        capabilities as units migrate through the ARFORGEN/AREF cycle. 
        An initial, individual skills development program employing 
        High Mobility Multi-purpose Wheeled Vehicles (HMMWVs) with kits 
        installed to replicate the driving characteristics of up-
        armored HMMWVs was initiated in 2005.
    The priority of training is to units that are scheduled for 
deployment.
            Combat Support Training Centers
    The Army Reserve plans, after BRAC implementation, to establish two 
combat support training centers (CSTCs)--the CSTC at Fort Hunter 
Liggett, CA, and the Joint Mobilization Training Center at Fort Dix, 
NJ. These will provide much-needed training and maneuver space for 
technical and field training in austere environments, more rigorous and 
realistic weapons qualification, classroom training, and capability to 
conduct Army Reserve unit collective training as well as support the 
Warrior Exercise program described earlier. Both training centers will 
also support joint, multi-component, interagency, and convoy training; 
up to brigade level at Fort Hunter-Liggett, and up to battalion level 
at Fort Dix.
    Units in the Army Reserve must experience a combat training center 
(CTC) or combat training center-like event to validate training and 
readiness levels prior to mobilization. The Army Reserve continues to 
partner with Forces Command to incorporate its combat support and 
combat service support in the combat training center rotations. 
Additionally, the Army Reserve will assist in the development of the 
concept for exportable CTC capability for reserve component units 
unable to access training at the National Training Center or Joint 
Readiness Training Center. CTC and/or exportable training are 
essential, not only for unit preparation for mobilization and 
deployment, but also for the longer term leader development impacts 
such training experiences provide.
            Center for Lessons Learned Mobile Training Team Seminar
    The Army Reserve collaborated with the Army's Center for Lessons 
Learned (CALL) in 2005, dispatching mobile training teams (MTTs) which 
conducted four regional seminars to unit leadership teams, with a 
specific focus on those units identified for mobilization in 2006. 
These CALL MTTs provided orientations on the Islamic and Iraqi culture, 
the most recent lessons-learned emerging from theater, highlights of 
unit after action reports, and the most effective combat tactics, 
techniques and procedures. The MTT discussion topics also include a 
current Operation Iraqi Freedom/Operation Enduring Freedom operations 
overview highlighting challenges units can expect during the 
mobilization and deployment process.
            The Army Reserve Leadership Development Campaign Plan
    The Army Reserve Leadership Development Campaign Plan, updated and 
operationalized in 2005, establishes requirements and integrates 
programs unique to the Army Reserve. Two of the more significant 
components are:
    The Senior Leader Training Program focuses on general officer and 
colonel-level leaders with seminars focused on organizational change, 
Army transformation and ethics-based leadership. All major subordinate 
commands of the Army Reserve Command as well as the 7th Army Reserve 
Command (Europe), 9th Regional Readiness Command (Hawaii), and the Army 
Reserve Staff have undergone this training.
    The Army Reserve Brigade and Battalion Pre-Command Course has been 
upgraded to better prepare field grade commanders and command sergeants 
major to lead Army Reserve Soldiers. In addition to a company pre-
command course for commanders, Army Reserve company command teams 
(commanders, first sergeants and unit administrators) participate in a 
new company team leader development course to better prepare unit 
command teams for the challenges of leadership at the crucial company 
level.
Enhancing Mobilization
    In order to enhance the readiness of mobilizing units, the Army 
Reserve is successfully using a process called phased mobilization. The 
goal of phased mobilization is to minimize unit personnel 
reassignments, enhance Soldier medical and dental readiness and skill 
training, improve unit leadership, and enhance individual skill and 
unit collective training prior to unit deployments.
    Under the phased mobilization concept, selected unit personnel 
mobilize in intervals prior to the entire unit's mobilization so that 
they may perform Soldier leader training, Soldier skill training and 
unit collective training. Phased mobilization allows selected Soldiers 
to receive individual training according to a planned and phased 
schedule that ensures they are fully trained and mission ready for 
timely mission execution. Additional funding will be required to 
support this crucial program.
Compelling Needs
    Increase fiscal year 2007 Reserve Personnel, Army Reserve funding 
levels.
  --To resource Army Force Generation-phased training requirements 
        including new equipment training, improved collective training, 
        Warrior Exercises, leader education and mission environment 
        familiarization training.
    Increase fiscal year 2007 Operations and Maintenance, Army Reserve 
funding levels.
  --For increased emphasis and additional operating tempo for warrior 
        task and drill training; skill reclassification training, 
        convoy live fire training and additional support.
  --Training equipment sets to support Army Reserve Training Centers.
  --For dedicated equipment training sets at centralized locations and 
        training equipment sets for schools and deployable units.
  --To replace Army Reserve-owned Stay-Behind-Equipment left in 
        Southwest Asia.
  --For Modular Force equipment needed for unit level collective 
        training in a field environment and to support designated 
        individual and collective training locations.
    Establishment of Combat Support Training Centers.
  --To establish and resource combat support training centers at a 
        minimum of two of the Army Reserve's four primary 
        installations.

                          EQUIPPING THE FORCE

Accomplishments
            Since 9/11:
    Mobilized virtually entire Army Reserve deployable strength without 
a single unit being rejected for logistics readiness--more than 250,000 
items (50,000 transactions) cross-leveled among Army Reserve units.
    Developed and fielded a variety of logistics information management 
programs to improve situational awareness and support decision making.
    Developed and implemented innovative, effective, and economical 
methods to improve logistics readiness--500 medium tactical trucks were 
withdrawn from prepositioned stocks; used depot maintenance to upgrade 
older medium tractors; rebuilt HMMWVs withdrawn from direct reporting 
maintenance organizations.
            Fiscal Year 2005:
    All Army Reserve units in Operation Iraqi Freedom rotation in 
fiscal year 2005 mobilized at deployment criteria.
    Developed Army Reserve equipping strategy to make most effective 
and efficient use of available equipment.
    Delivered more than 3,000 M4s and 1,000 Squad Automatic Weapons 
Replacing M16A1 rifles and M60 machine guns.
    Reduced Army Reserve logistics reconstitution backlog from a daily 
average of nearly 15,000 items in fiscal year 2004 to just over 7,500 
in fiscal year 2005.
New Equipment Strategy--How it Works
    The Army Reserve has developed a new strategy to make the most 
effective and efficient use of its equipment. The strategy includes 
maintaining equipment at four main areas: home station, strategic 
deployment sites, individual training sites and collective training 
sites. The new strategy supports the Army Force Generation and the Army 
Reserve Expeditionary Force (AREF) management systems. It ensures the 
best available equipment is provided to Army Reserve Soldiers where and 
when they need it, as they move through the pre-mobilization training 
phase of the AREF cycle to mobilization and deployment.
    While individual equipment, such as weapons and masks, will 
continue to be maintained at unit home stations, only enough of a 
unit's major items--trucks, forklifts, etc.--to allow for effective 
training and to support homeland defense requirements will also be 
there. The system allows remaining major items to be positioned at 
various other key training and positioning sites.
    In the new model, units will be moved to the equipment located at 
the training sites, rather than moving equipment to the units. Creating 
centrally located equipment pools to support directed and focused 
training will enable the Army Reserve to harvest efficiencies in 
resourcing and maintaining its equipment.
Individual Training Sites
    Some of the equipment will be consolidated in individual training 
sites. In a site established for individual training, Soldiers qualify 
on their individual skills--specified, job-related skills (e.g., nurses 
are tested in medication procedures; lawyers, in international law). 
This is the first phase of the training cycle, followed by training at 
unit home stations.
Collective Training Sites
    Another pool of consolidated equipment will be kept at collective 
training sites. Following home station unit training, units progress to 
collective training. Successful participation in exercises at these 
sites validates units as ready to conduct their wartime mission.
Strategic Deployment Sites
    Some of the major end items are consolidated at Strategic 
Deployment Sites (SDSs). After inspection and assembly into unit sets, 
major equipment items are placed in controlled humidity storage at the 
SDSs. After units are validated through individual and collective 
training cycles and called to deploy, equipment at these sites will be 
shipped directly to theater.
    Progressing through individual training, home station training and 
then participating in larger exercise-driven collective training is the 
normal training cycle to prepare for a deployment. Pre-positioning 
equipment at these sites is a cost-efficient system of support.
Compelling Needs
            Procurement of equipment to support modularity
    Night vision systems.
    Chemical/biological/radiological detection/alarm systems.
    Medical equipment.
    Light-medium trucks (75 percent do not support single-fleet policy, 
integral to training and operational efficiency).
    Medium tractors (50 percent do not support single-fleet policy, 
integral to training and operational efficiency.
            Sustainment
    Sustainment of depot maintenance levels.
    Recapitalization of tactical truck inventory.
    Army Reserve tactical maintenance contract labor to reduce 
mobilization and training equipment backlogs.

                           MANNING THE FORCE

    The Soldier has always been and remains the centerpiece of the 
Army. The Army Reserve is committed to making the best use of our most 
precious resource and is intent that those programs that affect 
Soldiers and families will be our top priority. First, Soldiers and 
their families need to know what to expect up front. The expectation of 
service in the Reserve is much changed from a decade ago. Army Reserve 
Soldiers and incoming recruits need to know that. Today's advertising 
and communications reflect the reality of the contemporary operating 
environment and the culture that surrounds this proud institution. The 
Army Reserve will not lower its standards, but will instead use a host 
of incentives and changed policies to access the best candidates for 
Army Reserve service.
    Additionally, the Army Reserve will strive to ensure that the best 
quality of care for our Soldiers and their families is provided while 
constantly working to improve the quality of life for Soldiers, 
civilians and their families. Future personnel plans will assure we can 
maintain both personnel strength and readiness. The Army Reserve 
leadership will manage personnel through accession and assignment, 
reassignment, training and retraining or reclassification. 
Additionally, leadership will manage relocation in adherence to the 
AREF and its integration into the ARFORGEN model.
Accomplishments
            Since 9/11:
    As of February, 2006, 147,000 Army Reserve Soldiers had mobilized 
in support of GWOT, some more than once.
    Developed and refined several information technology/management 
systems streamlining accountability and business processes.
    Reduced attrition from 24.7 percent in 2001 to 22.5 percent in 
fiscal year 2005.
    Established an Army Reserve casualty affairs program and office to 
care for Soldiers and their grieving families
            Fiscal Year 2005:
    Fully implemented the Trainees, Transients, Holdees and Students 
(TTHS) Account--a personnel accounting practice that enhances the 
readiness of Army Reserve units.
    Initiated a family programs Web portal to provide information: 
www.arfp.org/cys.
    Created and fully staffed 63 mobilization/deployment assistant 
positions in communities throughout the country.
    Recognized Soldiers' sacrifices by presenting nearly 26,000 awards 
in the Welcome Home Warrior-Citizen Program.
    Realigned and enhanced incentives and benefits for Army Reserve 
Soldiers and families.
    Established an employer relations program that is building positive 
and enduring relationships with employers.
    Revised several personnel policies under the Chief, Army Reserve, 
to better lead and manage Army Reserve assets.
Culture Change
    A critical element to support profound change in the Army Reserve 
is the cultural shift now occurring. Continuous reinforcement of Army 
Values, the expectation of deployment, the ability to think 
innovatively and leader development are all part of that cultural 
shift. While past Army Reserve advertising messages focused on 
benefits, downplaying the effort required for service, ``Honor is never 
off duty'' is now our touchstone. The Soldiers Creed and the Warrior 
Ethos are the bedrock of our force.

                ARMY RESERVE ACCESSIONS--FISCAL YEAR 2005
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Mission................................................          28,485
Actual.................................................          23,859
Delta..................................................          (4,626)
Mission percent........................................            83.8
------------------------------------------------------------------------

Recruiting
    While accessioning fell short by 16.2 percent of its goal in 2005, 
a variety of initiatives and improvements, such as those listed below, 
are underway to achieve our recruiting goals in 2006 to meet the needs 
of both personnel strength and readiness. Leaders can now access, 
assign or reassign, train, re-train or reclassify Soldiers into the 
Army Reserve more efficiently, responsively and effectively.
Selected Reserve Incentive Program
    The Selected Reserve Incentive Program (SRIP) was crucial in 2005. 
It enhanced the recruiting of Soldiers in critical specialties to meet 
the Army Reserve readiness needs. Continued Congressional support 
listed below will be just as crucial in the upcoming years:
  --Increased bonus incentives to Soldiers reenlisting and joining the 
        Army Reserve.
  --Expanding eligibility years for Reenlistment Bonuses.
  --Officer Accession, Affiliation, and the Specialty Conversion 
        bonuses added to the SRIP.
  --Lump sum payment options for reenlistment bonuses with tax-free 
        payments to Soldiers in the combat zone.
Other initiatives
    Increased Enlisted Affiliation Bonuses.
    Addition of the ``High Grad'' Bonus, used to attract those 
candidates with at least 30 or more semester hours of college credit.
    Establishment of the Active Guard and Reserve Selective 
Reenlistment Bonus.
Retention
    By taking care of Soldiers during the current pace of operations 
and war, retention goals in the Army Reserve were met. In fiscal year 
2005, the Army Reserve achieved 101.5 percent of its annual 
reenlistment goal.
Full Time Support
    The Army Reserve's highest priority continues to be dedicated 
support to our war-fighting Soldiers. The Global War on Terrorism 
continues to place a high demand on the Army Reserve's war fighting 
formations and their ability to mobilize in a highly trained state. 
Among the most important resources that we have in ensuring 
mobilization readiness of the 21st Century Army Reserve are our Full 
Time Support (FTS) personnel: Active Guard and Reserve Soldiers (AGR), 
Department of the Army civilians and our military technicians 
(MilTechs). Congress has historically recognized the paramount 
importance of adequate FTS levels for unit mobilization readiness.
    The Army Reserve continues to maintain the maximum effective use of 
our FTS personnel to meet unit readiness requirements prior to arrival 
at the mobilization station.
    Historically, the Army Reserve has had the lowest FTS percentage of 
any DOD Reserve component.
  --In fiscal year 2005, DOD average FTS manning level was 21 percent 
        of end strength, while the fiscal year 2005 total for the Army 
        Reserve was 11.3 percent.
  --The projected increase for Army Reserve FTS in fiscal year 2006 
        takes the level only to 11.6 percent.
  --Congress and the Army continue to support the goal of 12 percent 
        FTS by fiscal year 2010 in order for the Army Reserve to meet 
        minimum essential readiness levels as proposed by Headquarters, 
        Department of the Army, in fiscal year 2000.
    In fiscal year 2005, the Army Reserve was tasked with FTS mission 
requirements above and beyond programmed requirements, including:
  --Replacing 78 Active component training advisers to the Reserve 
        components who will be reassigned to support Active component 
        missions.
  --Providing U.S. Army Recruiting Command 734 additional recruiters 
        for fiscal years 2005 and 2006.
    These un-programmed requirements placed an additional demand on our 
already burdened FTS resources.
Quality of Life and Well Being of Soldiers and Family Members
    Quality of life issues continue to be high on the list of things 
that directly affect retention of Soldiers in the Army Reserve. The 
Secretary of the Army has stated:

    ``My top priority will be the well-being of Soldiers and their 
families. There is no more important aspect of our effort to win the 
Global War on Terrorism than taking care of our people.''

    The Army Reserve continues to improve its well-being efforts in the 
myriad of programs, policies and initiatives in its purview. Family 
programs remain a top priority.
            Welcome Home Warrior Citizen Award Program
    With congressional support, the Army Reserve was able to recognize 
nearly 26,000 Army Reserve Soldiers with the Army Reserve Welcome Home 
Warrior-Citizen Award in fiscal year 2005. The program ensures that 
returning Warrior-Citizens understand that their contributions to the 
mission and making our homeland more secure for all our citizens are 
recognized and appreciated by the Nation and the Army. The response to 
the program has been overwhelmingly positive in supporting efforts to 
retain Soldiers, thus increasing unit readiness. With continued 
congressional support, the Army Reserve will continue this program into 
the ongoing fiscal year and beyond.
            Well-Being Advisory Council
    This new and very dynamic structure supports all five Army Reserve 
constituent groups: Soldiers, families, civilians, retirees and 
veterans. The needs of each of these constituencies are growing; our 
programs continue to expand to meet these needs. The membership of the 
council will include a variety of individuals from the commands and 
organizations throughout the Army Reserve, including family member 
volunteers. The council will meet twice each year to consider and 
recommend disposition of well-being issues to the Chief, Army Reserve. 
The council is our integral link to the Army Family Action Plan.
            Army Reserve Child and Youth Services Program
    The Army Reserve now has a Child and Youth Services (CYS) 
Directorate staff to provide services that support the readiness and 
well being of families, including those families that are 
geographically dispersed. CYS programs and initiatives are designed to 
reduce the conflict between parental responsibilities and Soldier 
mission requirements. The Army Reserve CYS homepage is at www.arfp.org/
cys.
            Educational Benefits
    The Army Reserve Voluntary Education Services Program is a priority 
of the Chief, Army Reserve. Continuance of these services is necessary 
as an essential incentive we provide the Soldiers of the Army Reserve. 
Army Reserve Voluntary Education Services is a DOD-mandated commanders 
program that promotes lifelong opportunities for Selected Reserve 
Soldiers through voluntary education services that enhance recruiting, 
retention and readiness of Army Reserve Soldiers.
    The Army Reserve Voluntary Education Services have continuously 
provided an array of education programs since their inception. Recent 
changes have decentralized the execution of the tuition assistance 
program to allow for management decisions to be made closer to where 
the Soldiers live and work. This also allows for tighter fiscal 
controls and better coordination between Soldiers and colleges.
    Other educational programs are listed below:
  --Montgomery GI Bill;
  --Defense Activity for Non-Traditional Education Support Testing 
        Program (DANTES);
  --Student Guide to Success;
  --Credit for Military Experience;
  --Army/American Council on Education Registry Transcript System 
        (AARTS);
  --Troops to Teachers Program; and
  --Spouse to Teachers Program.
            Support to Wounded Soldiers
    The Army Reserve is dedicated to treating its Soldiers with the 
care and respect they have earned. Supporting Soldiers wounded in 
service to the country is one example of that commitment. The Disabled 
Soldier Support System was renamed the U.S. Army Wounded Warrior 
Program (Army W2) in November 2005. It continues to provide personal 
support, advocacy and follow-up for these heroes. The Army W2 
facilitates assistance from initial casualty notification through the 
Soldier's assimilation into civilian communities' services (for up to 
five years after medical retirement). Assistance includes:
  --Information about family travel to the Soldiers' bedsides;
  --Invitational travel orders for family members of seriously ill 
        patients;
  --Pay issues;
  --Options for continuing on active duty; and
  --Assistance with Medical Evaluation and Physical Evaluation Board 
        processes.
    Soldiers with 30 percent or greater disability ratings and in a 
special category of injuries or illness--amputees, severe burns, head 
injuries or loss of eyesight--are assessed for enrollment in the 
program. Army W2 brings the wounded Soldiers and the organizations that 
stand ready to assist these Soldiers and families together. The 
Veterans' Administration and other similar veterans' service 
organizations participate in the program.
    Some of these Soldiers may be in the process of medical 
retirements, pending other dispositions, such as being extended on 
active duty, or enrollment in the Community Based Healthcare 
Initiative, which allows selected reserve component Soldiers to return 
to their homes and receive medical care in their community.
            Base Operations Support
    The Army Reserve is committed to providing better quality of life 
services and critical support to Soldiers, their families and the 
civilian work force. The increase in base operations support for fiscal 
years 2006 and 2007 will greatly assist this effort, allowing for 
better engineering support, safety programs, law enforcement, and force 
protection, to name only a few areas.
            More Efficient Management of Officer Promotions
    Specific policy changes that were effected by the Chief, Army 
Reserve, improved our personnel management capability. By creating 
three separate reserve component competitive promotion categories, the 
Army Reserve can retain and better manage its officers. Another change 
enabled the Army Reserve to select officers based upon unique force 
structure requirements. That change will provide business efficiencies 
to better meet the manning requirements in all categories of the 
Selected Reserve, producing greater predictability and equity among all 
considered officers. The revised competitive categories meet the intent 
of Congress to match the number of officers selected for promotion by a 
mandatory promotion board to officers needed in the related categories.
            Enhanced Care for Professional Development
    Regional Personnel Service Centers (RPSCs), the Army Reserve 
military personnel management offices, will provide active personnel 
management for all Army Reserve Soldiers. Implementation of four RPSCs, 
in support of the Army Reserve Expeditionary Forces model, will provide 
standardized life-cycle management support to Army Reserve Soldiers 
regardless of where they may be in the command. This initiative relies 
on increased communication, interaction and involvement by commanders 
and their Soldiers to assure trained and ready Soldiers.
Compelling Needs
    Continued funding for enlistment, accession, affiliation, 
conversion, and retention incentives and bonuses to meet readiness 
requirements.
    Attain minimum essential full time support level of 12 percent of 
end strength by fiscal year 2010.
    Strengthened medical and health services for Army Reserve Soldiers.
    Continued funding for Army Reserve Soldier educational services and 
opportunities (e.g., tuition assistance and scholarships).
    Continuance of the Army Reserve Welcome Home Warrior-Citizen Award 
Program.

                             THE WAY AHEAD

    The changed conditions of warfare have greatly affected our armed 
services, including and especially, the reserve components. We are now 
engaged in a global war that will last a long time. We are on an 
asymmetrical rather than a linear battlefield. We are in a protracted 
war, not one with a defined beginning and end. The constant threat of 
attacks on our homeland, including the use of weapons of mass 
destruction, places a premium on readiness and responsiveness. Because 
of these changing conditions, the Army Reserve has implemented a host 
of initiatives that are creating deep, lasting and profound change.
    Today, the deployment of our Army and Army Reserve, is no longer 
the exception, rather it is the rule. The Army Reserve is using the 
energy and urgency of Army transformation and the demands of the Global 
War on Terrorism to change. We are changing our organization in deep 
and profound ways, from a technically focused force-in-reserve to a 
learning organization that provides trained, ready ``inactive duty'' 
Citizen-Soldiers, poised and available for active service, now as ready 
as if they knew the hour and day they would be called.
    To that end, the Army Reserve will require:
  --Continued funding to support changes in personnel incentives;
  --Adequate funding to support Army Reserve Expeditionary Force 
        training, equipping and maintenance strategies; and
  --Support for legislative and policy changes to support recruiting 
        efforts, personnel management and mobilization.

    Senator Stevens. Admiral Cotton.

STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVAL 
            RESERVE, DEPARTMENT OF THE NAVY
    Admiral Cotton. Good morning, Mr. Chairman, Senator Inouye. 
Thank you very much for listening here today.
    The Navy Reserve continues its full integration with the 
Navy. In terms we have used this morning, we are in the huddle. 
We are full participants on every play. Over 23,000 Navy 
reservists are on orders at this moment, providing integrated 
support to the fleet and combatant commanders in the away game; 
2,100 Navy reservists are ashore in central command, providing 
integrated combat service support.

                           PREPARED STATEMENT

    I request that the statement is put in the record and, in 
the interest of time, like to move on. We are standing by to 
answer any questions you have, sir.
    Senator Stevens. Thank you for your courtesies.
    [The statement follows:]

           Prepared Statement of Vice Admiral John G. Cotton

                              INTRODUCTION

    Chairman Stevens, Senator Inouye, distinguished members of the 
subcommittee, thank you for the opportunity to speak today about the 
Navy and its Navy Reserve.
    Our Navy Reserve continues its transformation to better support 
combat and combat service support missions throughout the world. Navy 
Reservists are no longer solely a strategic force waiting for the call 
to mobilize in a war between nation-states. They are operational and 
forward, fighting the Global War on Terror (GWOT) as Seabees in Iraq, 
civil affairs Sailors in Afghanistan, customs inspectors in Kuwait, 
logistical aircrew and Joint Task Force staff in the Horn of Africa, 
and as relief workers in disaster recovery operations in the United 
States and around the world.
    Your support in this transformation from a strategic reserve to an 
operational reserve is greatly appreciated. Congress passed legislation 
in the 2006 National Defense Authorization Act that provided force-
shaping tools allowing the Navy to best distribute Sailors within the 
Total Force. You authorized the flexibility to transfer funds from 
Reserve Annual Training (AT) accounts to Reserve Active Duty (AD) 
accounts. You supported adding an additional $10 million for the Non-
Prior Service Boot Camp program (Full Accession Program). This 
additional funding allowed us to kick-start the program in fiscal year 
2006. Navy is increasing funding for this program in fiscal year 2007.
    Reserve Component (RC) Sailors are serving selflessly and are fully 
integrated throughout the Department of Defense, with our coalition 
partners and with every civil support agency. Our Sailors and their 
families continue to earn our respect and gratitude for their service 
and their many sacrifices. As part of the All Volunteer Force, they 
REserve again and again, freely giving of their skills and capabilities 
to enhance the Total Force team. On behalf of these brave men and women 
and their families, thank you for your continued support through 
legislation that improves benefits for their health and welfare.
    Single Manpower Resource Sponsor.--Navy is taking a Total Force 
approach to delivering the workforce of the 21st century. The Total 
Navy consists of active and reserve military, civil service, and 
contractors. The Total Navy will deliver a more responsive workforce 
with new skills, improved integrated training and will be better 
prepared to meet the challenges of the Long War. As the Chief of Naval 
Personnel testified, the Navy is concentrating this effort in a single 
resource sponsor: the Manpower, Personnel, Training and Education 
(MPT&E) enterprise. Our Navy Reserve is an integral part of the MPT&E 
and is working closely with the Chief of Naval Personnel to best 
leverage all Navy resources to produce the greatest warfighting 
capabilities possible.
    Our ``One Navy'' goal is to be better aligned to determine the 
future force (capabilities, number, size and mix) based on Department 
of Defense and Department of Navy strategic guidance and operational 
needs. Specifically, the new MPT&E domain will deliver:
  --A Workforce Responsive to The Joint Mission: Derived from the needs 
        of Joint Warfighters.
  --A Total Force: Providing a flexible mix of manpower options to meet 
        warfighting needs while managing risk.
  --Cost Effectiveness: Delivering the best Navy workforce value within 
        fiscal constraints and realities.
    Strategy for Our People.--To accomplish the optimal distribution of 
trained Sailors throughout the Total Force, the MPT&E is developing a 
``Strategy for Our People.'' This strategy will provide the guidance to 
assess, train, distribute and develop our manpower to become a mission-
focused Total Force that meets the warfighting requirements of the 
Navy.
    Each Navy Reservist fills a crucial role in the Total Navy, 
providing skill sets and capabilities gained in both military service 
and civilian life. For example, a Sailor who learned to operate heavy 
equipment on active duty, and who is currently employed as a foreman in 
the construction industry, brings both military and civilian skill sets 
to his unit or individual augmentee assignment.
    Additionally, RC Sailors can perform the same mission while 
training at home as they do when deployed. For instance, harbor patrol 
Sailors use the same core skill sets training in Portland, Boston, 
Charleston and Jacksonville harbors as they use in Ash Shuaybah, 
Kuwait. Sailors also use these skill sets when acting as first 
responders within the United States. While Hurricane Katrina was still 
crossing Louisiana and Mississippi, Navy Reserve Seabees were driving 
their personal vehicles in the eye of the hurricane to provide search 
and rescue capabilities followed by their traditional ``can do'' 
reconstruction efforts. After a tornado hit Evansville, Indiana, at 
night, the local Navy Operational Support Center served as a 
communications and emergency triage headquarters, and Sailors 
immediately responded with search and rescue teams, saving lives.
    Continuum of Service.--Our Active Component (AC) and RC Sailors 
receive valuable experience and training throughout their careers, and 
our vision for the future is to create a ``Continuum of Service'' 
system that enables an easy transition between statuses. We are 
building a personnel system in which Sailors can move between AC and RC 
based on the needs of the service and availability of the member to 
support existing requirements. To make these transitions seamless, the 
Navy will develop smooth ``on ramp'' and ``off ramp'' opportunities. 
Sailors will serve on active duty for a period of time, then train and 
work in the Reserve Force and, with minimal administrative effort, 
return to active duty. The Navy will offer experienced Sailors the 
ability to transition between statuses when convenient, while 
incentivizing rate changes and service assignments at the right time 
and place, all in a ``Continuum of Service'' throughout their careers. 
All Reservists, Full Time Support (FTS), Selected Reserve (SELRES) and 
even our important Individual Ready Reserve (IRR) members, will benefit 
from increased opportunities to serve and REserve.

       CHANGING DEMAND SIGNALS--NEW AND NON-TRADITIONAL MISSIONS

    Navy Sailors continue to support the GWOT in Southwest Asia, around 
the world and at home. Over 5,000 RC Sailors are currently mobilized 
and serving in various capability areas such as Navy Coastal Warfare, 
Seabees, Intelligence, cargo airlift, cargo handlers, customs 
inspectors, civil affairs, port security, medical (including doctors, 
nurses and hospital corpsmen), and on the staff of every Combatant 
Commander (COCOM).
    Operational Support.--Mobilization alone does not reflect the total 
contribution of the Navy's Reserve. On any given day, an additional 
15,000 RC Sailors are providing support to the Fleet, serving in a 
variety of capabilities, from flight instructor duties to counter 
narcotics operations, from standing watch with the Chief of Naval 
Operations staff to relief support for Hurricane's Katrina, Rita and 
Wilma. Sailors have provided over 15,000 man-years of support to the 
Fleet during the past year. This operational support is the equivalent 
of 18 Naval Construction Battalions or two Carrier Strike Groups.
    To define the Total Force requirements and maximize operational 
support, Commander, Fleet Forces Command (CFFC) commenced a continuous 
Reserve Zero-Based Review (RZBR) process in 2004. Navy and joint 
mission requirements were prioritized, followed by a thorough analysis 
of RC manpower available to meet those requirements. The ZBR continues 
to facilitate Active Reserve Integration (ARI), placing RC billets in 
various AC units where the requirement for surge capabilities and 
operational support is predictable and periodic. This capabilities-
based review also enabled the Fleet to develop mission requirements 
that were inclusive and dependent upon skill sets and capabilities 
resident within its aligned RC.
    The Navy supports 21 joint capability areas, built on the 
foundations of Sea Strike, Sea Shield, Sea Basing and FORCEnet, and the 
Navy RC is fully integrated in all enterprises. Excellent examples of 
ARI are highlighted in CENTCOM, where 50 percent of the Navy individual 
augmentee (IA) requirement is being met by RC Sailors. Operational 
Health Support Unit (OHSU) Dallas deployed with 460 medical and dental 
specialists for 11 months, during which the unit maintained health 
clinics in Iraq and hospitals in Kuwait. These Sailors relieved an Army 
unit, set up their medical capabilities in the Army Camp, and provided 
integrated joint health care to all services.
    Navy's newly established Navy Expeditionary Combat Command (NECC) 
integrates the RC expeditionary and combat service support capabilities 
into one Total Force command. The Naval Construction Force has 139 
units comprised of AC and RC Sailors, and Naval Coastal Warfare 
continues to rebalance active and reserve personnel to meet COCOM 
requirements.
    Fleet Response Units (FRU) are directly integrated with AC aviation 
units. FRU Sailors maintain and operate the same equipment as Fleet 
personnel, supporting the Fleet Response Plan (FRP) by providing 
experienced personnel who are qualified and ready to rapidly surge to 
deployed Fleet units. This ARI initiative reduces training costs by 
having all Sailors maintain and operate the same equipment. No longer 
are the Active and Reserve Components using different configurations 
for different missions.
    Another ARI initiative is the Squadron Augmentation Unit (SAU), 
which provides experienced maintenance personnel and qualified flight 
instructors to Fleet Replacement Squadrons (FRS) and Training Commands. 
Experienced RC technicians and aviators instruct both AC and RC Sailors 
to maintain and fly current Fleet aircraft at every FRS.
    The Reserve Order Process.--One constraint to these initiatives is 
the reserve order processes. The current system has multiple types of 
Reserve orders: Inactive Duty for Training (IDT), Inactive Duty for 
Training-Travel (IDTT), Annual Training (AT), Active Duty for Training 
(ADT), and Active Duty for Special Work (ADSW).
    In addition to multiple types of orders, the funding process for 
these various types of orders can be equally complex. Navy is currently 
evaluating process options that will streamline the system and make 
support to the fleet more seamless. In fact, efforts such as the August 
2005 conversion of Navy Reserve Order Writing System to ADSW order 
writing have already improved the situation for Sailors and the fleet 
by allowing the same order writing system to be used for both ADT/AT 
and ADSW. Additionally, the Navy Reserve is also addressing these 
issues by emphasizing and increasing ADSW usage, which is simply 
``work'' funding for operational support to the Fleet, rather than the 
previous way of doing business with training orders for work. The 
baseline data call of required work was initiated in 2005 with an 
implementation goal of accurately funded ADSW accounting lines in 
fiscal year 2008. COCOMs continue to review operational support 
requirements and the appropriate level of funding for the GWOT and 
surge operations. Emphasizing ADSW will be a significant evolution in 
the Navy's effort to integrate its Reserve Force capabilities by 
aligning funding sources and accurately resourcing the accounts 
responsible for Navy Reserve operational support.

                      SIZE AND SHAPE OF THE FORCE

    The total number of Navy Reservists, both SELRES and FTS, is 
requested to be 71,300 for fiscal year 2007. The ongoing ZBR and 
effective ARI continue to optimally integrate the capabilities of the 
Total Force, which optimizes the force mix of AC and RC Sailors needed 
to support the Fleet while still providing effective surge operational 
support.
    Common AC/RC Pay System.--A common pay and personnel system that 
provides for a seamless transition from AC to RC is essential to the 
success of our ``Continuum of Service'' and ``Sailor for Life'' 
programs. Ideally, manpower transactions will someday be accomplished 
on a laptop with a mouse click, and data will be shared through a 
common data repository with all DOD enterprises. Navy fully supports 
the vision of an integrated set of processes and tools to manage all 
pay and personnel needs for the individual, and provide necessary 
levels of personnel visibility to support joint warfighter 
requirements. The processes and tools should provide the ability for a 
clean financial audit of personnel costs and support accurate, agile 
decision making at all levels of the Department of Defense through a 
common system and standardized data structure.
    The Defense Integrated Manpower and Human Resource System (DIMHRS) 
is expected to be that system. A Deputy Secretary of Defense assessment 
is currently underway to determine the best course of action for the 
Department. The assessment will conclude in early summer.

                               RECRUITING

    Accessions.--Navy Reserve accessions are drawn from multiple 
sources, but we are increasingly focused on the trained and experienced 
Navy veteran. Our leadership is constantly emphasizing a ``Continuum of 
Service'' and ``Sailor for Life'' themes that enable Sailors to more 
easily transition between components. The entire Total Force chain of 
command is committed to changing the culture of service and REservice 
by continually educating AC Sailors about the benefits of continued 
service as members of any of the Reserve Components.
    National Call to Service--A relatively new accession source is the 
National Call to Service (NCS), with contracts that include both AC and 
RC service as part of a recruit's initial military obligation. Congress 
first authorized this program in the NDAA 2003. The NCS program is 
enjoying considerable success, and is helping to mitigate some of the 
prior-service shortages in ratings that are critical to the prosecution 
of the GWOT. Under this program, a recruit enlists for an active duty 
commitment of 15 months after training. At the end of the commitment, 
the individual can either extend on active duty or commit to two years 
of drilling in the Selected Reserve. Navy has been particularly 
aggressive in recruiting Masters at Arms and Hospital Corpsmen for this 
program, and the first recruits are completing their AC service and 
will begin drilling in the Navy Reserve this year. Navy's success in 
attracting recruits for this program is steadily growing. We assessed 
998 recruits in 13 ratings in fiscal year 2004, and 1,866 recruits in 
23 ratings in fiscal year 2005. Navy has a goal of 2,340 NCS recruits 
in 44 different ratings this year, and will continue this successful 
program in fiscal year 2007.
    Attrition.--Attrition and recruiting are a crucial part of 
maintaining the Total Force. Fortunately, the GWOT is not having an 
appreciable affect on attrition. Yearly Navy Reserve attrition is 
currently 27 percent and has remained at approximately the same level 
for the past five years.
    Enlisted Recruiting.--Fiscal year 2006 Navy Reserve enlisted 
recruiting continues to be challenging, with 4,172 recruits attained 
out of a year-to-date goal of 4,891 as of March 31, 2006. In fiscal 
year 2005, although by the end of the year the Navy Recruiting Command 
focused on the RC mission, it only accessed 85 percent of the fiscal 
year 2005 RC enlisted goal, recruiting 9,788 against a target of 
11,491. Navy attributes the recruiting shortfalls to several causes, 
including the continued strong retention of AC Sailors. The GWOT has 
caused an increase in the number of recruits needed by the Army and 
Marine Corps, with competitive bonuses offered by all services.
    To address Navy Reserve recruiting challenges and to promote 
continued success in recruiting the active force, Navy is increasing 
the amount of enlistment bonuses for both prior service and non-prior 
service Reserve accessions. Congress combined the non-prior service 
enlistment and prior service affiliation bonus into a single accession 
authority payable as a lump sum with a maximum cap of $20,000. The 
Reserve re-enlistment of $15,000 has also been authorized as a lump sum 
payment. These programs will enhance the attractiveness of service in 
the Reserve for those currently in our targeted ratings.
  --Officer Recruiting.--Reserve Officer recruiting continues to fall 
        short. The primary market for RC officers is Navy veterans and, 
        as in enlisted recruiting, high retention of AC officers 
        reduces the pool of available candidates.
    Other measures being taken to address the Reserve recruiting 
shortfall include implementation of expanded authorities provided by 
Congress in the fiscal year 2006 NDAA. These include: authority to pay 
Reserve Affiliation Bonuses in lump sum, enhanced high-priority unit 
assignment pay, and increases in the amount of the Reserve Montgomery 
G.I. Bill. Navy is also applying force-shaping tools to attract non-
rated Reserve Sailors to undermanned ratings.

                               READINESS

    In addition to having the right Sailor assigned to the right 
billet, all Sailors must be ready to answer the call to serve. They 
must be medically, physically, and administratively ready to deploy.
    Medical Readiness.--Navy Reserve is a leader in medical readiness. 
In 2002, the Navy Reserve developed the Medical Readiness Reporting 
System (MRRS) as a comprehensive tracking system for Individual Medical 
Readiness (IMR). MRRS, a web-based application with a central 
aggregating database, links with existing authoritative data systems to 
reduce data input requirements and improve data accuracy. MRRS gives 
headquarters staffs and leadership a real-time view of force medical 
readiness, and received the 2005 DON CIO IM/IT Excellence Award for 
Innovation. It is being adopted throughout the Department of the Navy 
to give Commanders the web-based tool they need to more effectively and 
efficiently measure and predict IMR.
    Navy Reserve continues to be a DOD leader in percent of personnel 
who are Fully Medically Ready (FMR). In October 2004, Navy Reserve 
reported 44 percent FMR personnel and, with an ongoing emphasis on MRRS 
utilization by all commands, showed a dramatic improvement in January 
2006 to 73 percent FMR per DOD IMR standards.
    Physical Readiness.--Navy Reserve is actively participating in 
Total Force solutions to address physical readiness. The CNO's 
``Fitness Board of Advisors'' is exploring methodologies for changing 
the culture of fitness in the Navy to ensure a ready, fighting force. 
The Secretary of the Navy's ``Health and Productivity Management'' 
group is addressing the impact of a fit force on work productivity. 
Many participants are members of both groups in order to facilitate the 
exchange of good ideas. Further, Navy Reserve is working with BUPERS to 
revise the Physical Readiness Information Management System (PRIMS) to 
more accurately capture fitness testing data.
    Administrative Readiness.--Navy Reserve tracks administrative 
readiness with the ``Type Commander (TYCOM) Readiness Management 
System--Navy Reserve Readiness Module'' (TRMS-NRRM), which provides a 
scalable view of readiness for the entire Force. This Navy Reserve 
developed system has served as the prototype for the ``Defense 
Readiness Reporting System'' (DRRS), and links to many DOD systems. 
Navy Reserve leaders have utilized accurate data for all categories and 
elements since the first data call in 2003, and can quickly determine 
readiness information for individuals, units, activities, regions, and 
any other desired capability breakouts.

                             TRANSFORMATION

    Navy Reserve continues to lead DOD RC transformation. Through the 
Base Realignment and Closure (BRAC) process, Navy Reserve Centers (NRC) 
are consolidating into larger, more centralized Navy Operational 
Support Centers (NOSC) on military bases, while maintaining presence in 
all 50 states and reducing excess capacity by 99 percent. Consolidation 
of smaller facilities provides a better return on investment (ROI) of 
precious RPN and OM&NR funding, with better utilization of 
administration and staff support for SELRES, while aligning with Navy 
Regional Commanders instead of separate RC Regions. Whenever possible, 
our RC Sailors have indicated a strong desire to ``flex drill'' at 
their AC supported commands, which achieves a greater level of 
readiness and operational support, as well as Total Force integration.

                                SUMMARY

    Navy Reserve is evolving from a dispersed strategic force of the 
Cold War to an adaptive and responsive operational force that will be 
required to meet the surge requirements for future asymmetric threats. 
Change of this magnitude is not easy and challenges both AC and RC 
leadership to rapidly become more integrated while thoroughly 
communicating the vision to the Total Force. We greatly appreciate the 
full support of Congress as we implement initiatives that will better 
align AC and RC personnel and equipment, providing additional resources 
to recapitalize the Navy of the future.
    Our dedicated RC Sailors continue to volunteer to serve and 
REserve, and we are developing a ``Continuum of Service'' program to 
ensure that they can quickly support operational missions, with easy 
transitions on and off active duty. We are simplifying the order 
writing and funding processes, while allowing the customers, the Fleet 
and COCOMs, to control the resources through their Operational Support 
Officers. These initiatives will greatly reduce the administrative 
burden on both the ready Sailor and the chain of command, ensuring the 
right Sailor is in the right place at the right time with the right 
skill sets. Navy will continue to improve readiness tracking and 
reporting systems so that the Sailor will be ready to deploy when 
called, physically, medically and administratively.
    The future success of our Navy and the Nation requires dominance of 
the maritime domain, and will be dependent upon a Reserve Force that is 
ready, relevant and fully integrated. Our Navy Reserve is busy 
transforming its processes, becoming more integrated with both Navy and 
joint forces, and is more ready than ever for any tasking. We are 
providing global operational support, and our RC Sailors have and will 
continue to answer the call to ``be ready'' to support the Combatant 
Commanders and prevail in the Long War.

    Senator Stevens. General Bergman.

STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE CORPS RESERVE, UNITED 
            STATES MARINE CORPS, DEPARTMENT OF THE NAVY
    General Bergman. Good morning, sir, Mr. Chairman, Senator 
Inouye.
    As a first-timer here, brevity I guess is very good on all 
of our parts because time is of the essence. As the Marine 
Corps, the Marine Corps Reserve, we are still focused on 
getting that individual marine ready to go, after that to fight 
the fight, focus on the family, and focus on the funding for 
allowing our participation in the long war.
    Thank you for the opportunity to be here. I look forward to 
your questions.
    Senator Stevens. Thank you, sir.
    [The statement follows:]

        Prepared Statement of Lieutenant General Jack W. Bergman

                              INTRODUCTION

    Chairman Stevens, Senator Inouye and distinguished Members of the 
subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve as a partner in the Navy-Marine Corps team. Your 
Marine Corps Reserve remains firmly committed to warfighting 
excellence. The support of Congress and the American people has been 
indispensable in attaining that level of excellence and our success in 
the Global War on Terror. Your sustained commitment to care for and 
improve our Nation's armed forces in order to meet today's challenges, 
as well as those of tomorrow, is vital to our continued battlefield 
success. On behalf of all marines and their families, I would like to 
take this opportunity to thank Congress and this committee for your 
ongoing support.

                    YOUR MARINE CORPS RESERVE TODAY

    The last 5 years have demonstrated the Marine Corps Reserve is 
truly a full partner in the Total Force Marine Corps. I assumed the 
responsibility as the commander of Marine Forces Reserve on the 10th of 
June 2005, and I can assure you the Marine Corps Reserve remains 
totally committed to continuing the rapid and efficient activation of 
combat-ready ground, air and logistics units, and individuals to 
augment and reinforce the active component in the Global War on Terror 
(GWOT). Marine Corps Reserve units, Individual Ready Reserve (IRR) 
Marines, Individual Mobilization Augmentees (IMAs), and retired marines 
fill critical requirements in our Nation's defense and are deployed 
worldwide in Iraq, Afghanistan, Georgian Republic, Djibouti, Kuwait, 
and the United States, supporting all aspects of the Global War on 
Terror. At home, our Reserve Marines are pre-positioned throughout the 
country, ready to defend the homeland or assist with civil-military 
missions such as the type of disaster relief conducted recently in the 
wake of Hurricanes Katrina and Rita.
    Reserve Marines understand the price of protecting our 
constitutional rights to freedom, and even though some have paid the 
ultimate price in Operations Enduring Freedom and Iraqi Freedom, they 
continue to step forward and volunteer to serve their fellow Americans. 
The Marine Reserve Force remains strong and constant due to the 
committed marines in our ranks, our high retention and recruiting 
rates, and the ever-increasing benefits that Reserve Marines and their 
families enjoy.
    As tactics and warfighting equipment continues to change and 
evolve, our level of readiness for future challenges must be 
maintained. Reserve ground combat units, aviation squadrons and combat 
service support elements are able to seamlessly integrate with their 
active component comrades in any Marine Air Ground Task Force (MAGTF) 
environment because they are held to identical training standards. A 
strong Inspector-Instructor (I&I) system and a demanding Mobilization 
and Operational Readiness Deployment Test (MORDT) program ensure Marine 
Corps Reserve units achieve a high level of pre-mobilization readiness. 
Marine Reserve units continue to train to challenging, improved 
readiness standards, reducing the need for post-mobilization 
certification. This ensures that these combat capable units undergo a 
seamless transition to the Gaining Force Commander.
    As we progress into the 21st century, we have seen historic and 
tragic events that have impacted our country and Marine Forces Reserve 
in ways that will reverberate for years to come. When Hurricanes 
Katrina and Rita battered the Gulf Coast, Marine Forces Reserve was 
part of both the evacuation and the relief efforts in the area. Due to 
the storms, Marine Forces Reserve Headquarters, along with our 
subordinate headquarters, were forced to evacuate the New Orleans area 
and set up temporary commands in Texas and Georgia. It was from these 
locations that we managed the mobilization and deployment of units to 
the affected areas to support relief efforts. In some cases marines 
were serving in their own communities that were devastated by the 
storms.
    As of this month, over 5,300 Reserve Marines are activated in 
support of Operation Enduring Freedom, Operation Iraqi Freedom, and 
Horn of Africa operations. Of these marines, approximately 4,000 are 
serving in combat-proven ground, aviation and service support units led 
by Reserve Marine officers and non-commissioned officers. The remaining 
1,300+ Reserve Marines are serving as individual augments in support of 
Combatant Commanders, the Joint Staff and the Marine Corps. Since 
September 11, 2001, the Marine Corps has activated over 39,000 Reserve 
Marines, and more than 97 percent of all Marine Forces Reserve units.
    Since the beginning of the Global War on Terror, it has become 
necessary for the Marine Corps Reserve to increase support required for 
operations against the backdrop of a rapidly changing world environment 
accented by asymmetrical warfare and continuing hostilities. As new 
warfighting requirements have emerged, we have adapted our capabilities 
by creating anti-terrorism battalions from existing units, as well as 
provisional civil affairs groups in support of our efforts in Iraq. We 
continue to refine our reserve capabilities. Through assessment, 
projection and careful planning, we shift valuable resources to enhance 
our ability to provide required war fighting, intelligence gathering, 
Homeland security, and civil affairs capabilities.

                          RETURN ON INVESTMENT

    The Marine Corps is committed to the Total Force Concept as 
evidenced by the overwhelming success of Marine Reserve units serving 
in support of the Global War on Terror. Activated Marine Reserve units 
and individuals are seamlessly integrating into forward deployed Marine 
Expeditionary Forces and regularly demonstrate their combat 
effectiveness. Since March 2005, approximately 8,500 Reserve Marines 
have deployed in support of two troop rotations to Iraq. The combat 
effectiveness of all Reserve Marines deployed in support of Operation 
Iraqi Freedom is best illustrated by the following examples.
Force Units
    Marine Forces Reserve has provided provisional civil affairs 
groups, air-naval gunfire liaison detachments and counter intelligence 
teams in support of Operation Iraqi Freedom.
    The Marine Corps has two permanent civil affairs groups and, in 
2005, formed two additional provisional civil affairs groups. The 
decision was made to expand the Corps' civil affairs capability for the 
Iraqi conflict by creating a provisional 5th and 6th Civil Affairs 
Group (CAG) of nearly 200 marines each. The 5th and 6th CAGs were 
created to ease the deployment cycles of the 3rd and 4th CAGs and to 
create additional civil affairs assets. Fourth Combat Engineer 
Battalion from Baltimore provided the nucleus for the 5th CAG, which 
was established in late 2004. The unit was rounded out by marines from 
across the country, to include two previously retired marines.
    The 5th CAG began its tour of duty in Iraq at a transfer of 
authority ceremony with the 4th CAG at Camp Fallujah on March 10, 2005. 
Led by Col. Steve McKinley and Sgt. Maj. John Ellis, the 5th CAG 
assumed 4th CAG's area of responsibility and operated throughout Al-
Anbar Province coordinating civil affairs projects with the goal of 
restoring critical infrastructure and facilitating the transition into 
a self-governing people. The 6th CAG, led by Col. Paul Brier and SgtMaj 
Ronnie McClung, relieved 5th CAG in September 2005. After a successful 
7 month tour, they are redeploying to the United States this month.
    In addition to the contribution of the civil affairs groups, Marine 
Forces Reserve has provided detachments from both 3d and 4th Air Naval 
Gunfire Liaison Company (ANGLICO)--based in Long Beach, California and 
West Palm Beach, Florida respectively--in support of Operation Iraqi 
Freedom. The last detachment returned mid-December 2005. During its 
tour, the unit supported the multinational division headed by the 
Polish Army and consisting of troops from 14 countries. The unit was 
involved in various missions in the three provinces south of Baghdad. 
Duties ranged from calling in fire support for the coalition partners 
to providing protection for convoys. The marines were credited with 
rounding up 390 insurgents and criminals, in addition to recovering 
50,000 pounds of ordnance.
Fourth Marine Division
    The 3rd Battalion, 25th Marines, led by LtCol Lionel B. Urquhart, a 
manager for Roadway Transportation Services, and his senior enlisted 
advisor SgtMaj Edward C. Wagner, supported Regimental Combat Team 2 
(RCT-2) during Operation Iraqi Freedom 04-06.1. During this time, the 
battalion cleared the city of Hit, establishing two permanent firm 
bases there and introduced Iraqi armed forces into the city to begin 
the process of independent Iraqi control. Hit was the only city to be 
liberated from anti-Iraqi forces control by the 2d Marine Division. In 
all, the battalion acted as the regimental main effort in 15 named 
combat operations and provided support to five more named operations in 
an area covering 4,200 square kilometers. The scheme of maneuver for 
entry into the town of Kubaysah employed the first heliborne and 
mechanized combined assault in Area of Operation ``Denver.'' The 
battalion's efforts resulted in 46 detainees being convicted to 
confinement at Abu Grahb Prison, 160 confirmed enemy killed in action, 
and 25 confirmed enemy wounded in action. This battalion, which 
coalesced from Reserve Marines spread across more than seven States, 
acted as a center of gravity for RCT-2 during Operation Iraqi Freedom 
04-06.1, enabling the regiment to achieve its greatest successes.
    Fifth Battalion, 14th Marines (-) Reinforced, commanded by John C. 
Hemmerling, an attorney for the City of San Diego, with Sergeant Major 
Jose Freire, a U.S. postal carrier, as his senior enlisted advisor, was 
assigned the mission as a provisional military police battalion in the 
Al Anbar Province of Iraq. The marines of 5/14 exemplified the total 
force concept as they transitioned from a reserve artillery battalion 
into a composite battalion. The 1,000-strong battalion was comprised of 
15 active and reserve units and detachments, and integrated active and 
Reserve Marines down to the fire team level. Furthermore, drawing from 
its ranks of reservists in civilian law enforcement and active duty 
military policemen at its core, the battalion was task organized to 
conduct military police missions including convoy security operations; 
law and order at forward operating bases; operate five regional 
detention facilities; provide force protection of Camp Fallujah; 
conduct criminal investigations; recruit Iraqi Security Forces through 
the Police Partnership Program; and control 57 military working dog 
teams. The battalion is credited with processing over 6,000 detainees 
consisting of suspected insurgents, terrorists and criminals--without 
incident; safely escorted over 300 convoys throughout the Multinational 
Force West area of operations; occupying and defending Camp Fallujah 
and approximately 100 square kilometers of battle space surrounding it; 
and recruiting over 1,000 Iraqi police candidates.
    The 4th Marine Division also provided a significant presence during 
Hurricane Katrina relief efforts on the Gulf Coast. From the Commanding 
General, MajGen Douglas O'Dell--who was appointed to lead the entire 
Marine Corps relief effort--to a multitude of units from Alabama, 
Texas, Florida, Oklahoma, Tennessee, Virginia, Missouri and other 
States, elements of the 4th Marine Division converged on the 
beleaguered area to form the marine nucleus of support. Worthy of 
particular note are the marines of the 4th Assault Amphibian Battalion 
in Gulfport, Mississippi. Immediately after the storm passed, these 
intrepid marines began combing their community in their amtracs in 
search of victims, as well as rendering assistance to local 
authorities. The last of these Marine Reserve units returned to their 
home stations on October 1.
Fourth Marine Logistics Group
    Fourth Marine Logistics Group (MLG) continued to provide the active 
duty component and combatant commanders tactical logistics support 
throughout the six functional areas of Combat Service Support (CSS) and 
the personnel necessary to sustain all elements of the operating force 
in multiple theaters and at various levels of war. Fourth MLG has a 
well-established reputation for providing professional, dedicated and 
highly skilled marines and sailors to augment and reinforce the active 
components in support of Operations Iraqi Freedom (OIF) and Enduring 
Freedom (OEF). During the past year's semi-annual relief of forces, 4th 
MLG deployed approximately 1,000 Reserve Marines and sailors to conduct 
tactical level logistics missions.
    Additionally, 4th MLG provided the following support to the 
operating forces as requested by combatant commanders:
  --During January of 2005, 4th MLG deployed approximately 130 marines 
        and sailors to support Marine Forces Central Command's 
        Logistics Command Element (LCE) located aboard Camp Lemonier, 
        Djibouti. These marines and sailors from various 4th MLG 
        battalions provided vital logistical and operational support to 
        a mission focused on detecting, disrupting, and ultimately 
        defeating transnational terrorist groups operating in the Horn 
        of Africa region.
  --In April 2005, on short notice, 4th MLG deployed 13 maintenance 
        personnel in support of Marine Corps Systems Command 
        (MARCORSYSCOM) to a forward operating base in Iraq to assist 
        with the installation of armor kits on tactical vehicles. Their 
        mission proved invaluable in mitigating the personnel and 
        equipment loss attributed to an emergent IED threat.
  --During May of 2005, 4th MLG provided health services support 
        consisting of 20 sailors from 4th Medical Battalion to II 
        Marine Expeditionary Force (II MEF) for detainee operations in 
        Iraq that included medical services for personnel in temporary 
        detainee facilities; maintenance of medical supplies and 
        equipment; health and sanitation inspections, pre and post 
        interrogation health assessments; and coordination of medical 
        evacuations in accordance with the Geneva Convention.
  --June 2005 saw 4th MLG provide the nucleus staff for the provisional 
        6th Civil Affairs Group.
Fourth Marine Aircraft Wing
    Fourth Marine Aircraft Wing (MAW) units participated in a wide 
variety of operations in locations across the country and around the 
world in support of the Global War on Terror.
    Operation Iraqi Freedom activations consisted of units in their 
entirety, detachments, as well as individual augments providing 
invaluable support to the active component in the conduct of these 
operations. Marine Fighter/Attack Squadron 142 deployed 12 F/A-18 A+ 
Hornet aircraft in support of OIF, where they accomplished 100 percent 
of their tasked sortie requirements. These assets were the first 4th 
MAW F/A-18s to deploy in support of OIF and the first Marine F/A-18 A+ 
to deploy the Advanced Targeting Pod (LITENING) in a combat 
environment. Marine Medium Helicopter Squadron (HMM) 764 and HMM 774 
deployed to Iraq in support of OIF for their second tour. The 
deployment of these units required the transfer of 19 aircraft from 
east to west coast to facilitate training of the unit that was CONUS 
based while the other deployed. This monumental task was accomplished 
safely and efficiently. Marine Light Attack Squadron (HMLA) 775 
returned from Iraq and immediately went to work accepting 16 AH-1W and 
9 UH-1N aircraft from 3rd MAW. Immediately upon acceptance, they 
transferred six of the AH-1Ws and four of the UH-1Ns to HMLA-775 
Detachment A, which then repositioned all aircraft to Johnstown, 
Pennsylvania. Additionally, Heavy Marine Helicopter Squadron (HMH) 772 
was chosen to conduct the initial Night Vision Goggle (NVG) flight 
training evolution designed for Navy MH-53E aircrew, in preparation for 
their deployment in support of Operation Iraqi Freedom. This marked the 
first time Navy MH-53 pilots were trained on NVGs in a desert 
environment. Marine Air Control Group (MACG) 48 provided numerous 
detachments, including air traffic controllers, to support the OIF. 
Marine Wing Support Group (MWSG) 47 provided continual ground refueling 
support to OEF, and ongoing detachments of engineers, refuelers, and 
firefighters to OIF.
    Hurricane Katrina made landfall on August 29, 2005 east of New 
Orleans. As a result of the ensuing devastation to the gulf coast 
region, HMH-772 was the first marine squadron to participate in rescue 
efforts in New Orleans on August 31, 2005. The unit deployed four 
aircraft, which transported 348,000 lbs of cargo, 1,053 passengers, and 
720 evacuees. Marine Aerial Refueler Transport Squadrons (VMGR) 234 and 
452 and their KC-130 aircraft provided direct support to Special 
Purpose Marine Air/Ground Task Force (SPMAGTF) Katrina in the form of 
troop, cargo lift and humanitarian assistance to the gulf coast region: 
1,562 passengers and 1.5 million pounds of cargo were transported 
during 263 sorties totaling 535 hours. They also performed the same 
mission during the aftermath of Hurricanes Rita and Wilma. In addition 
to HMH-772, HMLA-773 provided direct support to SMAGTF Katrina in the 
form of civilian evacuation and humanitarian relief, operating out of 
Eglin AFB and NAS JRB New Orleans. MACG-48 and MWSG-47 brought their 
own specialized assistance in the form of aircraft controllers and 
logistical support. Fourth MAW continued to support Katrina relief 
efforts until October 2005.

                         ACTIVATION PHILOSOPHY

    Reserve forces have been sustained consistent with Total Force 
Marine Corps planning guidance. This guidance continues to be based on 
a 12-month involuntary activation with a 7 month deployment, followed 
by a period of dwell time and, if required and approved, a second 12-
month involuntary reactivation and subsequent 7 month deployment. This 
force management practice has provided well balanced and cohesive units 
within Marine Forces Reserve, ready for sustained employment and 
warfighting. This activation philosophy has proved to be an efficient 
and effective use of our Reserve Marines' 24-month cumulative 
activation time limit.

                           ACTIVATION IMPACT

    As of December 2005, the Marine Corps Reserve began activating 
approximately 2,200 Selected Marine Corps Reserve (SMCR) Marines in 
support of the next Operation Iraqi Freedom rotation and 290 SMCR 
Marines in support of Operation Enduring Freedom. Even with judicious 
use of our assets and coordinated planning, the personnel tempo has 
increased. As the Members of this committee know, Reserve Marines are 
students or have civilian occupations that are also very demanding, and 
are their primary careers. In total, approximately 5,464 Reserve 
Marines have been activated more than once; about 1,875 of whom are 
currently activated. As of April 2006, approximately 61 percent of the 
current SMCR unit population and 72 percent of the current Individual 
Mobilization Augmentee (IMA) population have been activated at least 
once. About 2.8 percent of our current Individual Ready Reserve (IRR) 
population is deployed in support of OIF/OEF. If you include the number 
of marines who previously deployed in an active status who have since 
transferred to the IRR, the number reaches 57 percent. This is worth 
particular note as the IRR provides needed depth and capability. 
Volunteers from the IRR and from other Military Occupational 
Specialties, such as artillery, have been cross-trained to reinforce 
identified critical specialties such as civil affairs and linguists.
    Although supporting the GWOT is the primary focus of the Marine 
Corps Reserve, other functions, such as pre-deployment preparation and 
maintenance, recruiting, training, facilities management and long term 
planning continue. The wise use of the Active Duty Special Work (ADSW) 
program allows the Marine Corps to fill these short-term requirements 
with Reserve Marines. For example, as of this month almost 4,600 
marines are on active duty under this program. Continued support and 
funding for this critical program will enhance flexibility, thereby 
ensuring our total force requirements are met.

                   MARINE CORPS RESERVE CAPABILITIES

    The Marine Corps Reserve recognizes the fiscal and security 
environment of today and the future demands required to remain 
effective, relevant and capable in support of the Total Force and 
Combatant Commanders. To this end, we have been active participants in 
the 2004 Force Structure Review Group and presently, the Capabilities 
Assessment Group. Both initiatives, discussed in the ensuring 
paragraphs, will better posture Marine Forces Reserve with a lethal 
spectrum of capabilites to support irregular and traditional warfare.
Force Structure Review Group 2004 (FSRG 04)
    FSRG 04 convened in April-May 2004 to rebalance Marine Corps total 
force capabilities for sustained support to OIF and OEF. The effort was 
end-strength and structure neutral--with proposed new capabilities 
offset by reductions in lower priority, underused capabilities. A key 
rationale for the effort included the necessity to build more 
sustainable capabilities in job skill areas experiencing high demand 
and high personnel tempo rates. In last year's testimony we reported 
the results of FSRG 04, which called for decreasing Reserve Component 
anti-aircraft, artillery, tank, and tactical aviation capability while 
increasing anti-terrorism, civil affairs, intelligence, light armored 
reconnaissance, and mortuary affairs capabilities within the reserve 
component over a 3 year period (fiscal year 2005-07). Executing these 
actions while simulaneously supporting OEF and OIF commitments is 
challenging, and involves close collaboration among force structure, 
manpower, training, operations, logistics, facility, and fiscal 
planners. fiscal year 2006 contains the preponderance of actions which 
are well underway and by the end of fiscal year 2007, will better 
posture the reserve component to sustain the Long War.
Base Realignment And Closure 2005 (BRAC 05)
    BRAC 05 moves us toward our long-range strategic infrastructure 
goals through efficient joint ventures and increased training center 
utilization without jeopardizing our community presence. In cooperation 
with other reserve components, notably the Army Reserve and the Army 
National Guard, we developed Reserve basing solutions that further 
reduce restoration and modernization backlogs and AT/FP vulnerability. 
Twenty-three of the 25 BRAC recommendations affecting the Marine Corps 
Reserve result in joint basing of our units. Implementation of these 
recommendations will be a challenge across the Future Years Defense 
Program. Of the other two, the Federal City in New Orleans appears both 
promising and challenging and we look forward to working with the State 
and local governments in this unique venture. The final BRAC-
recommended move is from a Navy-hosted facility in Encino, California, 
to a Marine Corps Reserve-owned facility in Pasadena, California.

                               EQUIPMENT

    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the GWOT while simultaneously resetting and 
modernizing the Force to prepare for future challenges. Our priorities 
in support of the first challenge are to provide every deploying 
Reserve Marine with the latest generation individual combat and 
protective equipment; second, to procure essential communications 
equipment; third, to procure simulation devices that provide our 
marines with essential training and enhance survivability in hostile 
environments; and fourth, to provide adequate funding to O&M accounts. 
Our priorities in support of resetting and modernizing the Force 
include the procurement and fielding of light armored vehicles to 
outfit two new Light Armored Reconnaissance Companies, filling our 
remaining communications equipment shortfalls, and adequately funding 
upgrades to our legacy aircraft.
Training Allowance
    The total wartime equipment requirement for Marine Corps units is 
called the Table of Equipment (T/E). For Marine Forces Reserve, the T/E 
consists of two parts: a Training Allowance (T/A) and In-Stores assets. 
The T/A is the equipment our units maintain at their training sites. 
Our units have established training allowances that is, on average, 
approximately 80 percent of the established T/E. This equipment 
represents the minimum needed by the unit to maintain the training 
readiness necessary to deploy, while at the same time is within their 
ability to maintain under routine conditions. The establishment of 
training allowances allows Marine Forces Reserve to better cross-level 
equipment to support CONUS training requirements of all units of the 
Force with a minimal overall equipment requirement. The amount of T/A 
each unit has is determined by training requirements, space 
limitations, and staffing levels at the unit training sites. This 
construct requires the support of the Service to ensure that the 
``delta'' between a unit's T/A and T/E is available in the event of 
mobilization and deployment. The current Headquarters Marine Corps 
policy of retaining needed equipment in theater for use by deploying 
forces ensures that mobilized Marine Forces Reserve units will have the 
primary end items necessary to conduct their mission.
    The types of equipment held by Reserve Training Centers are the 
same as those held within the active component. However, as a result of 
the aforementioned movement of equipment into theater as well as the 
Marine Corps' efforts to cross-level equipment inventories to support 
home station shortfalls (both active and reserve), Marine Forces 
Reserve will experience selected equipment shortfalls, particularly 
communications and electronic equipment. This shortfall will be 
approximately 10 percent across the Force in most areas, and somewhat 
greater for certain low density ``big-box'' type equipment sets. The 
shortfall will not preclude essential sustainment training within the 
Force. Shortfalls are being mitigated over time by equipment procured 
through the fiscal year 2005 Emergency Supplemental as well as fiscal 
year 2005 and fiscal year 2006 National Guard and Reserve Equipment 
Appropriations.
Individual Marine Equipment
    As with all we do, our top focus is the individual marine and 
sailor. Our efforts to equip and train this most valued resource have 
resulted in obtaining the latest generation individual combat and 
protective equipment: M4 rifles, Advanced Combat Optic Gunsight (ACOG) 
rifle scopes, lower body armor, and night vision goggles, to name a 
few. I am pleased to report that every member of Marine Forces Reserve 
deployed over the past year in support of the Global War on Terror, as 
well as those currently deployed in harm's way, were fully equipped 
with the most current individual combat clothing and equipment and 
individual protective equipment. Your continued support of current 
budget initiatives will ensure we are able to properly equip our most 
precious assets--our individual marines.
Ground Equipment
    The ground equipment readiness (mission capable) rates of our 
deployed forces average above 95 percent. This has been accomplished by 
tapping into pre-positioned stocks in Norway and Maritime Prepositioned 
Shipping, through organic maintenance capabilities, contractor support, 
leveraging the Army ground depot capability, an established principal 
end item rotation plan, and the established pool of ground equipment 
(Forward In-Stores) which expedites the replacement of damaged major 
end items. The corresponding ground equipment readiness (mission 
capable) rates for non-deployed units average 85 percent, although we 
do have shortages in home station equipment available for training due 
to ``cross-leveling'' equipment in support of GWOT. Equipment that has 
been cross-leveled to OIF includes communications equipment, crew-
served weapons, optics, and a reserve infantry battalion's equipment 
set.
    The harsh operating environments found in Afghanistan and Iraq, 
coupled with the weight of added armor and unavoidable delays of 
scheduled maintenance due to combat, is degrading the Corps' equipment 
at an accelerated rate. With GWOT equipment usage rates ranging from 
four to nine times normal peacetime usage depending on the end item, 
hours/miles, and operational conditions, maintaining current readiness 
levels will require extensive maintenance efforts, particularly for any 
major end items returned to CONUS.
Aviation Equipment
    The Marine Corps Reserve operates and maintains a diverse but aging 
inventory of aircraft including: AH-1W Cobras, CH-46E Sea Nights, CH-
53E Super Stallions, F-5 Tiger Sharks, KC-130T Hercules, F/A-18A 
Hornets, UH-1N Hueys, and Operational Support Airlift aircraft 
consisting of UC-12 King Airs and UC-35 Citations. The average age of 
our tactical aircraft is: CH-46E: 38 years; UH-1N: 34 years; F-5: 29 
years; F/A-18A: 21 years; KC-130T: 19 years; CH-53E: 17 years; AH-1W: 
12 years.
    The harsh operating environments in Afghanistan and Iraq--extreme 
temperatures, high altitudes, corrosive desert environment--have 
created maintenance challenges, negatively affected the normal expected 
service life of our rotary wing fleet, and accelerated the aging of the 
inventory. The CH-46, for example, has been utilized in support of OIF 
at 200 percent of its peacetime usage rate. With no active production 
lines for our rotary wing aircraft, maintaining our inventory in a 
mission capable status has been accomplished through an ever increasing 
workload on our enlisted maintainers, yet despite difficult 
circumstances they continue to excel. The aviation equipment readiness 
(mission capable) rates of our deployed forces averaged 82 percent over 
the past 12 months. The corresponding rate of units remaining in 
garrison averaged 74 percent over the same period.
    The President's budget request provides limited modernization 
dollars for Marine Corps Reserve (and Navy Reserve) aircraft: $2.6 
million for Adversary Aircraft (F-5 & USN F-16), $7.1 million for H-53 
series aircraft, and $30.3 million for cargo/transport aircraft (e.g., 
KC-130T, UC-12, UC-35). Selective aircraft modernization needs 
identified in the fiscal year 2007 National Guard and Reserve Equipment 
Report and elsewhere include: AH-1W critical cockpit upgrade, CH-46 
crashworthy crew chief seats, KC-130T Defensive Electronic 
Countermeasures (DECM) and Night Vision Lighting (NVL) upgrade. With no 
new aircraft slated for delivery to the Marine Corps Reserve, it is 
essential that procurement funding continue for selective upgrade and 
modernization of legacy aircraft, as well as adequately funding the O&M 
account.
    We have mitigated aircraft reset requirements as much as possible 
through specific aircraft modifications, proactive inspections and 
corrective maintenance; however, significant reset efforts exist. 
Additional requirements for depot level maintenance on airframes, 
engines, weapons, and support equipment will continue well after 
hostilities end and our aircraft have returned to their home stations. 
Assuming no top-line increase, the magnitude of the aviation reset 
requirement cannot be accomplished within the procurement account of 
the President's budget without having detrimental impacts elsewhere 
within the Marine Corps. We greatly appreciate the support of Congress 
in providing past supplemental appropriations.
    Marine aviation is poised to undergo significant transformation 
over the next 10 years. The initial impact to the Marine Corps Reserve 
is slated to occur during fiscal year 2007 when one Reserve F/A-18A 
squadron is programmed to deactivate. Coupled with the fiscal year 2005 
deactivation of another Reserve F/A-18A squadron stemming from the 
Department of the Navy's Tactical Aviation (TACAIR) integration 
initiative, two Reserve F/A-18A squadrons will remain after fiscal year 
2007.
National Guard And Reserve Equipment Appropriation (NGREA)
    NGREA continues to provide invaluable support in providing 
interoperable, state-of-the-art equipment to our Reserve Marines, the 
Total Force and the ultimate customer--the Combatant Commanders. In 
fiscal year 2005, NGREA provided $50 million ($40 million for Title III 
and $10 million under Title IX) which is presently being obligated to 
procure high priority aviation and ground needs such as: Aviation 
Survivability Equipment (ASE) for AH-1W aircraft, Helicopter Night 
Vision Systems (HNVS) for CH-53E aircraft, light weight troop seats for 
CH-46 aircraft, SATCOM radios for KC-130T aircraft; significant 
quantities of communication equipment including: Integrated Intra-Squad 
Radios (IISR); PRC-117s, PRC-148s, PRC-150s; simulation devices 
including: Indoor Simulated Marksmanship Trainer-Enhanced, Virtual 
Combat Convoy Trainer, MTVR Training Simulator; and other miscellaneous 
equipment including: Night Vision Systems, Laser Target Designators; 
Counterintelligence HUMINT Equipment Suite (CIHEP) and power 
distribution systems.
    Fiscal year 2006 NGREA provided $30 million, which was released to 
the Marine Corps for obligation in March 2006. Again focused on 
supporting current warfighter needs, this funding will procure 
communications equipment including PRC-148s and Improved Intra-Squad 
Radios, multiple simulation devices including: Virtual Combat Convoy 
Trainers, LAV Combat Vehicle Training Simulators, a Medium Tactical 
Vehicle Replacement--Training System (MTVR-TS), and other miscellaneous 
equipment including: Ground Laser Target Designators, In-Transit 
Visibility Management Package/RFID Tags, Defense Advanced GPS 
Receivers, Marine Expeditious Power Distribution Systems, CIHEP and 
alternate power supplies.
    Given the urgency of fielding this equipment to our mobilizing and 
deploying marines, we coordinate with Marine Corps Systems Command and 
other executing agencies to ensure NGREA is placed on contract and 
delivered as soon as possible.

                        RECRUITING AND RETENTION

    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and the Corps. Recruiting and retention goals were 
met in fiscal year 2005, but the long-term impact of recent activations 
is not yet known. Despite the high operational tempo, the morale and 
patriotic spirit of Reserve Marines, their families and employers 
remains extraordinarily high.
    At the end of fiscal year 2005, the Marine Corps' Selected Reserve 
was over 39,600 strong. Part of this population is comprised of Active 
Reserve Marines, Individual Mobilization Augmentees, and Reserve 
Marines in the training pipeline. Additionally, nearly 60,000 marines 
serve as part of the Individual Ready Reserve, representing a 
significant pool of trained and experienced prior service manpower. 
Reserve Marines bring to the table not only their Marine Corps skills 
but also their civilian training and experience as well. The presence 
of police officers, engineers, lawyers, skilled craftsmen, business 
executives, and the college students who fill our Reserve ranks serves 
to enrich the Total Force. The Marine Corps appreciates the recognition 
given by Congress to employer relations, insurance benefits, and family 
support. Such programs should not be seen as ``rewards'' or 
``bonuses,'' but as investment tools that will sustain the Force in the 
years ahead.
    Support to the GWOT has reached the point where 70 percent of the 
current Marine Corps Reserve officer leadership has deployed at least 
once. Nevertheless, the Marine Corps Reserve is currently achieving 
higher retention rates than the benchmark average from the prior 3 
fiscal years. As of January 2006 the OSD attrition statistic for Marine 
Corps Selected Reserve officers is 8.4 percent compared to the current 
benchmark average of 11.7 percent. For the same time period, Reserve 
unit enlisted attrition is 6.2 percent compared to an 8.5 percent 
benchmark average.
    In fiscal year 2005, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,921) and 
exceeded its goal for prior service recruiting (3,132). For our Reserve 
component, junior officer recruiting remains the most challenging area. 
We are expanding Reserve commissioning opportunities for our prior-
enlisted marines in order to grow some of our own officers from Marine 
Forces Reserve units and are exploring other methods to increase the 
participation of company grade officers in the Selective Marine Corps 
Reserve. We are also developing some bold new changes in our junior 
officer accession programs and expect to incorporate some of the 
changes during fiscal year 2007 and plan to fill 90 percent of our 
company grade officer billets by fiscal year 2011. We thank Congress 
for the continued support of legislation to allow bonuses for officers 
in the Selective Marine Corps Reserve who fill a critical skill or 
shortage. We are aggressively implementing the Selected Reserve Officer 
Affiliation Bonus program and expect it to fill fifty vacant billets 
this year, with plans to expand the program in the coming years.

                            QUALITY OF LIFE

    Our future success will rely on the Marine Corps' most valuable 
asset--our marines and their families. We believe it is our obligation 
to arm our marines and their families with as much information as 
possible on the programs and resources available to them. Providing 
information on education benefits, available childcare programs, family 
readiness resources and health care benefits enhances their quality of 
life and readiness.
Education
    Last year, you heard testimony from my predecessor that there were 
no laws offering academic and financial protections for Reserve 
military members who are college students. I am glad to see that there 
is movement in Congress to protect our college students and offer 
greater incentives for all service members to attend colleges. I 
appreciate Congress's efforts in protecting a military member's college 
education investments and status when called to duty.
    More than 1,300 Marine Forces Reserve Marines and sailors chose to 
use tuition assistance in fiscal year 2005 in order to help finance 
their education. This tuition assistance came to more than $3 million 
in fiscal year 2005 for more than 4,200 courses. Many of these marines 
were deployed to Afghanistan and Iraq and participated in their courses 
via distance learning. In this way, tuition assistance helped to 
mitigate the financial burden of education and facilitated progress in 
the marine's planned education goals. We support continued funding of 
tuition assistance as currently authorized for activated Reserves. I 
fully support initiatives that will increase G.I. Bill benefits for 
Reserve and National Guard service members, as they are key retention 
and recruiting tools and an important part of our commandant's guidance 
to enhance the education of all marines. The 2005 National Defense 
Authorization Act included a new education assistance program for 
certain Reserve and National Guard Service members. I heartily thank 
you for this initiative and its implementation by the Department of 
Veterans Affairs, as it has positively impacted the quality of life for 
Marine Reservists and other service members.
Child Care Programs
    Marines and their families are often forced to make difficult 
choices in selecting childcare before, during and after a marine's 
deployment in support of the Global War on Terror. We are deeply 
grateful for ``Operation Military Child Care,'' a joint initiative 
funded by the Department of Defense and operated through cooperative 
agreements with the Boys and Girls Clubs of America, and the National 
Association of Child Care Resource and Referral Agencies. Without the 
fiscal authorization provided by the Senate and House, these programs 
could not have been initiated or funded. These combined resources have 
immeasurably contributed to the quality of life of our marines' and 
their families. I thank you all for your support in the past and the 
future in providing sufficient funds for these key initiatives.
Family Readiness
    Everyone in Marine Forces Reserve recognizes the strategic role our 
families have in our mission readiness, particularly in our 
mobilization preparedness. We help our families to prepare for day-to-
day military life and the deployment cycle (Pre-Deployment, Deployment, 
Post-Deployment, and Follow-On) by providing educational opportunities 
at unit Family Days, Pre-Deployment Briefs, Return and Reunions, Post-
Deployment Briefs and through programs such as the Key Volunteer 
Network (KVN) and Lifestyle Insights, Networking, Knowledge and Skills 
(L.I.N.K.S.). We also envision the creation of Regional Quality of Life 
Coordinators, similar to the Marine Corps Recruiting Command program, 
for our Reserve Marines and their families.
    At each of our Reserve Training Centers, the KVN program serves as 
the link between the command and the family members, providing them 
with official communication, information and referrals. The key 
volunteers, many of whom are parents of young, un-married marines, 
provide a means of proactively educating families on the military 
lifestyle and benefits, provide answers for individual questions and 
areas of concerns and, perhaps most importantly, enhance the sense of 
community within the unit. The L.I.N.K.S. program is a spouse-to-spouse 
orientation service offered to family members to acquaint them with the 
military lifestyle and the Marine Corps, including the challenges 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S 
makes this valuable tool more readily accessible to families of Reserve 
Marines not located near Marine Corps installations.
    Military One Source is another important tool that provides marines 
and their families with around-the-clock information and referral 
service for subjects such as parenting, childcare, education, finances, 
elder care, health, wellness, deployment, crisis support and relocation 
via toll-free telephone and Internet access.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector and Instructor staff use all these tools to provide 
families of activated or deployed marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. All of these programs 
depend on adequate funding of our manpower and O&M accounts.
Managed Health Network
    Managed Health Network, through a contract with the Department of 
Defense, is providing specialized mental health support services to 
military personnel and their families. This unique program is designed 
to bring counselors on-site at Reserve Training Centers to support all 
phases of the deployment cycle. Marine Forces Reserve is incorporating 
this resource into Family Days, Pre-Deployment Briefs and Return & 
Reunion Briefs and further incorporating them in the unfortunate event 
of significant casualty situations. Follow-up services are further 
scheduled after marines return from combat at various intervals to 
facilitate on-site individual and group counseling.
Tricare
    Since 9/11, Congress has gone to great lengths to improve TRICARE 
benefits available to the Guard and Reserve and we are very 
appreciative to Congress for all the recent changes to the program. 
Since April 2005, TRICARE Reserve Select has been providing eligible 
Guard and Reserve veterans with comprehensive health care. This new 
option, similar to TRICARE Standard, is designed specifically for 
Reserve members activated on or after September 11, 2001 who enter into 
an agreement to serve continuously in the Selected Reserve for a period 
of 1 or more years. Participation in the program has greatly benefited 
those Reserve Marines who have served and who continue to serve. This 
provides optional coverage for Selected Reserves after activation, at 
the rate of 1 year of coverage while in non-active duty status for 
every 90 days of consecutive active duty. The member must agree to 
remain in the Selected Reserve for 1 or more whole years. Also, a 
permanent earlier eligibility date for coverage due to activation has 
been established at up to 90 days before an active duty reporting date 
for members and their families.
    The new legislation also waives certain deductibles for activated 
members' families. This reduces the potential double payment of health 
care deductibles by members' civilian coverage. Another provision 
allows the DOD to protect the beneficiary by paying providers for 
charges above the maximum allowable charge. Transitional health care 
benefits have been established, regulating the requirements and 
benefits for members separating. We are thankful for these permanent 
changes that extend healthcare benefits to family members and extend 
benefits up to 90 days prior to their activation date and up to 180 
days after de-activation.
    Reserve members are also eligible for dental care under the Tri-
Service Dental Plan for a moderate monthly fee. In an effort to 
increase awareness of the new benefits, Reserve members are now 
receiving more information regarding the changes through an aggressive 
education and marketing plan. These initiatives will further improve 
the healthcare benefits for our Reserves and National Guard members and 
families.
Casualty Assistance
    One of the most significant responsibilities of the site support 
staff is that of casualty assistance. Currently, Marine Forces Reserve 
conducts approximately 93 percent of all notifications and follow-on 
assistance for the families of our fallen Marine Corps brethren. In 
recognition of this greatest of sacrifices, there is no duty that we 
treat with more importance. However, the duties of our casualty 
assistance officers go well beyond notification. We ensure they are 
adequately trained, equipped, and supported by all levels of command. 
Once an officer or staff noncommissioned officer is designated as a 
casualty assistance officer, he or she assists the family members in 
every possible way, from planning the return and final rest of their 
marine, counseling them on benefits and entitlements, to providing a 
strong shoulder when needed. The casualty officer is the family's 
central point of contact, serving as a representative or liaison with 
the media, funeral home, government agencies or any other agency that 
may be involved. Every available asset is directed to our marine 
families to ensure they receive the utmost support. This support 
remains in place as long after the funeral and is maintained regardless 
of personnel turnover. The Marine Corps Reserve also provides support 
for military funerals for veterans of all services. The marines at our 
reserve sites performed more than 7,500 funerals in calendar year 2005.
Marine For Life
    Our commitment to take care of our own includes a marine's 
transition from honorable military service back to civilian life. 
Initiated in fiscal year 2002, the Marine For Life program is available 
to provide support for the approximately 27,000 marines transitioning 
from active service back to civilian life each year. Built on the 
philosophy, ``Once a Marine, Always a Marine,'' Reserve Marines in over 
80 cities help transitioning marines and their families to get settled 
in their new communities. Sponsorship includes assistance with 
employment, education, housing, childcare, veterans' benefits and other 
support services needed to make a smooth transition. To provide this 
support, the Marine For Life program taps into a network of former 
marines and marine-friendly businesses, organizations, and individuals 
willing to lend a hand to a marine who has served honorably. 
Approximately 2,000 marines are logging onto the web-based electronic 
network for assistance each month, and more than 30,000 marines have 
been assisted since January 2004. Assistance from career retention 
specialists and transitional recruiters helps transitioning marines by 
getting the word out about the program.
Employer Support
    Members of the Guard and Reserve who choose to make a career must 
expect to be subject to multiple activations. Employer support of this 
fact is essential to a successful activation and directly effects 
retention and recruiting. With continuous rotation of Reserve Marines, 
we recognize that the rapid deactivation process is a high priority to 
reintegrate marines back into their civilian lives quickly and properly 
in order to preserve the Reserve force for the future. To that end we 
enthusiastically support the efforts of the National Committee of the 
Employer Support of the Guard and Reserve (ESGR) and have joined with 
them in Operation Pinnacle Advance, which seeks to further develop 
personal relationships with our marines' employers.

                               CONCLUSION

    As I have stated in the beginning of my testimony, your consistent 
and steadfast support of our marines and their families has directly 
contributed to our successes, both past and present, and I thank you 
for that support. As we push on into the future, your continued concern 
and efforts will play a vital role in the success of Marine Forces 
Reserve. Due to the dynamics of the era we live in, there is still much 
to be done.
    The Marine Corps Reserve continues to be a vital part of the Marine 
Corps Total Force Concept. Supporting your Reserve Marines at the 185 
sites throughout the United States, by ensuring they have the proper 
facilities, equipment and training areas, enables their selfless 
dedication to our country. Since 9/11, your Marine Corps Reserve has 
met every challenge and has fought side by side with our active 
counterparts. No one can tell the difference between the active and 
reserve--we are all marines.
    The consistent support from Congress for upgrades to our 
warfighting equipment has directly affected the American lives saved on 
the battlefield. However, as I stated earlier, much of the same 
equipment throughout the force has deteriorated rapidly due to our 
current operational tempo.
    As I have stated earlier, NGREA continues to be extremely vital to 
the health of the Marine Corps Reserve, assisting us in staying on par 
with our active component. We have seen how the NGREA directly improved 
our readiness in recent operations, and we look forward to your 
continued support of this key program.
    My final concerns are for Reserve and Guard members, their families 
and employers who are sacrificing so much in support of our Nation. 
Despite strong morale and good planning, we understand that activations 
and deployments place great stress on these praiseworthy Americans. 
Your continued backing of ``quality of life'' initiatives will help 
sustain Reserve Marines in areas such as education benefits, medical 
care and family care.
    My time thus far leading Marine Forces Reserve has been 
tremendously rewarding. Testifying before congressional committees and 
subcommittees is a great pleasure, as it allows me the opportunity to 
let the American people know what an outstanding patriotic group of 
citizens we have in the Marine Corps Reserve. Thank you for your 
continued support.
                                 ______
                                 
       Biographical Sketch of Lieutenant General Jack W. Bergman

    Lieutenant General Bergman was commissioned a second lieutenant in 
the Marine Corps Reserve under the Platoon Leader School program after 
graduation from Gustavus Adolphus College in 1969. In addition to 
attaining an M.B.A. degree from the University of West Florida, his 
formal military education includes Naval Aviation Flight Training, 
Amphibious Warfare, Command and Staff, Landing Force Staff Planning 
(MEB & ACE), Reserve Component National Security, Naval War College 
Strategy & Policy, Syracuse University National Security Seminar, 
Combined Forces Air Component Command, LOGTECH, and CAPSTONE.
    He flew CH-46 helicopters with HMM-261 at Marine Corps Air Station, 
New River, North Carolina, and with HMM-164 in Okinawa/Republic of 
Vietnam. Assigned as a flight instructor, he flew the T-28 with VT-6, 
NAS Whiting Field, Florida. He left active duty in 1975 and flew UH-1 
helicopters with the Rhode Island National Guard, Quonset Point, Rhode 
Island. Following a 1978 civilian employment transfer to Chicago, 
Illinois, he served in several 4th Marine Aircraft Wing units at NAS 
Glenview, Illinois (HML-776, flying the UH-1; VMGR-234, flying the KC-
130; and Mobilization Training Unit IL-1). He was selected to stand up 
the second KC-130 squadron in 4th MAW and, in 1988, became the first 
Commanding Officer, VMGR-452, Stewart ANGB, Newburgh, New York, 1992-
1994 he commanded Mobilization Station, Chicago, Illinois, the largest 
of the 47 Marine Corps Mobilization Stations.
    During 1995 he served as a Special Staff Officer at Marine Corps 
Reserve Support Command, Overland Park, Kansas. In 1996, he became 
Chief of Staff/Deputy Commander, I Marine Expeditionary Force 
Augmentation Command Element, Camp Pendleton, California. Late 1997, he 
transferred to 4th Marine Aircraft Wing Headquarters, New Orleans, 
Louisiana to serve as Assistant Chief of Staff/G-1. Promoted to 
Brigadier General, he became Deputy Commander, 4th Marine Aircraft 
Wing.
    Transferred in June 1998 to Headquarters, Marine Forces Europe, 
Stuttgart, Germany he served as Deputy Commander. Recalled to active 
duty from April to July 1999, he was dual-hatted as EUCOM, Deputy J-3A. 
He then commanded II Marine Expeditionary Force Augmentation Command 
Element, Camp Lejeune, North Carolina until assuming command of 4th 
Marine Aircraft Wing, New Orleans, Louisiana in August 2000. In 
September 2002 he assumed command of the 4th Force Service Support 
Group, New Orleans, Louisiana. He, also, served as Chairman, Secretary 
of the Navy' Marine Corps Reserve Policy Board, 2001-2003.
    Returning to active duty in October 2003, he served as Director, 
Reserve Affairs, Quantico, Virginia. He assumed command of Marine 
Forces Reserve/Marine Forces North on June 10, 2005.
    Lieutenant General Bergman's personal decorations include the 
Defense Meritorious Service Medal, Single Mission Air Medal with Combat 
``V'' and Air Medal with numeral ``1''.

    Senator Stevens. General Bradley.

STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE, DEPARTMENT OF THE AIR 
            FORCE
    General Bradley. Senator Stevens, it is a pleasure to be 
here with you today, sir. I am very proud of our Air Force 
Reserve airmen who are serving this Nation. Many have served, 
thousands have served in Iraq and Afghanistan. Hundreds of them 
helped with Hurricane Katrina relief saving over 1,000 lives.
    Many have been responsible for what Senator Mikulski 
mentioned earlier about evacuating severely wounded soldiers 
and marines. In fact, most of the aeromedical evaculation 
capability of the United States Air Force is in the Air Force 
Reserve, and it was only in the last month that we lost the 
first soldier in flight. So for over 4 years we have kept all 
of those soldiers alive in flight, and that is a challenge, but 
the great medical progress we have made has allowed that, and 
it is the dedication of our wonderful aeromedical crews that 
has helped bring that about.
    I want to thank you and Senator Inouye and the other 
members of the subcommittee for the great support that we get 
for our Air Force Reserve. The National Guard and Reserve 
equipment account has allowed us to bring great combat 
capability to the skies of Iraq and Afghanistan to support 
soldiers and marines on the ground with great systems that 
provide for close air support. I want to thank you for that 
great support. It has been key, as General Ickes said earlier, 
to modernizing and enhancing our aircraft to keep us relevant 
and useful to our Nation.
    Thank you, sir.
    Senator Stevens. Thank you. I see you were deputy chief at 
Bergstrom. That is the last place I served in the continental 
limits before I went to China.
    General Bradley. Yes, sir.
    [The statement follows:]

        Prepared Statement of Lieutenant General John A. Bradley

    Mr. Chairman, and distinguished Members of the committee, I 
appreciate the opportunity to appear before you today. I want to thank 
you for the support you have continued to show us these past few years 
and I am happy to report it's making a difference for our forces and 
our Nation. Recently, at a Reserve Chiefs' hearing, we were asked how 
Guard and Reserve members compare to active duty when they are 
mobilized. Because of your committee's continued legislative support, 
we unanimously replied that when a Guard or Reserve member is activated 
they are indistinguishable from the Regular Air Force.
    We anticipate last year's provision to expand Selected Reserve 
member eligibility under TRICARE standard will increase medical 
readiness for mobilization. With so much attention on mobilization we 
appreciate the committee's interest in initiatives that encourage 
volunteerism because the Air Force Reserve relies heavily upon this 
means of support to meet contingency and operational requirements. In 
particular, eliminating Basic Allowance for Housing (BAH) rate 
difference for orders greater than 30 days addresses a long standing 
issue that Reserve members have identified as a deterrent to 
volunteerism. Another barrier was eliminated with support of authorized 
absences of members for which lodging expenses at temporary duty 
location must be paid. This change applied the active duty standard to 
Guard and Reserve members when they are on active duty orders. In the 
coming year we will continue to seek ways to facilitate volunteerism as 
the primary means of providing the unrivaled support on which the Air 
Force has come to rely.

                       MISSION CONTRIBUTIONS 2005

    Air Force Reserve accomplishments since September 11, 2001, and 
more specifically in the last fiscal year, clearly demonstrate that the 
Air Force Reserve is a critical component in the security of our 
Nation. The Air Force Reserve has made major contributions to the 
Global War on Terror (GWOT) with more than 80,000 sorties (360,000 
flying hours) flown in support of Operations Noble Eagle, Enduring 
Freedom and Iraqi Freedom. The Air Force Reserve has flown almost 
52,000 sorties in support of Operation Iraqi Freedom since 2003, with 
14,658 of those (55,781 flying hours) in fiscal year 2005. Our Air 
Force Reserve members have flown more than 28,000 sorties in support of 
Operation Enduring Freedom since 2002, contributing 5,328 sorties 
(25,409 flying hours) in fiscal year 2005. Here at home, the Air Force 
Reserve has flown more than 10,000 sorties supporting the vital Noble 
Eagle mission since 2002; 150 sorties (906 flying hours) in fiscal year 
2005. These contingency support missions include fighter support, 
Combat Search and Rescue, Special Operations, Aerial Refueling and 
Tactical and Strategic Airlift--mirroring and in conjunction with Total 
Force operations. This past year, C-130 and C-17 aircraft flew the 
majority of Air Force Reserve missions in the AOR. As you may know, 61 
percent of the Air Force's C-130 aircraft are assigned to the Air 
Reserve Components. On a recent trip, Senator Lindsey Graham witnessed 
the preponderance of Reserve Component airlift first hand and mentioned 
it at the Guard and Reserve Commission hearing on March 8, 2006. 
Senator Graham stated of the 20 sorties he flew in the OEF and OIF area 
of responsibility, only one sortie was flown by an active duty crew!

                      HOMELAND CONTINGENCY SUPPORT

    Our humanitarian efforts are equally as impressive as our wartime 
operations. The onslaught of hurricane strikes to the coastal United 
States in 2005 required a response unlike anything seen in our modern 
history. The Air Force Reserve was fully engaged in emergency efforts; 
from collecting weather intelligence on the storms, to search and 
rescue, and aeromedical and evacuation airlift. Hurricanes Katrina, 
Ophelia, Rita and Wilma drew heavily on the expert resources of our 
component to assist in relief efforts. Almost 1,500 Air Force Reserve 
personnel responded to these efforts within 24 hours, including members 
from the 926th Fighter Wing at NAS New Orleans, Louisiana and the 403rd 
Wing at Keesler Air Force Base, Mississippi who were struggling to 
protect their own unit's resources from storm damage.
    Two units that stood especially tall amongst our Reservists were 
the 53rd Weather Reconnaissance Squadron, also known as the Hurricane 
Hunters, based at Keesler Air Force Base and the 920th Rescue Wing 
based at Patrick Air Force Base in Florida. The Hurricane Hunters flew 
59 sorties with their new WC-130J aircraft into the eye of hurricanes 
and tropical storms to determine the strength and path of the weather 
systems even while their homes were being destroyed. Even after they 
had lost everything, they continued to perform their mission flawlessly 
from Dobbins Air Reserve Base, Georgia. The 920th Rescue Wing, the 
first unit on the scene, flew more than 100 sorties in their HH-60G 
helicopters, recovering 1,044 people who were threatened by the rising 
water.
    At the same time, other Reserve airlift units from around the 
country were responding with medical and evacuation teams that assisted 
in the transfer of more than 5,414 passengers and patients within and 
from affected areas. In fact, the Air Force Reserve accounted for more 
than 80 percent of aeromedical evacuations. Combined rescue and airlift 
missions over the 60-day period of these storms surpassed 500 sorties 
and transported 3,321 tons of relief cargo. Additionally, to combat 
insect-borne illnesses such as malaria, West Nile virus and 
encephalitis that often gain footholds during natural disasters, our 
910th Airlift Wing from Youngstown ARS, Ohio utilized their C-130's to 
spray 10,746 gallons of insecticide across 2.9 million acres. This 
equates to an area roughly the size of Connecticut and spanned 
locations from Texas to Florida. Interagency coordination with State 
and Federal organizations also resulted in the Air Force Reserve 
assisting in the areas of communications, civil engineering, security 
forces, food services, public affairs and chaplaincy support to aid in 
overall relief efforts.

               OUR PEOPLE: MOBILIZATION VS. VOLUNTEERISM

    As these tremendous efforts clearly demonstrate, the backbone of 
the Air Force Reserve is our people because they enable our mission 
accomplishment. These patriots, comprised of traditional unit 
reservists, Individual Mobilization Augmentees (IMAs), Air Reserve 
Technicians (ARTs), Active Guard and Reserve (AGRs), and civilians, 
continue to dedicate themselves to protecting the freedoms and security 
of the American people. The operations tempo to meet the combatant 
commanders' requirements since September 11, 2001 remains high, and is 
not expected to decline significantly in the near future. A key metric 
that reflects this reality is the number of days our Reserve aircrew 
members are performing military duty. In calendar year 2005, each of 
our aircrew members served an average of 91 days of military duty. This 
is a significant increase compared to an average 43 days of military 
duty per aircrew member in calendar year 2000, the last full calendar 
year before the start of the GWOT, and more than double the minimum 
number of participation days required.
    Having maximized the use of the President's Partial Mobilization 
Authority, the Air Force Reserve has begun to rely more heavily on 
volunteerism versus significant additional mobilization to meet the 
continuing Air Force requirements since September 11, 2001. There are 
several critical operational units and military functional areas that 
must have volunteers to meet ongoing mission requirements because they 
are near the 24-month mobilization authority. These include C-130, MC-
130, B-52, HH-60, HC-130, E-3 AWACS, and Security Forces. During 
CY2005, the Air Force Reserve had 6,453 members mobilized and another 
3,296 volunteers who served in lieu of mobilization to support GWOT. As 
the 2005 calendar year closed, the Air Force Reserve had 2,770 
volunteers serving full-time to meet GWOT requirements and 2,553 
Reservists mobilized for contingency operations. We expect this mix to 
become increasingly volunteer-based as this ``Long War'' continues.
    The key to increasing volunteerism, and enabling us to bring more 
to the fight, is flexibility. To eliminate barriers to volunteerism, 
the Air Force Reserve has several on-going initiatives to better match 
volunteers' desires and skill sets to the combatant commanders' mission 
requirements. For example, the Integrated Process Team we chartered to 
improve our volunteer process recently developed a prototype web-based 
tool. It gives the reservist the ability to see all the positions 
validated for combatant commanders and allows the Air Force Reserve to 
see all qualified volunteers for placement. We must have the core 
capability to always match the right person to the right job at the 
right time. We also expect volunteerism will be positively affected as 
a result of the National Defense Authorization Act of 2005. This act 
fosters more continuity in volunteerism because it adds flexibility to 
end-strength accounting rules and provides equal benefits for activated 
personnel. Facilitating the reservists' ability to volunteer provides 
more control for the military member, their family, employer and 
commander. In turn, this predictability allows more advanced planning, 
lessens disruptions, and ultimately, enables more volunteer 
opportunities.

                       SHAPING THE RESERVE FORCE

    As an equal partner in the Air Force Transformation Flight Plan 
(PBD720), the Air Force Reserve plans to realign resources to transform 
to a more lethal, more agile, streamlined force with an increased 
emphasis on the warfighter. In this process, we plan to eliminate 
redundancies and streamline organizations, which will create a more 
capable force of military, civilians, and contractors while freeing up 
resources for Total Force recapitalization. No personnel reductions 
exist as a result of the Air Force Transformation Flight Plan in fiscal 
year 2007. Our reductions begin in fiscal year 2008. Over the FYDP the 
Air Force Reserve is planning for a reduction from 74,900 authorized 
personnel in fiscal year 2006 to an end strength of 67,800 personnel at 
the end of fiscal year 2011.

                        RECRUITING AND RETENTION

    The Air Force Reserve has experienced satisfactory retention, while 
simultaneously meeting our recruiting goals for a fifth consecutive 
year. I am proud of the fact that our Reservists contribute directly to 
the warfighting effort every day. When our Reserve Airmen are engaged 
in operations that employ their skills and training, there is a sense 
of reward and satisfaction that is not quantifiable. I attribute much 
of the success of our recruiting and retention to the meaningful 
participation of our airmen.
    That being said, the 10 percent reduction in personnel planned over 
the FYDP, coupled with the impact of BRAC initiatives, presents 
significant future recruiting and retention challenges for the Air 
Force Reserve. With the personnel reductions beginning in fiscal year 
2008 and the realignment and closure of Reserve installations due to 
BRAC, approximately 20 percent of our force will be directly impacted 
by the planned changes through new and emerging missions, and mission 
adjustments to satisfy Air Force requirements. In light of all these 
changes, we expect the recruiting and retention environment will be 
turbulent, dynamic and challenging.
    Unlike the Regular Air Force, the Air Force Reserve does not have 
an assignment capability with command-leveling mechanisms that assist 
in the smooth transition of forces from drawdown organizations into 
expanding organizations. In drawdown organizations, the focus will be 
on maintaining mission capability until the last day of operations, 
while also trying to retain as much of the force as possible and 
placing them in other Air Force Reserve organizations. To accomplish 
this, we need to employ force management initiatives that will provide 
our affected units with options to retain our highly trained personnel.
    This contrasts greatly with the organizations gaining new missions 
and/or authorizations. It's important to remember that the Air Force 
Reserve is a local force and that growing units will face significant 
recruiting challenges when considering the availability of adequately 
qualified and trained personnel. As has always been the case, we will 
focus on maximizing prior service accessions. Regular Air Force 
reductions over the FYDP may prove beneficial to our recruiting efforts 
but will not be the complete answer since the Regular Air Force 
critical skills closely match those in the Reserve. ``Other prior 
service'' individuals accessed by the Reserve will inevitably require 
extensive retraining which is costly. The bottom line is that retaining 
highly trained individuals is paramount. Retention must be considered 
from a total force perspective, and any force drawdown incentives 
should include Selected Reserve participation as a viable option. It is 
imperative legislation does not include any language that would provide 
a disincentive to Reserve Component affiliation. Recruiting and 
retaining our experienced members is the best investment the country 
can make because it ensures a force that is ready, and able to go to 
war at any time.

                      BASE REALIGNMENT AND CLOSURE

    Recruiting and retention are particularly important when 
considering the significant impact of the 2005 BRAC recommendations. 
The Air Force Reserve had seven bases realigned and one, General Billy 
Mitchell Field in Milwaukee, Wisconsin closed. To our Reserve Airmen, a 
base realignment, in many cases, is essentially a closure. When BRAC 
recommended the realignment of our wing at Naval Air Station New 
Orleans, our airplanes were distributed to Barksdale AFB, Louisiana and 
Whiteman AFB, Missouri, while the remaining Expeditionary Combat 
Support was sent to Buckley AFB, Colorado. In another example, BRAC 
recommended the realignment of our wing at Selfridge ANGB, Michigan and 
directed the manpower be moved to MacDill AFB, Florida to associate 
with the Regular Air Force. New Orleans, Louisiana to Denver, Colorado 
and Selfridge, Michigan to Tampa, Florida are challenging commutes for 
even the most dedicated reservist. These are just a few examples of the 
impact base realignments have on our reservists. In the majority of 
realignments, ability to serve is hindered due to the distances they 
must travel to participate. In the post-BRAC environment, we continue 
to strive to retain the experience of our highly trained personnel. We 
are working closely with the Air Force and the Office of the Secretary 
of Defense, on initiatives that will encourage those who were impacted 
by BRAC decisions to continue to serve.

                             FAMILY SUPPORT

    The military commitment that reservists make has a profound effect 
on their families. The stresses of the military lifestyle; the 
possibility of unexpected deployments, often into areas of unrest, can 
play havoc on a family unit. Family Readiness offers a variety of 
services to support military families during these stressful times. 
Family Readiness offices provide the following services for the 
families of deployed Reservists:
  --Family readiness data card completed by member at deployment for 
        special needs
  --Video telephones available at deployed site and unit site
  --FAMNET (Family Support Global Communication Network) available at 
        63 countries (Internet access not required)
  --Joint inter-service family assistance services
  --Crisis intervention assistance
  --Volunteer opportunities
  --Reunion activities
  --Information and referral services to appropriate support agencies
  --Assistance with financial questions and concerns
  --Telephone tree roster for communication to the families from the 
        unit
  --Family support groups
  --Morale calls
  --Letter writing kits for children
  --E-mail
    Amazingly, there are only 21 full-time positions throughout the Air 
Force Reserve to handle all these responsibilities. Family Readiness 
offices support Reserve Component members during times of mobilization 
and also with operational missions. In May 2005, Dobbins Air Reserve 
Base, Georgia held a recognition event for family members and brought 
agencies from across the spectrum to answer questions. A few months 
later they found themselves playing host to displaced Reserve Component 
members and their families from Hurricane Katrina.
    According to the Family Readiness Office at Headquarters Air Force 
Reserve Command (AFRC), family members are displaying the effects of 
mobilization and seeking assistance from readiness offices and 
organizations like One Source. In 2005 there was a 12 percent increase 
in usage of Air Force Reserve Family Readiness support. The top issues 
follow:
AFRC Top Issues
  --Emotional well-being
  --Stress from repeated deployments and length.
One Source Top Issues
  --Emotional well-being
  --Financial
  --Personal and family readiness issues
  --Parenting and everyday issues
  --Education (suddenly being military).
    The command has seen a 38 percent usage of face-to-face counseling 
service through free developmental counseling of 6 sessions offered per 
issue at no cost. A provider is found within 30 miles of residence 
rather than just at the closest military installation. In these 
sessions there is a focus on grief and loss, reintegrating couples in 
their relationship and achieving work/life balance.
    Improving family readiness programs by strengthening connections 
with the family, helping them be better prepared, and having a 
proactive outreach program to ensure unit, individual and family 
readiness are a few of the necessary developments.
    Just as Reserve Component members are participating at far greater 
rates, our Family Readiness is a 365-day a year program. Although we 
now have demobilization training, it is more difficult to 
institutionalize because members want to get home. When they finally 
recognize they need help, we are left scrambling to provide assistance. 
This is even more difficult at units like Peterson Air Force Base, 
Colorado and Maxwell Air Force Base, Alabama where Family Readiness is 
an additional duty. The command is working on how to best meet these 
growing requirements. One thing that hasn't changed is that families 
are proud of the military member's role in fighting the war on terror.

                         ONE TIER OF READINESS

    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis within 72 hours. In many cases, including 
our response to the devastation during the hurricane season, we are 
able to respond within 24 hours. We train to the same standards as the 
active duty for a reason. We are one Air Force in the same fight. With 
a single level of readiness, we are able to seamlessly operate side-by-
side with the Regular Air Force and Air National Guard in the full 
spectrum of combat operations. As an equal partner in day-to-day combat 
operations, it is critical we remain ready, resourced and relevant.
New Mission Areas
    The Air Force Reserve will continue to transform into a full 
spectrum force for the 21st Century by integrating across all roles and 
missions throughout the Air, Space and Cyberspace domains. Our roles 
and missions are mirror images of the Regular Component. Bringing Air 
Force front line weapon systems to the Reserve allows force unification 
at both the strategic and tactical levels. Indeed, we are a unified, 
total force.
    Sharing the tip of the spear, our focus is on maximizing warfighter 
effects by taking on new and emerging missions that are consistent with 
Reserve participation. Reachback capabilities enable Reserve forces to 
train for and execute operational missions supporting the Combatant 
Commander from home station. In many cases, this eliminates the need 
for deployments. The Associate Unit construct will see growth in 
emerging operational missions such as: Unmanned Aerial Systems, Space 
and Information Operations, Air Operations Centers, Battlefield Airmen 
and Contingency Response Groups. The Active/Air Reserve Components mix 
must keep pace with emerging missions to allow the Air Force to 
continue operating seamlessly as a Total Force. This concurrent 
development will provide greater efficiency in peacetime and increased 
capability in wartime.
Transforming and Modernizing the AFR
    Equipment modernization is our lifeline to readiness. As the Air 
Force transitions to a capabilities-based force structure, the 
combination of aging and heavily used equipment requires across-the-
board recapitalization. The United States military has become 
increasingly dependent on the Reserve to conduct operational and 
support missions around the globe. Effective modernization of Reserve 
assets is vital to remaining a relevant and capable combat ready force. 
While the Air Force recognizes this fact and has made significant 
improvement in modernizing and equipping the Reserve, the reality of 
fiscal constraints still results in shortfalls in our modernization and 
equipage Funding our modernization enhances availability, reliability, 
maintainability, and sustainability of aircraft weapon systems; 
strengthening our ability to ensure the success of our warfighting 
commanders and laying the foundation for tomorrow's readiness.

                         FISCAL YEAR 2006 NGREA

    The National Guard and Reserve Equipment Account (NGREA) resolves 
some of these AFR equipment deficiencies. We appreciate the support 
provided in the 2006 NGREA. The money you provide is making a 
difference; increasing the capability and safety of our airmen, and the 
security of our Nation. The fact is AFR NGREA procurement strategy 
fulfills shortfall equipment requirements. The items we purchase with 
NGREA are prioritized from the airmen in the field up to the Air Force 
Reserve Command Headquarters and vetted through the Air Staff. The 
cornerstone is innovation and the foundation is capabilities-based and 
has been for many years. In fiscal year 2006 the Air Force Reserve is 
spending $30 million on critical aircraft modernization and 
miscellaneous equipment to help fulfill our Nation's air, space, and 
cyberspace peacetime and wartime requirements. These items run the 
gamut from multi-function aircraft displays, security forces night 
vision devices, defensive systems, aircraft radar upgrades and enhanced 
strike capabilities.
    The Air Force Reserve is spending $3.21 million on modernizing the 
A-10 aircraft Litening AT POD interface. Use of a Multi-Function Color 
Display (MFCD) provides additional capability, including data link 
integration, machine-to-machine image transfer, moving map, cursor-on-
target and ARC-210 integration. We are also completing our buy of 23 
additional Situational Awareness Data Link radios for the A-10 at a 
cost of $920,000. We are continuing our support for the radar test 
stand modification and the Joint Helmet Mounted Cueing System (JHMCS) 
with $1.3 million. We continue to purchase Litening AT Pods; this year 
we have added $9.688 million of NGREA to the conference line item 
appropriation of $12.4 million for a total of $22.088 million. This 15-
pod procurement completes the current total validated command pod 
requirement. Additionally this procures spares, support equipment and 
required warranties.
    Upgrading the C-130 fleet with all-weather color radar has been an 
Air Force Reserve priority for the last several years. This year we 
continue our dedication to the program by adding $4.75 million to the 
conference appropriated $7.5 million for a total of $12.25 million to 
purchase 14 radars. This means 60 percent of the Air Force Reserve C-
130 fleet will have the APN-241 radar. We are also spending $1.8 
million to begin installing the capability for both C-130 pilots to 
dispense chaff and flares to enhance survivability in a combat 
environment. Previously, aircrews had to rely on crew positions other 
than the pilots to react to threats. Adding this capability doubles the 
number of crewmembers who can effectively counter threats in a timely 
manner.
    The Air Force Reserve also has a need for Defensive Systems 
testers, specifically, an end-to-end ground-based tester for the AAR-47 
missile detection system and an ALE-47 IR countermeasures dispensing 
system. The desired capability will allow testing of the complete 
system while it is in normal operation mode by transmitting 
independent, external signals to the AAR-47, rather than using built in 
testing routines that are not comprehensive.
    On our B-52's we are installing Smart Multi-Function Color Display 
and Digital/Analog Integrated Track Handle which will provide the most 
cost effective solution to resolve a critical shortage with B-52 
Targeting Pod controllers. Along those same lines we are also 
installing a Multi-Function Color Display to enhance our search and 
rescue capabilities on the HH-60 helicopter. The combat rescue mission 
requires increased computer processing capability and color displays to 
enhance target identification and moving map capability.
    Night vision operations continue to be at the forefront in the Air 
Force Reserve. We rely on our Security Forces in all aspects of the 
battle and depend on our Pararescue personnel, PJs, for personnel 
recovery. To that end we are spending $330,000 to outfit our Security 
Forces personnel with night vision devices and laser sights. Since our 
PJs have long operated with outdated night vision goggles, $2.1 million 
is being spent this year to upgrade the PJs capabilities, both in the 
air and on the ground via acquisition of advanced night vision devices.

                        FISCAL YEAR 2007 FUNDING

    The President's Budget as forwarded to Congress is vital to our 
relevance and participation in the long war. It is balanced and what we 
need to remain relevant in the future and fulfill the immediate needs 
of the Combatant Commander.
    We support the President's Budget decision to retire our aging 
equipment. Divesting force structure is an essential piece in enabling 
the Air Force Reserve to recapitalize our fleet, modernize our force 
and increase associations. Depot maintenance costs affect us across the 
board--training, readiness and operations, sapping resources and 
preventing us from transforming to the force we need. We simply can't 
afford to defer these retirements any longer. In an age of competing 
priorities and scarce resources, accepting retirement of our oldest 
legacy aircraft will reduce depot maintenance costs and free resources 
to properly shape the force and increase combat capability to the 
warfighter.

                             RECONSTITUTION

    With a much higher operations tempo over the past 4 years, our 
equipment is aging and wearing out at much higher than projected rates. 
Reconstitution is a planning process with the purpose of restoring 
``units back to their full combat capability in a short period of 
time.'' The Long War is having a significant and long-term impact on 
the readiness of our Air Force Reserve units to train personnel and 
conduct missions. The goal must be to bring our people and equipment 
back up to full warfighting capability.
    The rotational nature of our units precludes shipping equipment and 
vehicles back and forth due to cost and time constraints, therefore, 
equipment is left in the AOR to allow quick transition of personnel and 
mission effectiveness. However, the additional impacts are potential 
AFR equipment disconnects and decreased readiness. The number one 
contributing factor to poor readiness is equipment shortfalls. After 
September 11, 2001 and during Operations Iraqi Freedom and Enduring 
Freedom, units returning back to CONUS returned without the same level 
of equipment as when they deployed. While leaving equipment and 
vehicles in the AOR supports rotations and mission requirements, it has 
a negative impact on readiness for the Total Force.
    To preclude mission degradation, reconstitution plays a vitally 
important role for the returning unit. Air Force Reserve Command, 
working with the Air Staff, has put together a Memorandum of Agreement 
to replace approximately $2.2 million of the $5.4 million in GWOT 
equipment that is unavailable due to being transferred, withdrawn, or 
diverted in support of OIF/OEF. Equipment left behind includes 
generators, test sets, fork lifts, cargo trucks, HMMWVs, M-16 rifles, 
9MM pistols, night vision scopes, laptops, body armor, etc. 
Reconstituting our equipment is critical for our airmen to train, 
perform their mission and maintain readiness.

                                CLOSING

    I would like to close by offering my sincere thanks to each Member 
of this committee for their continued support and interest in the men 
and women of your Air Force Reserve. Thank you for keeping the National 
Guard and Reserve Equipment Account (NGREA) alive and vibrant. Money 
contributed by your committee through NGREA, has been essential to 
keeping the Reserve relevant to the fight and at the leading edge of 
employed technology in the field. While we maintain our heritage of 
providing a strategic reserve capability, today and into the future, we 
are your operational warfighting Reserve, bringing a lethal, agile, 
combat hardened and ready force to the Combatant Commander in the daily 
execution of the long war. Our vision is to provide the world's best 
mutual support to the Air Force and our joint partners. We gratefully 
appreciate your continued support in helping us defend this Nation in 
our role as an Unrivaled Wingman.

    Senator Stevens. Let me do this, and we do appreciate the 
brevity that you have all expressed. The time is a problem this 
morning because of the votes that are coming. But we do have 
real concerns about the Reserve. We have currently, as I 
understand it, 109,000 of the Guard and Reserve are on active 
duty now, I am informed. And the Guard and Reserve comprise 
more than 81 percent of the total of the mobilized Guard and 
reservists. There are more than 40,000 of your people on active 
duty now in the Army and 5,300 marines and the Navy has more 
than 500 soldiers as I understand, plus 1,500 Reserve sailors 
that provide support for the fleet, and the Air Force Reserve 
flew 20,000 sorties in the last fiscal year alone.
    Now, that is an increasing tempo that we really have got to 
learn more about and what it means in terms of costs and the 
impact on your structure. This operational tempo really brings 
about the question of readiness. We would like to have you each 
describe what you are doing to change your processes so that it 
takes into account this readiness requirement now that is 
involved in the Reserve.
    Ms. Ashworth tells me that we have people in uniform now in 
146 different countries of the world. As you listen to the 
daily news, we all know this is a continuing struggle now 
against terrorism that is going to go on. Are we going to see 
any reformation in the Reserve structures in each one of your 
services now to take into account this? How are you going to 
prepare people for the fact that they are going to be the next 
to be called up in the Reserve, and how are we going to deal 
with them when they come out of the Reserve and go back into 
their daily lives?
    Will there be a guarantee, as mentioned here by Senator 
Leahy, of how long before you can be recalled up, except for a 
real world calamity? I think we would like to have you tell us 
if there is anything we can do to help you in terms of these 
changes, or at least reviews that have to be made to see what 
changes should be made.
    General Helmly.
    General Helmly. Senator, I will lead off and I will be 
brief to leave adequate time for my peers. First of all, I 
would point to this chart which you see in front of you, which 
is called and addresses the issue of readiness. Regardless of 
the size of the force, in the past, on the left--and I will 
point to it here--we have had a force structure----
    Senator Stevens. This is the Army alone, right?
    General Helmly. This is the Army Reserve, yes, sir.
    We have had a force structure allowance above our end 
strength. That force structure allowance is the cumulative 
number of people that it would take to fill if we filled all of 
our units, regardless of where they are, to 100 percent. So we 
overstructured the force. That was an industrial age model for 
a strategic reserve that we planned to fill over time from the 
Individual Ready Reserve (IRR) or from new recruits.
    What we are doing to address that, frankly, is very painful 
and what it in some people's minds is counterintuitive, because 
we are inactivating units in the midst of a war. But the units 
that we are inactivating are nondeploying formations, first. 
They are headquarters formations, they are garrison support 
units, they are units that were not structured or built to 
deploy.
    So our intent, on the right, is to over the program 
objective management (POM) years lower our structure allowance 
to about 180,000 soldiers, using about 10 percent of our end 
strength to man a trainees, transient, holdies and student 
(TTHS) account. That is where we account for soldiers who are 
in the training base or who are otherwise unready for temporary 
periods of time, profiles, going through board actions, et 
cetera. Then we have already implemented a delayed entry 
program, a 21st century modern manpower tool used by the 
regular Army, that accounts for recruits who have not yet 
shipped to basic training.
    So that is how we are addressing the readiness issue. The 
second point I will address is the rotational. I would avoid 
the word ``certainty.'' Certainly I know you will agree there 
is no certainty in a very dangerous, uncertain world today. 
That is why this readiness challenge is so important, because 
none of us can predict when our forces will be required with 
certainty.
    But we are now implementing in the Army, and I am proud to 
say we in the Army Reserve pioneered, an Army Reserve 
expeditionary force, which has now morphed into the Army force 
generation model. Frankly, we went to school on how Navy and 
marine forces, both Reserve and Active, had operated in the 
past and the Air Force, Air Reserve air expeditionary force 
model. In fact, we visited Air Force Reserve Command 
headquarters, General Bradley's headquarters, and asked their 
staff--they were very cooperative--to explain to us how they 
managed that in the Air Force Reserve.
    So we are implementing that in rotational force pools, not 
to provide certainty, but to provide greater predictability 
over a 5-year pool period when my force is more apt to be 
called, when I am expected to be in a higher state of 
readiness, if you will.
    I would add one last thing. These measures are in my 
professional judgment very necessary. We must change ourselves 
from within to meet the demands of this century. But similarly, 
it is my judgment that the policies, practices, and procedures 
by which we are governed, that relate to personnel management, 
recruiting, retention, training, mobilization, and in fact 
funding, are in similar need of deep change.
    Thank you very much for your time.
    Senator Stevens. Senator Inouye, do you have any comments 
along that line?
    Senator Inouye. According to the most recent QDR, a policy 
decision was made that the Pacific area may be the area of 
concern, much greater than the Atlantic area. As such, for 
example, they are going to have five carriers in the Pacific 
and five in the Atlantic. It used to be six in the Atlantic and 
four in the Pacific.
    With that in mind, why did the Quadrennial Defense Review 
come out and transform your Army Reserve 9th Regional Readiness 
Command to the 9th Regional Support Group, downgraded it, 
reduced the strength? Do you not think it would have an impact 
upon command and control in the Pacific area?
    General Helmly. Senator, we do not intend to reduce our 
Army Reserve strength numbers in the Pacific region. We will 
change the headquarters of the 9th Regional Readiness Command, 
that is accurate, to a Regional Support Group. We will retain 
there a brigadier general. We are moving the 311th Signal 
Command, Network Operations Command, a two-star command, over 
time from CONUS to Hawaii. It will be the daily, 24/7/365 
network operations for Army and joint forces in the Pacific, 
the combatant commander.
    In addition, as the Army establishes a regular Army-
commanded 8th Theater Sustainment Command headquartered in 
Hawaii to provide logistics support throughout the region, the 
deputy commander of that organization will be an Army Reserve 
brigadier general.
    Our forces in the Pacific have sustained us very well, 
valiantly. The most recent example is the 1442d ``Go for 
Broke'' Battalion, but throughout that region from Hawaii and 
the territories in the Pacific we have recruited very well. The 
soldiers and their families are courageous, strong. We have no 
intention of reducing whatsoever our strength. We are simply 
restructuring to make the headquarters of the 9th Reserve 
Readiness Command (RRC) a deployable formation.
    Senator Inouye. Thank you very much. It is reassuring.

                               EQUIPMENT

    General Bergman, there is a tremendous amount of wear and 
tear, we have been told, on Army equipment, and I presume it 
must be the same with yours. How do you feel that this will 
impact upon readiness of your units?
    General Bergman. Well, sir, the increased use of the 
equipment is by no means a secret to anyone. The cyclic rate is 
in some cases 5 to 10 times what it was programmed for original 
usage. Across the total force Marine Corps, we have cross-
leveled through a strategic ground equipment working group all 
of those equipment pieces that are in, whether they be in the 
prepositioned force, the caves, Albany storage, wherever it 
happens to be, and actually over the last year increased the 
supply readiness by about 5 percent.
    However, at the same time, because of that increased cyclic 
rate usage, we see that we will continue to need more equipment 
just in the Reserve component to maintain the 80 percent 
training allowance that we use.

                        RECRUITING AND RETENTION

    Senator Inouye. I have been told that the Marine Reserves 
have longer deployment to the Middle East than other units. If 
that is so, how does it affect recruiting and retention?
    General Bergman. Well, sir, if you will, the Marine Corps 
business model for rotations, whether it is Active or Reserve, 
is basically a 6- to 7-month rotation, whether it be deployed 
as part of a marine expeditionary unit or deployed to Iraq or 
Afghanistan. With that model applied across the total force, it 
has allowed us to plan for activation, let us say, of 
battalions, reserve battalions, that within a 1-year business 
activation, 1-year business model activation, ample 
predeployment training, 7-month deployment, and ample time for 
demobilization.
    Retention is above normal about 3 percent. So I guess what 
that says in the long term is that the people are voting with 
their feet and they are staying. So it is a good news story. 
Recruiting, we are right on track to make our 39,600 for this 
year, sir.
    Senator Inouye. General Bradley, many of your units were 
realigned by BRAC and as a result many of your personnel would 
have to make up their minds, do they travel long distances or 
quit. How are you addressing this problem?
    General Bradley. Sir, what we are doing is we are working 
very hard to try to place every single person who wants to stay 
with us in a new unit. That will not work for everyone. Not 
everyone can pick up and move their families. As you know, we 
are not allowed to pay for moves of reservists or guardsmen 
when their base or unit is closed.
    There is a huge amount of realignment going on. We are 
affecting about 13,000 people. We have a lot of innovative 
programs that we are using to assist them in finding jobs. We 
want to keep them in the Air Force Reserve if we can. If we can 
assist them in getting in the Air National Guard or the Marine 
Corps Reserve or the Army Reserve, we will do that as well, 
because we want them to continue serving our Nation if 
possible.
    We also, though, would ask for and have been working on 
Capitol Hill to try to get authorities that we had in the 1990s 
during the base closure rounds for Reserve transition 
assistance programs for those people who have served our Nation 
for 15 years or more, to allow them to have some reduced type 
of retirement. And they would receive that retirement pay at 
age 60, but it would be reduced from what someone who had a 20- 
or 25-year retirement would be. The Reserve transition 
assistance program has been pretty well received by the members 
with whom we have talked.
    We are trying hard to keep those people in our units. We 
are getting more efficient through this base closure process. 
It up-ends lives, but ultimately we will save a lot of money by 
having the right numbers of airplanes on our bases and the 
right numbers of bases.

                               RECRUITING

    Senator Inouye. Admiral Cotton, I gather that the Navy, 
like all other components, must rely on bonuses and incentives 
to address recruiting challenges. How have you carried out this 
program? Because I have been told that you are a little 
different from the rest of them.
    Admiral Cotton. Yes, sir, we are. Two and one-half years 
ago we integrated Navy and Navy Reserve recruiting. We have 
changed expectations of a sailor so that we no longer leave the 
Navy, end an obligation, quit the Navy. You transition to the 
Reserve component once you complete your initial obligation, 
either full-time selected reservist or Individual Ready 
Reserve. So everyone will go to the Reserve component. We will 
keep track of you.
    So this is a continuum of service, a culture of a sailor 
for life, and then transitions or on-ramps and off-ramps 
throughout service back to active duty, according to skill sets 
and capabilities. Age does not really matter right now, 
particularly in a global war on terror, with the skill sets 
that we are sending ashore in Central Command in particular.
    One thing I would like to ask your consideration for is I 
personally think the Army Guard has got it. If you look at 
their numbers increasing right now, they have a finder's fee. 
They pay $1,000 for someone to recommend a friend to join and 
another $1,000 when they complete training, and this has proven 
to be extremely effective for the title 32 guardsmen.
    I think we should look at the authority for us to do the 
same thing, where every sailor, every soldier, every airman, 
every marine is also a recruiter. This would give us an ability 
to go out into the community and recruit our friends. I also 
think you can pay for it in the top line by reducing full-time 
recruiters, because every single person in uniform who has ever 
served could turn into a recruiter.

                        RECRUITING AND RETENTION

    Senator Inouye. I know that recruiting and retention go up 
and down, but one thing seems certain, that the present 
situation in the world is not going to be changing drastically 
in the next 10 years. We will be at war, at least for the next 
decade. What are the best methods of recruiting and retaining? 
Are we doing the right thing?
    General Helmly. Senator, in my own judgment, I believe 
Admiral Cotton's point to the National Guard's success in the 
way that it has been done. The Army received an authorization 
to use $1,000 bonus in the 2006 authorization act, but the 
language which went with it reduces our flexibility. It is my 
judgment we are proposing that we be allowed to expand the pool 
so that retirees could also, by virtue of referring someone--
that is a tremendous tool of very talented, rich people out 
there--and then similarly when you referred someone you would 
get the $1,000 bonus, similar to the National Guard, for the 
referral, not the way we have tied it today, which is to my 
completion of initial military training.
    The second part I will note is that I agree completely with 
the Navy's move toward a continuum of service. I have proposed 
to the Army that we abolish the word ``discharge,'' that we do 
away with that, that one is not discharged until one has 
completed their mandatory service obligation.
    Third, I place a premium on retention. In our case, in 
business terms, it costs us an average of $117,000 burden of 
cost to recruit an 18- to 22-year-old man or woman off the 
street, and out of that certainly there is an attrition rate 
that accrues as you go through physicals and initial military 
training.
    The retained soldier is experienced, they are mature. That 
is the kind of skill set we need in today's armed forces, a 
more mature, a more language, culturally aware soldier, a more 
technically competent soldier. Thus I believe that we should 
look harder at retention bonuses for longer periods of time.
    Last, that is why I have favored in the past for Reserve 
component members and continue to favor an age 55 receipt of 
nonregular retired pay, but tying that to the completion of 30 
years service, not 20 years service. It is my judgment that if 
we costed that out we would see in fact a possible savings, 
rather than what everyone expects, which is a huge bill. That 
is because I favor tying it to the completion of 30 years 
service, to keep people longer, and then draw retired pay at 
age 55, as opposed to encourage them to leave at 20 and then 
wait until age 60 to draw it.
    That is my answer.
    Admiral Cotton. Senator, I would agree with you, we are 
increasingly challenged to recruit, particularly because we are 
resistant to change the way we do it. We still go to the 18- 
and 19-year-old high school graduate. If you look at a major 
publication last week, the cover of the magazine talked about 
30 percent dropouts in our high schools. We have done research 
to determine that 70 percent of our Nation's youth today is 
ineligible for military service. So we are all going after the 
same 30 percent segment, trying to bring them in the front 
door, and I think ignoring at our own peril those that have 
served before, particularly individual ready reserve.
    If we went after them, bonused their behavior, treasured 
them for a whole career, with an on-ramp back to service, I 
think we could go after the skill sets in a better way than we 
are doing right now.
    Senator Inouye. General Bergman.
    General Bergman. Sir, up until about 4 years ago the 
average number of hours that a marine recruiter spent with a 
potential new marine was about 4 hours. Over the past 4 years, 
that has increased to about 12 hours of recruiting time, 
largely due to the expanded hours spent with the influencers--
parents, coaches, uncles, aunts, et cetera.
    The best thing that we can do when we look these young men 
and women in the eye or their influencers in the eye is to be 
honest about what it really means to go into the military, the 
challenges that await them, but back that honesty up with the 
absolute best training and preparation possible to prepare them 
to succeed, because deep down we all want to succeed and can be 
successful somewhere. We just need to have the confidence that 
our institution provides that preparation.
    Senator Inouye. General.
    General Bradley. Senator, I agree with what all of my 
colleagues have said. I will tell you, the people that we are 
recruiting today are better than those that we recruited when I 
joined the Air Force many, many years ago. I have seen a great 
qualitative improvement in our force, and I think one of the 
reasons is in our Air Force we have given our Air Force 
reservists and our Air National guardsmen real day to day 
operational missions. The morale is better, our retention is 
better than it used to be in the 1970s and 1980s. It is a great 
improvement.
    Now, we are using our people at a great rate. We are going 
to keep doing that because, as you say, this war will go on for 
a long time. But our retention is better than it has ever been, 
and I am proud of that. What our people tell us is they are 
proud to be part of our units, they like doing real work for 
America, and they believe it is very important work.
    The incentives and bonuses and authorities that the 
Congress has provided us over the last few years has helped us 
immensely. But I think, as General Bergman says, we have to 
look every one of these new people we are recruiting in the eye 
and tell them exactly what they are getting into.
    They are continuing to join us. We are not having any 
trouble in the Air Force Reserve recruiting people, and I would 
not equate our recruiting challenges with the Army or the 
Marine Corps. I think they have a tougher job. But we are 
working hard at it. We get good recruits because we have good 
programs to incentivize people to join. But once they get in, 
they are proud to be part of it and they think they are 
contributing something important and they are. I think that 
keeps them.
    Thank you, sir.
    Senator Inouye. Thank you, gentlemen.
    Thank you, Mr. Chairman.

                          EQUIPMENT SHORTFALLS

    Senator Stevens. Gentlemen, we provided $30 million to each 
of you to address ongoing equipment shortfalls. Could each of 
you tell us, have you gotten that money and have you used it 
well? General Helmly.
    General Helmly. Senator, we have.
    Senator Stevens. It has been released to you, right?
    General Helmly. Yes, sir, that is correct.
    Senator Stevens. Do you see a need for further money now?
    General Helmly. Senator, certainly there is a need for 
money. I sort of echo the comments of my colleague General Blum 
on the first panel that the Army's equipping challenges are 
deep. Army equipment is purchased by Army dollars and we input 
to that. The Army POM addresses that. I would urge this 
subcommittee and its colleagues in the other subcommittee to 
sustain the requested level of funding in the Army POM and 
equipping. The Army equipping--and we have addressed that for 
the Army and its colleagues in the Marine Corps. We are wearing 
that heart.
    Senator Stevens. Well, we specifically gave you, General 
Helmly, the $100 million for title 9 in the 2006 act. Did you 
receive that money?
    General Helmly. Yes, sir, we did.
    Senator Stevens. And is it committed?
    General Helmly. Sir, I cannot say that we have committed it 
in financial management terms today. I owe you an answer on 
that. There is a ``committed'' and an ``obligation'' terms that 
have a formal definition.
    [The information follows:]

    The Army Reserve has obligated or committed the $150.3 
million of Title IX funding received from Congress.
    The Army Reserve received $138.8 million in Title IX for 
the Reserve Personnel, Army appropriation. As of April 26, we 
have obligated $68.8 million, and we have also committed $33.5 
million. These funds are being used to recruit, retain and 
train soldiers in support of the global war on terror. The 
remaining funds will be used for pre-mobilization training for 
units deploying in the third and fourth quarter.
    The Army Reserve received $48.2 million in Title IX for the 
Operation and Maintenance, Army Reserve appropriation. As of 
April 26, we have committed and obligated over $48 million in 
support of the global war on terror. This funding was used for 
family support, recruiting and advertising, and medical 
readiness.
    The Army Reserve greatly appreciates the support of 
Congress, and we are using these resources in the most 
efficient manner to execute GWOT.

    Senator Stevens. Admiral Cotton.
    Admiral Cotton. Yes, sir, we received the $30 million. It 
was most appreciated. Thank you for your support, and we are 
taking the taxpayer dollar and giving it straight to where it 
can do the most good for the global war on terror and that is 
to the units. We are using most in theater combat service 
support. So we are using the money very well.
    I can also say that the Navy Reserve is a full participant 
in all Navy supplementals. So throughout the year our needs are 
looked at by the Navy for funding.
    Senator Stevens. General Bergman, did you get your money?
    General Bergman. Yes, sir, we did get our money, and we 
have put it right where the rubber meets the road, with those 
marines and the equipment, especially in the personal 
protective equipment. When you think about people as we look at 
manning, literally dressing a marine for combat, we think about 
kevlar, we think about small arms protective inserts (SAPI) 
plates. Now we are adding everything from Nomex gloves to 
Wiley-X glasses to balaclavas to combat those challenges that 
we have with the explosive fire nature, if you will, of the 
improvised explosive devices. So the need is changing.
    Senator Stevens. General Bradley.
    General Bradley. Yes, sir, we received our $30 million. I 
want to thank you very much. It was much needed. The funds have 
been released and we have spent the funds. We have bought 
targeting pods for our fighter planes and our bombers, A-10's, 
F-16's, and B-52's, so that we can drop laser-guided bombs to 
do close air support for marines and soldiers on the ground in 
Iraq and Afghanistan. We have bought multifunction displays for 
cockpits to improve the capabilities of pilots in those 
airplanes to know what they are looking at for targets, where 
the friendlies are, and where the enemy is. We have bought 
datalink systems for the fighters with this funding this year, 
to improve our A-10's close air support capability, so that 
they can talk without using voice radios, datalink information 
between a forward air controller on the ground and a fighter 
pilot in a cockpit. These datalink systems are critical to 
providing quick close air support in that very important 
environment.
    So all of the funding that you have given us has gone to 
combat capability for our airplanes, mostly to support those 
soldiers and marines on the ground. Thank you very much for the 
continued support, sir.
    Senator Stevens. Thank you.
    We have got the supplemental on the floor now and it has a 
sizable amount for defense. Some of it is allocated to each of 
your organizations, I believe. We will be going into the 
regular bill for 2007 and we hope you will let us know if there 
are any special needs that you have, because I think we are in 
a period of transition. There is no question about this. This 
current war on terror is an ongoing war, a global war. I think 
soon they will call it the world war on terror. I hope people 
understand it is a world war.
    But we have got to react to your needs and make certain 
that you have the capability to bring your people into these 
engagements and have them be well equipped. It particularly is 
the equipment need that we tried to address last year, and we 
would like to work with you to make sure we address this year.
    General Bradley. Thank you, sir, for that offer. I will 
tell you, we have provided Ms. Farrell with our list of things 
that we could use equipment wise for the coming year. So thank 
you for your offer.
    Senator Stevens. Senator Inouye, do you have any further 
comment?
    Senator Inouye. I want to thank you all for your service.
    Senator Stevens. Yes. We are particularly concerned that on 
our watch this transition is taking place and we do not want it 
to lag. We want to be sure that we stay with you and we are 
able to assist you to make the transition as smooth as 
possible.
    Senator Inouye. As you can note, our support is bipartisan.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. One or the other of us has been chairman 
now since 1981 and I cannot remember a partisan word between 
us.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Question Submitted to General Jack W. Bergman
               Question Submitted by Senator Thad Cochran

                         ACTIVATION TIME LIMITS

    Question. General Bergman, as I understand it, you have efficiently 
managed the Reserve Marines' activation time limit in the face of 
growing demands in support of the Global War on Terrorism. Can you 
please explain how you've minimized the impact of increased activations 
and your thoughts on the way ahead.
    Answer. Post 9/11, Marine Forces Reserve planned to minimize the 
impact of increased activations by activating units for 12 months 
(seven months actual ``boots on the ground'' and five months for 
mobilization, advanced training and demobilization) followed by a set 
period of dwell time, followed by a second 12 month activation cycle if 
required. This plan provided our Marines and Sailors with a predictable 
activation cycle for which they could plan with less time away from 
their civilian jobs for any given activation cycle while still 
maximizing the 24 months of cumulative activation time available under 
the current mobilization authority. This plan was instituted assuming 
every available Marine or unit could be activated a full 24 cumulative 
months in support of the Global War on Terrorism.
    Because current policy does not allow us to involuntarily activate 
Marines for the second 12 month cycle described above, Marine Forces 
Reserve has had to meet requirements in support of the Global War on 
Terrorism through the one-time activation of Selected Marine Corps 
Reservists and the Individual Ready Reserve pool of Marines. As our 
units continue to be replenished with first-term junior Marines who are 
ready, willing, and able to support the Global War on Terrorism, we 
have been able to use that new pool of first time activation personnel 
and cross level seasoned Marine volunteers from one unit to another to 
meet mobilization demands. Ideally, we would like to be able to 
involuntarily activate our Marines for the second 12 month cycle as was 
originally planned which would reduce our dependency on cross leveling 
from one unit to another and thereby enhance unit cohesion. This would 
also address the leadership issue we currently face. The inability to 
involuntarily re-activate previously activated Marines or extend 
Individual Ready Reservists on Active duty under 10 U.S.C. 12302 and 
utilize the full 24 cumulative months of activation authority as 
granted, has created somewhat of a deployable leadership vacuum in 
Marine Forces Reserve. Marine Forces Reserve does not currently have a 
large cadre of leaders who have not been activated at least once. As a 
result Marine Forces Reserve has aggressively implemented sourcing 
solutions that require the solicitation of volunteers from throughout 
Marine Forces Reserve. In addition, we have gone to the active 
component (to staff Company Grade Officer billets) to staff deploying 
units to 90 percent of their Table of Organization. The fact that the 
Active Component continues to come to Marine Forces Reserve to provide 
sourcing solutions for their shortfalls should be a compelling argument 
in itself for reconsidering the current policy. Without the ability to 
extend Ready Reservists on Active Duty under 10 U.S.C. 12302, or 
involuntarily activate them for a second 12 month cycle, Marine Forces 
Reserve will continue to face the challenge of sourcing deploying units 
through first-time activation and voluntary re-activation. This policy 
increases our dependence on cross leveling between units. We feel that 
the current policy provides a short term solution to sourcing the next 
force rotation but does not allow Marine Forces Reserve to set the 
conditions to reconstitute the Force for the long war in support of 
GWOT.
                                 ______
                                 
        Question Submitted to Lieutenant General John A. Bradley
            Question Submitted by Senator Richard C. Shelby

                          PERSONNEL REDUCTIONS

    Question. General Bradley, the Air Force Chief of Staff recently 
announced that the Air Force Reserve and Air Guard should consider 
force reductions. Specifically, he cited the elimination of some layers 
of command and staffing similar to what the Active Air Force is doing. 
Taking into account that the cost to run an Air Force Reserve or Air 
Guard unit is one-half to one-third of the cost to run an Active Duty 
unit, do you believe that the Reserves need to take this type of 
personnel reduction?
    And if so, how large of a personnel cut do you foresee?
    Answer. As our part in the recapitalization and modernization of 
the Air Force, the Air Force Reserve has already planned to take the 
manpower reduction you refer to in your question. Our Citizen Airmen do 
indeed offer cost-effective combat power to the American taxpayer 
through the use of our predominantly part-time force. Perhaps more 
important than cutting and becoming more cost effective, we have worked 
with the Active Component to divest a significant number of legacy 
mission areas and re-role those manpower authorizations to the current 
priority missions that will help us remain relevant as both an 
operational and strategic reserve as we fight the Global War on 
Terrorism. While there will be some elimination of layers of command as 
General Moseley stated, our overall reduction plan is even more 
comprehensive.
    For example, in shifting strategy we will invest less in Individual 
Mobilization Augmentees (IMAs) as a strategic reserve and devote more 
resource to the operational reserve or traditional reservists. This 
means we will re-role many IMAs to the Individual Ready Reserve. 
Additionally, our Air Force Reserve Component Surgeon General is 
coordinating with the Air Force Surgeon General to refocus the Air 
Force Reserve on our core specialty of Aeromedical Evacuation as 
opposed to expeditionary medical support, leaving this mission to the 
Active Component. This will then allow the Air Force Reserve to take 
reductions across units that would provide the expeditionary medical 
mission.
    We will continue to work in concert with the Regular Air Force to 
exploit process and organizational efficiencies through Air Force Smart 
Operations 21. This will also allow us to restructure headquarters 
organizations, which have a larger proportion of full-time personnel 
than operational units. We will provide deployable support to the 
combatant commanders while still handling their ``organize, train and 
equip'' roles. This is an important step in designing a smaller, more 
capable Air Force.
    Acting as partners with the Active Component in this effort will 
allow our command structures to seamlessly work together, in both peace 
and war, and ensure the resources of the Total Force are utilized to 
preserve critically needed skills. The size of the cut we are taking as 
an Air Force Reserve is 7,744 positions or about 10.5 percent of 
today's end-strength.
                                 ______
                                 
        Question Submitted to Lieutenant General James R. Helmly
               Question Submitted by Senator Thad Cochran

                        MODULAR SUPPORT BRIGADES

    Question. Can you explain to the committee how the Reserves will 
transform to modular support brigades?
    Answer. At the completion of the Army's transformation in 2009, the 
Army Reserve will have 58 deployable combat support and combat service 
support brigades. This restructuring will transition the Army Reserve 
to a Joint and federal modular force capable of providing increased 
combat power to complement the active component with skill rich units 
and Soldiers. The Army Reserve, with its unique Title 10 mission, has 
the maximum of flexibility, agility, and adaptability to meet 
transformational requirements.
    For the first time, all of the Army Reserve operational, deployable 
forces will be commanded by an operational, deployable command 
headquarters. The transformation enhances the ability of the Army 
Reserve to provide the capabilities and units that demand technical 
skills more easily maintained at acceptable cost in the Army Reserve 
than in active military service.
    Some of the modular support brigades are currently within the Army 
Reserve. The Army Reserve will transform other existing commands to the 
modular support brigades according to the schedule outlined below:
  --Expeditionary Sustainment Commands--September 2007
  --Combat Support Brigades (Maneuver Enhancement)--September 2008
  --Sustainment Brigades--September 2008
  --Military Police Command--September 2007
  --Regional Readiness Sustainment Commands--September 2008
  --Aviation Command--September 2008
    The result of the reshaping of the Army Reserve forces will be a 
more streamlined command and control structure and will provide an 
increase in ready, deployable assets to support the Global War on 
Terror. The goal for this larger pool of available forces is to enable 
the Army to generate forces in a rotational manner.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We thank you for your testimony today and 
we look forward to another hearing on May 3, when we will hear 
testimony on military health programs. Until then, we will 
stand in recess. Thank you very much, gentlemen.
    [Whereupon, at 12:08 p.m., Wednesday, April 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 3.]

</pre></body></html>
